<html>
<title> - H.R. 1065, H.R. 1738, H.R. 2265, H.R. 2442, H.R. 2522, H.R. 2741 AND H.R. 2950</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 H.R. 1065, H.R. 1738, H.R. 2265, H.R. 2442, H.R. 2522, H.R. 2741 AND 
                               H.R. 2950 

=======================================================================

                           LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 21, 2009

                               __________

                           Serial No. 111-28

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-187 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 






















                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                


                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
         TOM McCLINTOCK, California, Ranking Republican Member

George Miller, California            Cathy McMorris Rodgers, 
Raul M. Grijalva, Arizona                Washington,
Jim Costa, California                Adrian Smith, Nebraska
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Joe Baca, California                     officio
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                























                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 21, 2009...........................     1

Statement of Members:
    Baca, Hon. Joe, a Representative in Congress from the State 
      of California..............................................    57
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, Prepared statement of.......................    20
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................    57
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Prepared statement of.................    83
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     4
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     5
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     2
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     6

Statement of Witnesses:
    Alvarez, Desi, Deputy City Manager, Downey, California.......    30
        Prepared statement on H.R. 1738..........................    31
    Brookshier, Ed, City Manager, Hermiston, Oregon..............    51
        Prepared statement on H.R. 2741..........................    53
    Connor, Michael L., Commissioner, Bureau of Reclamation, U.S. 
      Department of the Interior, Washington, D.C................     8
        Prepared statement on H.R. 1065..........................    16
        Prepared statement on H.R. 1738..........................     9
        Prepared statement on H.R. 2265..........................    10
        Prepared statement on H.R. 2442..........................    10
        Prepared statement on H.R. 2522..........................    11
        Prepared statement on H.R. 2741..........................    12
        Prepared statement on H.R. 2950..........................    13
    Darling, Gary W., General Manager, Delta Diablo Sanitation 
      District, Antioch, California..............................    43
        Prepared statement on H.R. 2442..........................    45
    Hansen, Edwin J., General Manager, Magna Water District, 
      Magna, Utah................................................    41
        Prepared statement on H.R. 2265..........................    42
    Lupe, Ronnie, Tribal Chairman, White Mountain Apache Tribe, 
      Fort Apache Indian Reservation, Arizona....................    65
        Prepared statement on H.R. 1065..........................    66
    Mulligan, Susan, Manager of Engineering, Calleguas Municipal 
      Water District, Thousand Oaks, California..................    47
        Prepared statement on H.R. 2522..........................    49
    Ruppe, Scott, General Manager, Uintah Water Conservancy 
      District, Vernal, Utah.....................................    54
        Prepared statement on H.R. 2950..........................    56
    Sullivan, John F., Associate General Manager, Water Group, 
      Salt River Valley Water Users Association and Salt River 
      Project Agricultural Improvement and Power District, 
      Phoenix, Arizona...........................................    71
        Prepared statement on H.R. 1065..........................    72


 LEGISLATIVE HEARING ON H.R. 1738, TO AMEND THE RECLAMATION WASTEWATER 
AND GROUNDWATER STUDY AND FACILITIES ACT TO AUTHORIZE THE SECRETARY OF 
THE INTERIOR TO PARTICIPATE IN THE CITY OF DOWNEY, CALIFORNIA, REGIONAL 
   WASTEWATER TREATMENT AND RECLAMATION FACILITY PROJECTS. ``DOWNEY 
  REGIONAL WATER RECLAMATION AND GROUNDWATER AUGMENTATION PROJECT OF 
2009;'' H.R. 2265, TO AMEND THE RECLAMATION WASTEWATER AND GROUNDWATER 
STUDY AND FACILITIES ACT TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
  PARTICIPATE IN THE MAGNA WATER DISTRICT WATER REUSE AND GROUNDWATER 
RECHARGE PROJECT, AND FOR OTHER PURPOSES. ``MAGNA WATER DISTRICT WATER 
 REUSE AND GROUNDWATER RECHARGE ACT OF 2009;'' H.R. 2442, TO AMEND THE 
  RECLAMATION WASTEWATER AND GROUNDWATER STUDY AND FACILITIES ACT TO 
  EXPAND THE BAY AREA REGIONAL WATER RECYCLING PROGRAM, AND FOR OTHER 
PURPOSES. ``BAY AREA REGIONAL WATER RECYCLING PROGRAM EXPANSION ACT OF 
  2009;'' H.R. 2522, TO RAISE THE CEILING ON THE FEDERAL SHARE OF THE 
COST OF THE CALLEGUAS MUNICIPAL WATER DISTRICT RECYCLING PROJECT,   AND 
                         FOR   OTHER   PURPOSES;


 H.R. 2741, TO AMEND THE RECLAMATION WASTEWATER AND GROUNDWATER STUDY 
   AND FACILITIES ACT TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
PARTICIPATE IN THE CITY OF HERMISTON, OREGON, WATER RECYCLING AND REUSE 
PROJECT, AND FOR OTHER PURPOSES; H.R. 2950, TO DIRECT THE SECRETARY OF 
THE INTERIOR TO ALLOW FOR PREPAYMENT OF REPAYMENT CONTRACTS BETWEEN THE 
UNITED STATES AND THE UINTAH WATER CONSERVANCY DISTRICT; AND H.R. 1065, 
 TO RESOLVE WATER RIGHTS CLAIMS OF THE WHITE MOUNTAIN APACHE TRIBE IN 
 THE STATE OF ARIZONA, AND FOR OTHER PURPOSES. ``WHITE MOUNTAIN APACHE 
            TRIBE WATER RIGHTS QUANTIFICATION ACT OF 2009.''

                              ----------                              


                         Tuesday, July 21, 2009

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1334 Longworth House Office Building, Hon. Grace 
Napolitano [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Napolitano, McClintock, Miller, 
Costa, and Baca.
    Also Present: Representatives Gallegly, Chaffetz, Walden, 
Smith of Nebraska, Roybal-Allard, Matheson, and Kirkpatrick.

    STATEMENT OF HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Good morning, ladies and gentlemen. The 
meeting of the Subcommittee on Water and Power will come to 
order.
    The purpose of today's meeting is to hold a legislative 
hearing on H.R. 1738, H.R. 2265, H.R. 2442, H.R. 2741, H.R. 
2950 and H.R. 1065.
    But first, before I start the meeting, I would like to 
welcome and congratulate my former colleague in the State 
Assembly and newly appointed Ranking Member, Tom McClintock, 
for having his first hearing today. And while I am at it, I 
would like to also, I would like to introduce our new Director 
of Personnel for the Water and Power Subcommittee, David 
Wegner, and look forward to having a lot more interaction on 
water.
    I ask unanimous consent that Congresswoman Roybal-Allard, 
Congressman Matheson, Congressman Chaffetz, Congressman 
Gallegly, Congressman Walden, and Congresswoman Kirkpatrick be 
allowed to sit on the dais and participate in the Subcommittee 
proceedings today. And without objection, so ordered.
    After my opening statement I will recognize all of the 
members of the Subcommittee for any statements they may have. 
Any member who desires to be heard will be heard.
    Additional material may be submitted for the record by 
members, by witnesses or by any interested party. The record 
will be kept open for 10 business days following the hearing.
    The five-minute rule with our timer will be enforced. Green 
means go, yellow indicates one minute remains, and red means 
stop or I will.
    Today's legislative agenda focuses on two issues that the 
Water and Power Subcommittee sees as priorities: Title XVI 
water recycling and tribal water rights settlement litigation.
    Mrs. Napolitano. Today we are also considering H.R. 2950, a 
bill that allows for early repayment of contracts to the 
Federal government from Uintah Water Conservancy.
    Welcome Commissioner Connor to what I anticipate will be 
the first of many Subcommittee hearings. Hopefully all of them 
will be pleasant. We look forward to hearing the Bureau of 
Reclamation's perspective on Title XVI and Indian water rights.
    Mrs. Napolitano. I am concerned about the Administration's 
position to not support Title XVI legislation and H.R. 1065, 
the White Mountain Apache settlement legislation, and I hope 
you will be able to enlighten the Subcommittee this morning on 
the reasons why the Department of the Interior does not support 
programs to better manage our western water resources.
    We want to better understand the constraints the Bureau has 
in supporting these programs, and what needs to be done to 
resolve your concerns. One of mine is budgetary, and I hope to 
see in the future a budget of at least $100 million for the 
next several legislative years to be able to catch up with the 
backlog of over $600 million.
    There is an issue of unclear administrative or legislative 
direction. Tell us how we can help provide the focus.
    Let me make this very clear. We look upon Title XVI and 
Indian water settlement programs as being critical to 
addressing the current and future water crisis of the West.
    Today we will hear testimony on five separate Title XVI 
programs' authorizations. When combined, these five bills 
produce 62,000 acre-feet of recycled, reused water for our 
systems.
    At a time when my home state of California faces extremely 
tough economic and hydrological conditions from the Bay Area, 
Bay Delta Region to the Southland, we cannot ignore the role 
nor the importance of Title XVI programs to helping solve our 
water problems.
    I personally welcome Chairman Lupe of the White Mountain 
Apache Tribe--welcome, sir--for the testimony we will receive 
on H.R. 1065. This legislation settles the claims of the Tribe 
and provides the White Mountain Apache Tribe with a quantified 
water right. Most importantly, it provides certainty to all 
water users in the Salt River Basin and a defined water right 
from which the Tribe can work to improve their economic well-
being.
    Thank you to all of the witnesses for traveling so many 
miles to meet with us here in Washington, D.C.
    I want to again welcome my colleague and new Ranking 
Member, Tom McClintock, to the Subcommittee and ask for any 
opening statements he may have.

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Well, thank you very much, Madame 
Chairwoman. I very much enjoyed our service together years ago 
in the California Assembly, and I am looking forward to being 
able to work with you in this new capacity.
    The former Ranking Republican on this Subcommittee, Cathy 
McMorris Rodgers, and the Republican staff have told me 
repeatedly how much they appreciate the open and bipartisan 
manner with which you have conducted this Subcommittee, and I 
want you to know how strongly I seek to continue that working 
relationship.
    I would like to begin by offering a few thoughts on the 
general work of the Subcommittee and then on the bills before 
us today.
    A generation ago the principal objective of our water and 
power policy was to create an abundance of both. It was an era 
when vast reservoirs and hydroelectric facilities produced a 
cornucopia of clean and plentiful and cheap electricity and 
water on a scale so vast that many communities didn't even 
bother to meter.
    But the last generation seems to have abandoned this 
objective and to replace it with a very different philosophy 
that now dominates our public policy, that the principal 
purpose of government is not to produce abundant water and 
power but rather to ration and manage shortages the government 
has caused by abandoning its earlier objectives.
    The result is increasingly expensive water and power that 
is now affecting our prosperity as a nation. We are no longer 
looking at cost-benefit analysis of which projects make 
economic sense and which do not. Instead, practicality has been 
replaced by an entirely new ideological filter. Those projects 
that ration or manage shortages are considered worthy, 
regardless of their feasibility or cost; and projects that 
produce abundance are to be discouraged, regardless of their 
economic benefits or simple common sense.
    We have seven bills before us today, including five that 
deal with water recycling programs. With respect to the 
recycling bills, I think we need to address some very basic 
questions to assure consistency and accountability.
    First, what is the Federal nexus? Projects that exclusively 
benefit local communities ought to be exclusively financed by 
local communities. Federal funds should be used to benefit the 
entire nation. So the question arises, why should St. 
Petersburg be asked to pay for a water project for St. Paul?
    Second, have we established the project's feasibility? 
Before Congress authorized most water supply projects in the 
past, the planning had to be completed so we knew what we were 
getting. Has this process been undertaken on the projects 
before us?
    Third, is the project cost-effective? It is said that every 
gallon of recycled water avoids the need for a gallon of 
harvested water. But that begs the obvious question, if an 
acre-foot of recycled water costs $1,000 and an acre-foot of 
harvested water costs $200, why replace the cheaper water with 
the more expensive water at enormous expense to taxpayers and 
consumers?
    This is a question that seems to be neglected in these 
discussions. But at a time when the Federal deficit is at its 
highest level in history by a factor of four, it is a question 
that ought to dominate every discussion on this subject.
    One of the bills before us today involves the settlement of 
Indian water rights claims. Congress has passed 20 settlement 
bills over the last 20 years, but there are hundreds of others 
that it may be called upon to decide in the future.
    I support the basic principle of the Winters decision that 
an inherent obligation to the Federal government in 
establishing a reservation is to guarantee sufficient water for 
that reservation. However, I am concerned about tribal claims 
to excess water for the sole purpose of reselling it at profit. 
For example, 99,000 acre-feet of water are proposed to be given 
to 15,000 residents. That is 2.1 million gallons per person, 
more than 25 times the average annual residential usage.
    The total cost of this legislation is $292 million or 
nearly $20,000 per resident. One part of this bill requires the 
American taxpayer to finance economic development projects that 
may not be supported by the Administration nor be related to 
the water rights settlement. And I hope that these issues can 
be addressed during that portion of the hearing.
    Finally, we have a bill that allows the Uintah Water 
District to prepay its obligations to the Federal Treasury. 
This is in the interest of the District that can be relieved of 
interest costs and regulatory burdens. But it is also in the 
interest of the Nation at a time when it is running a 
catastrophic deficit.
    My only question is why an Act of Congress is necessary to 
make it possible for the District to do so. I hope that the law 
can be broadened to allow any district in similar circumstances 
to prepay Federal loans or other obligations without having to 
beg Congress for special approval to do so.
    Those are my initial questions and observations, Madame 
Chairman. And I want to thank the witnesses for traveling all 
the way to address them and to assist us in this decisionmaking 
process.
    Mrs. Napolitano. Thank you, sir. And I am Chairwoman, sir.
    Mr. Miller?

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Madame Chairwoman. I want to thank 
you so much for holding this hearing and for your unflagging 
support of alternative water supplies like water recycling.
    And I want to welcome Commissioner Mike Connor here to the 
Subcommittee and thank him for bringing us his wealth of 
experience. And he has a reputation and experience in working 
on many of these problems, in fact even solving a few of them. 
So welcome to the Committee and welcome to the Department of 
the Interior.
    I also want to welcome Gary Darling and thank him for his 
tireless work on the Title XVI programs in the San Francisco 
Bay Area. Through the Bay Area Recycled Water Coalition, Gary 
has brought the region's water and wastewater agencies together 
to identify effective and worthy projects. It is a successful 
model, and it is one that we should reward. The Title XVI 
program helps provide a sustainable water supply for California 
and for the West and helps us to lessen the impact on the Bay 
Delta ecosystems and on other parts of the California water 
system.
    The six water recycling projects in H.R. 2442 would add 
over 8,000 acre-feet of water, of new sustainable water supply 
in California. That works out to 7.2 million gallons per day 
and up to meet the needs of 24,000 households, over 24,000 
households.
    Over time the Bay Area Water Recycling program is projected 
to add more than 90,000 acre-feet of water to our region's 
clean water supply. This bill and the water it will provide is 
absolutely critical to a state like ours. That is why I am 
extremely disappointed to see that the Bureau of Reclamation is 
not supporting the additional authorizations for the Title XVI 
programs.
    I hope to hear an explanation from the Commissioner as to 
the Administration's position on the program, and I look 
forward to seeing and working with the Administration for its 
support of water reuse and recycling in the 2011 budget.
    But thank you again for these hearings so that we can 
narrow these subjects. I yield back the balance of my time.
    Mrs. Napolitano. Thank you, Mr. Miller.
    Mr. Walden.

  STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Chairwoman Napolitano and 
Ranking Member McClintock. It is good to be back here on the 
dais. I only wish I had a vote up here again.
    Thank you for holding a hearing on H.R. 2741, legislation I 
wrote to authorize the Bureau of Reclamation to participate in 
the building of a new water recycling and reuse facility for 
the City of Hermiston in northeast Oregon.
    And like my friend and colleague from California, Mr. 
Miller, I too share concerns about the Bureau's opposition to 
this legislation because in this case, as in many in the West 
where we are starved for water, being able to reuse it can 
bring great benefits for agriculture, for fish and to meet new 
environmental regulations.
    Before I get into the specifics of the bill before us now, 
I want to say thank you for allowing me the opportunity to 
participate in the hearing, Madame Chairwoman.
    Second, I would like to welcome Hermiston City Manager Ed 
Brookshier to the hearing. Ed and his team have done a 
wonderful job of demonstrating to me the need for this project 
and why it is a worthwhile Federal project. He has made the 
long trip out here from the West Coast to testify for the bill 
today. Madame Chairwoman and Congressman McClintock, as I do, I 
know you understand the distances in making that trip.
    The construction of the Hermiston Recycled Water Plant 
Improvement project, as it is commonly known, will enable the 
city to reliably meet numerous key goals, including complying 
with the National Pollutant Discharge Elimination System permit 
levels for the next 20-plus years.
    Now the existing facilities were constructed in 1979 and as 
you can imagine after 30 years are in need of modernization 
that will help meet new pollution reduction requirements, add 
capacity and help put water instream for salmon. This project 
will increase wastewater treatment capacity to match the 
population and economic growth for a community that refuses to 
be in a recession, a statement made by the Hermiston Chamber of 
Commerce Executive Director, Debbie Pedro, to me and others 
during a community meeting in Hermiston a while back.
    The project has been designed to produce the highest 
quality class A recycled water that will add additional 
protections for the Umatilla River's threatened salmon species. 
This was one of the key reasons that the Confederated Tribes of 
the Umatilla Indian Reservation are supporting the legislation 
and the project. I thank them for their support.
    And, Madame Chairwoman, I have a letter of support from the 
Umatilla Tribes that I would like to have put into the record, 
along with a statement from the West Extension Irrigation 
District in support of the legislation, without objection I 
would like to have added in as supporting documents.
    Mrs. Napolitano. Without objection, so ordered.
    [NOTE: The documents submitted for the record have been 
retained in the Committee's official files.]
    Mr. Walden. The final component of the project will be the 
drought-resistant water delivery of recycled water to the West 
Extension Irrigation District. These deliveries will help the 
irrigation district serve their diverse agricultural community. 
This water will supplement current allocations, but as we all 
know, a little extra water in a dry climate can make or break 
it for farmers.
    The proposed project must comply with numerous 
environmental laws and regulations, and the city has completed 
the required supporting documentation. This included 
preparation of an environmental assessment for potential 
impacts from the proposed project, such as a cultural resources 
survey, wetland delineation and an Endangered Species Act 
biological assessment.
    The Federal cost share in this bill, 25 percent Federal, 75 
percent local, will be of enormous assistance in this 
partnership for the community to meet these requirements, most 
of which are driven by the Federal government as the project 
moves on from drawing boards to construction.
    However, the Federal cost share only exists if this bill 
becomes law. So I ask that this Subcommittee make a do-pass 
recommendation to the full Committee to take action as soon as 
possible so the House can consider and pass this legislation.
    You can see this legislation is of great importance to the 
City of Hermiston and surrounding areas.
    I thank you, Madame Chairwoman, for holding this hearing 
today, and I would be happy to answer any questions. Thank you, 
Madame Chairwoman.
    Mrs. Napolitano. Thank you, Mr. Walden, for your 
statement--and to all of you gentlemen.
    We will now hear from our witnesses. We do have two panels. 
We have combined Mr. Connor into the first panel. Witnesses 
will be introduced before they testify. And after we hear from 
each panel, we will have questions.
    Your prepared statements will be entered into the record, 
and all witnesses are asked to kindly summarize the high points 
of your testimony and limit your remarks to five minutes. 
Again, the timer before you will be used to enforce this rule. 
It also applies to our questions. Members will have five 
minutes for questions. If there are additional questions, we 
may have a second round, time permitting.
    For our first panel, we have Commissioner Mike Connor from 
the Bureau of Reclamation. He will testify on all bills. And 
you have 10 minutes, sir, because that way you don't have stop, 
Mr. Connor. Commissioner Connor.

STATEMENT OF MIKE CONNOR, COMMISSIONER, BUREAU OF RECLAMATION, 
  U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C., ON H.R. 
      1738, H.R. 2265, H.R. 2442, H.R. 2522, AND H.R. 2741

    Mr. Connor. Thank you. Madame Chairwoman and members of the 
Subcommittee, this is my first appearance before the 
Subcommittee, and I welcome the opportunity to testify before 
you today and look forward to working with you and your staff 
over the next several years.
    I am pleased to provide the Department of the Interior's 
views today on seven bills before the Subcommittee. In the 
interest of time, I will provide a quick summary of my written 
statements, which have been submitted for the record.
    To begin, I will devote this portion of the statement to 
summarizing the Department's position on the five Title XVI 
bills that are before the Subcommittee today. I will also 
provide testimony then following on the other two bills that 
are before you.
    The five Title XVI bills before the Committee today all 
authorize Federal cost-sharing in new water or expanded local 
water recycling projects. Reclamation staff, working with local 
project sponsors, have determined that the projects before the 
Subcommittee today are at various stages in the process of 
evaluating their feasibility. This is a key aspect of the Title 
XVI program, and the details for each project are set forth in 
my written statement.
    One update I have is that at the end of last week, the 
Magna, Utah project, that is in H.R. 2265 was certified as 
feasible by Reclamation staff. So that is an update to the 
written statement.
    As a threshold matter, I would like to express the 
Department's general support for the Title XVI Reclamation and 
Reuse program. The 2010 budget proposal includes funding for 
Secretary Salazar's water conservation initiative, and Title 
XVI is an important element of that program.
    Also, on July 1, the Department announced the award of 
approximately $135 million in American Recovery and 
Reinvestment Act funding for authorized Title XVI projects. We 
recognize that water reuse is an essential tool in stretching 
the limited water supplies in the West.
    Notwithstanding the support, Reclamation is managing the 
Title XVI program in evaluating new authorizations in the 
context of a backlog of over $600 million in currently 
authorized projects. This figure takes into account the just-
announced $135 million in funding out of the Recovery Act. So, 
given the budget challenges presented by this backlog, the 
Department is unable to support the authorization of new Title 
XVI projects at this point in time.
    Reclamation will, however, continue to work with project 
proponents to evaluate the feasibility of their projects. To 
that end, Reclamation recently revised and improved its 
directives and standards that govern its review of Title XVI 
projects. By applying these new standards, we believe 
Reclamation can play a constructive role with local sponsors as 
well as Congress in evaluating the merits of proposed water 
recycling projects.
    Reclamation believes that information regarding a project's 
feasibility should be fundamental to Congress's evaluation of 
new Title XVI authorizations.
    With that, that summarizes my statement with respect to the 
Title XVI projects. I will go forward now to the other 
specifics of the two bills before the Subcommittee.
    [The prepared statements of Mr. Connor on H.R. 1738, H.R. 
2265, H.R. 2442, H.R. 2522 and H.R. 2741 follow:]

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 1738

    Madam Chairwoman and Members of the Subcommittee, I am Michael L. 
Connor, Commissioner of the Bureau of Reclamation. I am pleased provide 
the Department of the Interior's views on H.R. 1738, the Downey 
Regional Water Reclamation and Groundwater Augmentation Act. For 
reasons described below, the Department cannot support H.R. 1738.
    H.R. 1738 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), commonly called 
Title XVI, to authorize the Secretary of the Interior to participate in 
the design, planning, and construction of the Downey Regional Water 
Reclamation and Groundwater Augmentation Project in Los Angeles County, 
California.
    Reclamation this summer has begun meetings with the City of Downey 
to exchange information regarding this project and help them develop a 
feasibility study in accordance with existing Directives and Standards. 
A feasibility study has not been submitted by the City of Downey, and 
compliance with the National Environmental Policy Act for this project 
has not been initiated. As such, Reclamation cannot provide a 
determination as to its merits.
    As a threshold matter, I'd like to express the Department's general 
support for the Title XVI Reclamation and Reuse program. The 2010 
budget proposal includes funding for Secretary Salazar's Water 
Conservation Initiative and Title XVI is an important element of that 
program. Also, on July 1, the Department announced the award of 
approximately $135 million in grants for specific authorized Title XVI 
projects. We recognize that water reuse is an essential tool in 
stretching the limited water supplies in the West.
    However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects at this time. As a practical matter, 
Reclamation is concerned that a proliferation of authorized projects 
would be detrimental to effective overall program management because 
there would be a dilution of available funding and a diminished ability 
of the Bureau to carry out and complete individual projects.
    Reclamation will, however, continue to work with project proponents 
to evaluate the feasibility of their projects. To that end, Reclamation 
recently revised and improved its directives and standards that govern 
the review of Title XVI projects. By doing so, we believe that 
Reclamation can play a constructive role with local sponsors, as well 
as Congress, in evaluating the merits of proposed water recycling 
projects. Information regarding a project's feasibility should be 
fundamental to Congress' evaluation of new authorizations.
    H.R. 1738 authorizes the appropriation of up to $20 million, or a 
maximum of 25 percent of total project costs. While the Department 
supports efforts to increase local water supplies and increase recycled 
water use in Southern California, this project would compete with other 
critical needs within the Reclamation program, including other Title 
XVI projects currently under construction, for funding priority in the 
President's Budget.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 1738. I would be pleased to answer any 
questions at this time.
                                 ______
                                 

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 2265

    Madam Chairwoman and Members of the Subcommittee, I am Michael L. 
Connor, Commissioner of the Bureau of Reclamation. I am pleased to 
provide the Department of the Interior's views on H.R. 2265, 
legislation to authorize the Secretary of the Interior to participate 
in the Magna Water District water reuse and groundwater recharge 
project. For reasons discussed below, the Department cannot support 
H.R. 2265.
    H.R. 2265 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), commonly called 
Title XVI, to authorize the Secretary of the Interior to participate in 
the design, planning, and construction of permanent facilities needed 
to establish recycled water distribution and wastewater treatment and 
reclamation facilities in the Magna Water District in Salt Lake County, 
Utah.
    H.R. 2265 authorizes a $12 million Federal cost share for the 
project. Reclamation's Regional and Program offices are reviewing the 
Magna Water District's draft Feasibility Report this month to determine 
its compliance with the requirements identified in the Title XVI Water 
Reclamation and Reuse Program Directives and Standards (D&S) and 
Section 1604 of Public Law 102-575, as amended. Reclamation anticipates 
making a final determination as to the project's feasibility in the 
next few months.
    As a threshold matter, I'd like to express the Department's general 
support for the Title XVI Reclamation and Reuse program. The 2010 
budget proposal includes funding for Secretary Salazar's Water 
Conservation Initiative and Title XVI is an important element of that 
program. Also, on July 1, the Department announced the award of 
approximately $135 million in grants for specific authorized Title XVI 
projects. We recognize that water reuse is an essential tool in 
stretching the limited water supplies in the West.
    However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects at this time. As a practical matter, 
Reclamation is concerned that a proliferation of authorized projects 
would be detrimental to effective overall program management because 
there would be a dilution of available funding and a diminished ability 
of the Bureau to carry out and complete individual projects.
    Reclamation will, however, continue to work with project proponents 
to evaluate the feasibility of their projects. To that end, Reclamation 
recently revised and improved its directives and standards that govern 
the review of Title XVI projects. By doing so, we believe that 
Reclamation can play a constructive role with local sponsors, as well 
as Congress, in evaluating the merits of proposed water recycling 
projects. Information regarding a project's feasibility should be 
fundamental to Congress' evaluation of new authorizations.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 2265. I would be happy to answer any 
questions at this time.
                                 ______
                                 

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 2442

    Madam Chairwoman and Members of the Subcommittee, I am Michael L. 
Connor, Commissioner of the Bureau of Reclamation. I am pleased to 
provide the Department of the Interior's views on H.R. 2442, 
legislation to expand the Bay Area Regional Water Recycling Program 
(BARWRP). Although Reclamation commends BARWRP's goals, for reasons 
discussed below the Department cannot support H.R. 2442.
    H.R. 2442 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), commonly called 
Title XVI, to authorize the Secretary of the Interior to participate in 
the design, planning, and construction of six new projects for water 
recycling and distribution of non-potable water supplies in the greater 
San Francisco Bay Area. The legislation would also increase the Federal 
cost share for two previously-authorized Title XVI projects in the same 
area to $16.3 million from $10.5 million. H.R. 2442 would increase the 
number of BARWRP projects from eight to 14.
    As a threshold matter, I'd like to express the Department's general 
support for the Title XVI Reclamation and Reuse program. The 2010 
budget proposal includes funding for Secretary Salazar's Water 
Conservation Initiative and Title XVI is an important element of that 
program. Also, on July 1, the Department announced the award of 
approximately $135 million in grants for specific authorized Title XVI 
projects. Reclamation also recently selected 27 Title XVI projects--26 
of which are in California--that will receive American Recovery and 
Reinvestment Act of 2009 funding. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West.
    However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects at this time. As a practical matter, 
Reclamation is concerned that a proliferation of authorized projects 
would be detrimental to effective overall program management because 
there would be a dilution of available funding and a diminished ability 
of the Bureau to carry out and complete individual projects.
    Reclamation will, however, continue to work with project proponents 
to evaluate the feasibility of their projects. To that end, Reclamation 
recently revised and improved its directives and standards that govern 
the review of Title XVI projects. By doing so, we believe that 
Reclamation can play a constructive role with local sponsors, as well 
as Congress, in evaluating the merits of proposed water recycling 
projects. Information regarding a project's feasibility should be 
fundamental to Congress' evaluation of new authorizations.
    Many Federal Title XVI projects are located in the greater San 
Francisco Bay area, a region that encompasses the United States' 
largest west coast estuary and the source of drinking water for two-
thirds of California. Many of the local project sponsors work together 
through entities such as the Bay Area Recycled Water Coalition. Over 
the past decade, such agencies have invested nearly $300 million of 
local funds in water recycling projects.
    Reclamation commends these agencies for working together to 
coordinate their efforts to address the regional issues of water supply 
and water quality. Reclamation, in collaboration with each project 
sponsor, is assisting in the preparation of project-specific 
feasibility reports and will review all submitted documents for 
compliance with applicable Federal environmental and cultural 
regulations.
    H.R. 2442 authorizes the appropriation of over $38 million of new 
or increased Federal cost shares. The Department supports efforts to 
increase local water supplies and increase recycled water use in 
northern California. However, the Department does not support the 
authorization of new Title XVI projects which have not yet received a 
determination that they are feasible for construction. Also, as 
discussed above these projects would compete with other needs within 
the Reclamation program, including other Title XVI projects currently 
under construction, for funding priority in Reclamation's Budget.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 2442. I would be happy to answer any 
questions at this time.
                                 ______
                                 

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 2522

    Madam Chairwoman and Members of the Subcommittee, I am Michael L. 
Connor, Commissioner of the Bureau of Reclamation. I am pleased to 
provide the Department of the Interior's views on H.R. 2522, a proposal 
to raise the ceiling on the Federal share of the cost of the Calleguas 
Municipal Water District (District) Recycling Project. For reasons 
discussed below, the Department cannot support H.R. 2522.
    H.R. 2522 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.) commonly called Title 
XVI, to increase the ceiling on the federal share of the costs of the 
Calleguas project to $60 million. Current Federal law limits the 
Federal share of individual project costs to 25 percent of the total, 
or a maximum contribution of $20 million. Raising the cost share 
further would further strain Federal budgetary resources.
    The District submitted a feasibility study as required by the Title 
XVI statute, and it was approved in April of 2000. The feasibility 
study included nine distinct components: five wastewater reclamation 
and reuse projects, three brackish groundwater recovery projects, and a 
regional brine disposal project. A cooperative agreement was executed 
in September 2000, to provide Federal funding for one of the wastewater 
reclamation and reuse projects known as the Conejo Creek Diversion 
Project. This project was completed in September, 2003, and is 
currently producing about 9,000 acre-feet of recycled water annually. 
The total Federal share for this component was almost $1.7 million.
    In January, 2003, a cooperative agreement was executed to provide 
federal funding for the Regional Brine Line component. To date, 
Reclamation has provided about $10 million to the District as the 
federal share of costs for this facility, which will provide a means to 
dispose of brine wastes from facilities such as brackish groundwater 
recovery projects throughout Ventura County. The FY 2010 Budget 
requested $1.4 million for the Calleguas Municipal Water District 
Recycling project.
    The Regional Brine Line is being constructed in three phases, 
starting with Phase 1 near the coast, and progressing inland. The 
current estimated cost of Phase 1, which includes an ocean outfall, is 
about $76 million. The 25 percent federal share of Phase 1 would be $19 
million, which would obviously be reduced slightly because Reclamation 
has already provided $1.7 million for the Conejo Creek Diversion 
Project. There would be no additional Federal funds available for 
Phases 2 and 3, which together are estimated to cost about $145 
million; nor for any of the remaining seven projects that were 
identified in the feasibility study due to the current ceiling. This 
legislation would authorize $40 million in additional federal funds.
    As a threshold matter, I'd like to express the Department's general 
support for the Title XVI Reclamation and Reuse program. The 2010 
budget proposal includes funding for Secretary Salazar's Water 
Conservation Initiative and Title XVI is an important element of that 
program. Also, on July 1, the Department announced the award of 
approximately $135 million in grants for specific authorized Title XVI 
projects. Reclamation also recently selected 27 Title XVI projects--26 
of which are in California--that will receive American Recovery and 
Reinvestment Act of 2009 funding. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West.
    However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects at this time. As a practical matter, 
Reclamation is concerned that a proliferation of authorized projects 
would be detrimental to effective overall program management because 
there would be a dilution of available funding and a diminished ability 
of the Bureau to carry out and complete individual projects.
    Reclamation will, however, continue to work with project proponents 
to evaluate the feasibility of their projects. To that end, Reclamation 
recently revised and improved its directives and standards that govern 
the review of Title XVI projects. By doing so, we believe that 
Reclamation can play a constructive role with local sponsors, as well 
as Congress, in evaluating the merits of proposed water recycling 
projects. Information regarding a project's feasibility should be 
fundamental to Congress' evaluation of new authorizations.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 2522. I would be pleased to answer any 
questions at this time.
                                 ______
                                 

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 2741

    Madam Chairwoman and Members of the Subcommittee, I am Michael L. 
Connor, Commissioner of the Bureau of Reclamation. I am pleased to 
provide the Department of the Interior's views on H.R. 2741, the City 
of Hermiston, Oregon, Water Recycling and Reuse Project. For reasons 
discussed below the Department cannot support H.R. 2741.
    H.R. 2741 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), commonly called 
Title XVI, to authorize the Secretary of the Interior to participate in 
the design, planning, and construction of permanent facilities to 
reclaim and reuse water in the City of Hermiston, Oregon. Current 
federal law limits the federal share of individual project costs to 25 
percent of the total, or a maximum federal contribution of $20 million.
    The City of Hermiston is located in north central Oregon and is one 
the largest communities within the Bureau of Reclamation's Umatilla 
Project Area. As part of their Wastewater Treatment Plant Improvements 
Project, the City of Hermiston is exploring the option of delivering 
reclaimed water to the West Extension Irrigation District to be used as 
agricultural water. Based on the city's current population, the reuse 
project would deliver an additional 1,132 acre-feet of water to the 
West Extension Irrigation District during the irrigation season. By 
2026, it is estimated that the project would yield 1,685 acre-feet of 
reused water. The total estimated cost for this project is about $21.5 
million.
    H.R. 2741 includes authorization for design, planning, and 
construction of this project, of which the Federal cost share is 
limited to 25 percent of the total cost. No Title XVI related appraisal 
or feasibility levels studies have been completed for this project.
    The City of Hermiston is part of an agricultural community and 
recent changes in the state of Oregon's recycled water regulations 
reduce the barriers to using such water for the irrigation of food 
crops. There have also been a number of discussions between the City of 
Hermiston and the West Extension Irrigation District's governing board 
and the District has taken a favorable view of the project.
    As a threshold matter, I'd like to express the Department's general 
support for the Title XVI Reclamation and Reuse program. The 2010 
budget proposal includes funding for Secretary Salazar's Water 
Conservation Initiative and Title XVI is an important element of that 
program. Also, on July 1, the Department announced the award of 
approximately $135 million in grants for specific authorized Title XVI 
projects. We recognize that water reuse is an essential tool in 
stretching the limited water supplies in the West.
    However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects at this time. As a practical matter, 
Reclamation is concerned that a proliferation of authorized projects 
would be detrimental to effective overall program management because 
there would be a dilution of available funding and a diminished ability 
of the Bureau to carry out and complete individual projects.
    Reclamation will, however, continue to work with project proponents 
to evaluate the feasibility of their projects. To that end, Reclamation 
recently revised and improved its directives and standards that govern 
the review of Title XVI projects. By doing so, we believe that 
Reclamation can play a constructive role with local sponsors, as well 
as Congress, in evaluating the merits of proposed water recycling 
projects. Information regarding a project's feasibility should be 
fundamental to Congress' evaluation of new authorizations.
    Madam Chairwoman, this concludes my statement. Thank you for the 
opportunity to comment on H.R. 2741. I would be pleased to answer any 
questions at this time.
                                 ______
                                 
    Mr. Connor. H.R. 2950, the Uintah Prepayment Bill. The 
Department supports H.R. 2950, with a clarification as set 
forth in my written statement.
    H.R. 2950 is legislation that would allow for prepayment of 
current and future repayment obligations of the Uintah Water 
Conservancy District in Utah.
    The District's current contract from 1992 requires them to 
repay about $5.5 million through the year 2037 at the project 
interest rate of 3.2 percent, with annual payments of about 
$226,000.
    My written statement provides more details on this 
legislation and on the Jensen unit of the central Utah project. 
But in summary, the Department believes that the proposed 
legislation will provide for terms favorable to the District 
and the United States and provide flexibility to address any 
future unknowns if future additions to the Jensen unit do not 
materialize.
    [The prepared statement of Mr. Connor on H.R. 2950 
follows:]

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 2950

    Madam Chairwoman and members of the Subcommittee, I am Mike Connor, 
Commissioner of the Bureau of Reclamation. Thank you for the 
opportunity to provide the Department of the Interior's views on H.R. 
2950. The legislation allows for prepayment of the current and future 
repayment contract obligations of the Uintah Water Conservancy District 
(District) of the costs allocated to their municipal and industrial 
water (M&I) supply on the Jensen Unit of the Central Utah Project 
(CUP). H.R. 2950 would amend current law to change the date of 
repayment to 2019 from 2037. The legislation would also allow repayment 
to be provided in several installments and requires that the repayment 
be adjusted to conform to a final cost allocation. The Department 
supports the goals of H.R. 2950. However, the legislation should be 
amended to clarify that the early repayment will be of an amount equal 
to the net present value of the foregone revenue stream. Under any 
repayment scenario, the Federal Treasury must be made whole.
    The District entered into a repayment contract dated June 3, 1976, 
in which they agreed to repay all reimbursable costs associated with 
the Jensen Unit of the CUP. However, pursuant to Section 203(g) of the 
Central Utah Project Completion Act of 1992 (P.L. 102-575) the 
District's contract was amended in 1992 to reduce the project M&I 
supply under repayment to 2,000 acre-feet annually and to temporarily 
fix repayment for this supply based upon an interim allocation 
developed for an uncompleted project. The 1992 contract required the 
District to repay about $5.545 million through the year 2037 at the 
project interest rate of 3.222% with annual payments of $226,585. The 
net present value of the amount remaining from this income stream 
starting in 2009 is $3,887,364. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ All net present value figures cited in this testimony were 
calculated by discounting the payment stream to the year 2009 using the 
rate from 30-year Treasury constant maturities for the week ending July 
10, 2009. The exact net present value will fluctuate based on the date 
of the calculation and the Treasury rate.
---------------------------------------------------------------------------
    However, the costs allocated to the contracted M&I supply, and the 
M&I supply available through additional contract amendments, may be 
significantly revised in the future upon project completion and Final 
Cost Allocation. An additional currently unallocated cost of $7,419,513 
is expected to be allocated to the contracted 2,000 acre-feet. 
<SUP>2</SUP> Assuming that the costs allocated to the contracted 2,000 
acre-feet will be increased by $7,419,513 with the reallocation in 
2019, the net present value of the stream of benefits from this 
reallocation is $4,654,454. Therefore, under Reclamation's assumptions, 
the net present value of the total stream of benefits anticipated under 
this contract is $4,654,454 plus $3,887,364, or $8,541,818. The 
contracted M&I amount is $4.1 million and the adjustment amount is $7.4 
million. In total non-discounted dollars, the Conservancy District owes 
the Federal government $11.6 million.
---------------------------------------------------------------------------
    \2\ This allocation will be subject to revision should there be 
additions to the project.
---------------------------------------------------------------------------
    Under Reclamation law, water districts are not authorized to prepay 
their M&I repayment obligation based upon a discounted value of their 
remaining annual payments.
    This legislation would authorize early repayment by the Uintah 
Conservancy District to the Federal government. Because there is an 
interest component to the M&I repayment streams to be repaid early, 
early repayment without an adjustment for interest would result in 
lower overall repayment to the United States. However the Bureau 
believes that the language in this bill requiring that the early 
repayment be ``under terms and conditions similar to those used in 
implementing section 210 of the Central Utah Project Completion Act 
(Public Law 102-575), as amended'' is intended to require that the 
United States allow the early repayment in such a way as to keep the 
United States whole. We interpret this to mean that the Bureau of 
Reclamation would collect the present value of the whole amount that 
would be due without early repayment. Thus, given Reclamation's 
assumptions the present value of the payments collected under this 
legislation will be at least $8,541,818, although the legislation 
allows some flexibility in the timing of the repayment and under some 
scenarios the total amount due could be higher.
    The language in H.R. 2950 should be amended to clarify that this 
legislation is requiring that the Federal government be paid what it is 
owed by the Conservancy District. In supporting the concept of early 
repayment of the amount owed under this contract, the United States is 
reserving the right to seek full repayment to the U.S. Treasury.
    While the Department supports the goals of H.R. 2950, the 
legislation should be amended to clarify that the U.S. Treasury will be 
repaid in full; our support depends upon language that will clearly 
establish that early repayment under this legislation must be of an 
amount equal to the net present value of the foregone revenue stream.
    This concludes my testimony. I will be pleased to answer any 
questions the Subcommittee may have.
                                 ______
                                 
    Mr. Connor. Finally, with respect to the White Mountain 
Apache Tribe proposed settlement, H.R. 1065 would authorize a 
settlement of the Federal Indian reserve water rights of the 
White Mountain Apache Tribe in Arizona.
    To begin with, this Administration strongly supports the 
resolution of Indian water rights claims through a negotiated 
settlement. Settlements improve water management by providing 
certainly not just for the quantification of the Tribes' water 
rights but also for the rights of all water users, both Indian 
and non-Indian.
    Indian water rights settlements are consistent with the 
Federal Trust's responsibility to Native Americans and with a 
policy of promoting Indian self-determination and economic 
self-sufficiency. For these reasons and more, for over 20 
years, Federally recognized Indian tribes, states, local 
parties and the Federal government have acknowledged that when 
possible negotiated Indian water rights settlements are 
preferable to protracted litigation over Indian water rights 
claims.
    However, the Department's general policy of support for 
negotiations cannot translate into support for every proposed 
settlement. As discussed in my written statement, while we 
appreciate that much good work has gone into this proposed 
settlement, we are unable to support H.R. 1065 at this point in 
time.
    The Administration has a number of concerns about the 
specific language of this legislation. For example, Reclamation 
recently completed a review of the engineering estimates for 
the rural water system authorized in Section 7 of the bill. 
This project is a centerpiece of the settlement.
    Based on that review, Reclamation determined that the 
Tribe's cost estimate of roughly $126 million is not 
sufficiently detailed to provide the necessary assurance that 
the project can be constructed for that amount of money. This 
raises an uncertainty as to the actual Federal contribution 
that will be necessary to implement the settlement.
    The Administration is also concerned about the mechanism 
under which the project construction funds would be handled. As 
introduced, H.R. 1065 has conflicting provisions regarding how 
the Secretary is to handle the money appropriated for 
construction of the rural water system.
    Section 14 of the bill requires the establishment of a 
trust fund into which construction monies would be deposited. 
This trust fund would be managed in accordance with the 
American Indian Trust Fund Management Reform Act of 1994. The 
Tribe would be able to withdraw these funds and spend them 
after submitting a plan to the Secretary.
    This is an unusual and potentially cumbersome way to deal 
with construction funds, particularly when compared to the 
option of constructing the project under the Indian Self-
Determination and Education Assistance Act, the P.L. 93.638 
program.
    The waivers and releases authorized in Section 12 of the 
bill are also of serious concern to the Administration because 
they do not adequately protect the United States from future 
liability and do not provide the measure of certainty and 
finality that the Federal contribution contained in the bill 
should afford. The U.S. Forest Service has also raised concerns 
about the waiver provisions. We believe the issues, however, 
raised are not irreconcilable if we are given the opportunity 
to work with the parties toward resolving them.
    My written statement details additional concerns 
surrounding the financial structure of the settlement and some 
process considerations. In the interest of time, I will just 
add that the Administration needs to complete its analysis of 
this settlement, particularly the financial aspects.
    The Administration appreciates the willingness of the 
settlement parties to negotiate their differences in a 
cooperative spirit. We are committed to working with Congress 
and all parties to developing settlement legislation that the 
Administration can support.
    This concludes my statement. Thank you again for the 
invitation to appear today, and I welcome the opportunity for 
questions.
    [The prepared statement of Mr. Connor on H.R. 1065 
follows:]

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 1065

    Madam Chairwoman and Members of the Subcommittee, I am Michael L. 
Connor, Commissioner of the Bureau of Reclamation. I am pleased to 
provide the Administration's views on H.R. 1065, the White Mountain 
Apache Tribe Water Rights Quantification Act of 2009. H.R. 1065 would 
authorize a comprehensive settlement of the Federal Indian reserved 
water rights claims of the White Mountain Apache Indian Tribe in 
Arizona.
    This Administration supports the resolution of Indian water rights 
claims through negotiated settlement. However, our general policy of 
support for negotiations is premised on the federal contribution to the 
settlement being appropriate. Before the Administration can support a 
settlement, there must be a thorough analysis of the costs it would 
entail and the benefits to be received in order to assess the 
appropriateness of the proposed federal contribution. As I will discuss 
later, while the Administration appreciates that much good work has 
gone into this proposed settlement, we are unable to support it at this 
time.
Negotiated Indian Water Rights Settlements
    Settlements improve water management by providing certainty not 
just as to the quantification of a tribe's water rights but also as to 
the rights of all water users. That certainty provides opportunities 
for economic development for Indian and non-Indians alike. Whereas 
unquantified Indian water rights are often a source of tension and 
conflict between tribes and their neighbors, the best settlements 
replace this tension with mutual interdependence and trust. In 
addition, Indian water rights settlements are consistent with the 
Federal trust responsibility to Native Americans and with a policy of 
promoting Indian self-determination and economic self-sufficiency. For 
these reasons and more, for over 20 years, federally recognized Indian 
tribes, states, local parties, and the Federal government have 
acknowledged that, when possible, negotiated Indian water rights 
settlements are preferable to protracted litigation over Indian water 
rights claims.
White Mountain Apache Tribe Water Rights Quantification Act of 2009
    The heart of this bill is provisions ratifying and approving the 
White Mountain Apache Quantification Agreement dated January 13, 2009, 
a settlement reached between the tribe and other non-federal parties 
regarding the quantification of the Tribe's water rights. H.R. 1065 
requires the Bureau of Reclamation to plan, design, construct, operate, 
maintain, replace, and rehabilitate a rural water system to serve the 
White Mountain Apache tribe. It also establishes a trust fund for the 
operation and maintenance of the system to be constructed. Finally, the 
bill includes authorizations for the Secretary to carry out a number of 
other activities that appear to be intended to promote economic 
development on the White Mountain Apache reservation.
    These economic development activities include (1) providing 
financial and technical assistance to completing the Hawley Lake, 
Horseshoe Lake, Reservation Lake, Sunrise Lake, and Big and Little Bear 
Lake reconstruction projects and facilities improvements; (2) 
conducting a feasibility study of options for improving the manufacture 
and use of timber products derived from commercial products derived 
from commercial forests on the White Mountain Reservation and forest 
management practices; (3) rehabilitating and improving the Alchesay-
Williams Creek National Fish Hatchery Complex; (4) constructing a White 
Mountain Apache Tribe Fishery Center; (5) rehabilitating Canyon Day and 
other historic irrigation systems on the reservation; (6) planning, 
design, and construction of snow-making infrastructure, repairs, and 
expansion at Sunrise Ski Park; and (7) planning, designing, and 
constructing any recommended on-reservation recreation impoundments 
following a feasibility study of such impoundments.
    H.R. 1065 is the culmination of cooperative negotiations among the 
Tribe and many non-Indian water users throughout northern and central 
Arizona. The negotiations were focused on the need for a long term 
solution to the problems of an inadequate Reservation domestic water 
supply and quantifying the Tribe's water rights. The Tribe and other 
non-Federal parties reached agreement in 2008. The parties are to be 
commended for that effort.
    There is much in the proposed settlement that is positive. The 
rural water system authorized through this bill would replace and 
expand the current water delivery system on the Reservation, which 
relies on a diminishing groundwater source and is quickly becoming 
insufficient to meet the needs of the Reservation population. We do not 
question the Reservation's need for reliable and safe drinking water. 
Although a system such as the one proposed may turn out to be the best 
way to address the Reservation's need, the Administration has many 
concerns about the specific language of this legislation as introduced, 
which are summarized below. We also have concerns about the large 
federal contribution expected in the proposed settlement. We would like 
to work with the sponsor of legislation and the settlement parties to 
address our concerns.
Water Rights Allocation
    Under Section 5 of H.R. 1065, the Tribe would have the right to 
divert up to 99,000 acre-feet of water from a combination of 
groundwater, surface water, and Central Arizona Project water. We 
understand that the Tribe believes that this is a favorable 
quantification of its federal reserved water rights. The Department of 
the Interior's preliminary analysis indicates that the allocation is 
appropriate and we hope to have a final Administration analysis in the 
near future.
Concerns about the Cost Estimate for Construction of the Rural Water 
        System
    The centerpiece of the settlement is the construction and operation 
of the White Mountain Apache Rural Water System (WMAT Rural Water 
System) described in Section 7. This system would consist of the Miner 
Flat Dam, a 155 foot high dam along the North Fork of the White River 
that would have an anticipated total storage capacity of 8,400 acre-
feet with a surface area of approximately 160 acres; water treatment 
facilities and a pipeline conveyance system extending approximately 50 
miles throughout the Reservation. The surface water delivered from this 
system is anticipated to meet population requirements through 2040 or 
beyond.
    The Bureau of Reclamation recently completed a review of the 
Design, Engineering, and Construction (DEC) estimates for the WMAT 
Rural Water System. Based on that review, Reclamation determined the 
Tribe's cost estimate of roughly $126.2 million, which is in the 
proposed legislation, is not sufficiently detailed or comprehensive to 
provide the necessary assurance that the project can be constructed for 
that amount of money. Moreover, the legislation does not provide any 
cap on the amount of Federal funds that can be expended for project 
construction. The Administration is concerned about authorizing a 
project in cases such as this where we are very uncertain as to end 
costs. Our experience has been that projects authorized in this manner 
can become far more expensive than originally contemplated.
    Further work is needed to bring the cost estimate up to the 
feasibility level generally required by Reclamation authorities before 
a project is recommended for authorization. This work will require 
Reclamation funding. At this time, Reclamation is developing a 
cooperative agreement to allow the Tribe to complete the planning, 
engineering, and design of a rural water system, pursuant to P.L. 110-
390, under the Indian Self-Determination and Education Assistance Act, 
P.L.93-638. The real cost of the WMAT Rural Water System will certainly 
be refined as this effort moves forward.
    In addition to concerns about the cost estimate, the Administration 
is also concerned about the mechanism under which project construction 
funds would be handled, which could add to the costs of project 
construction. As introduced, H.R. 1065 has differing provisions 
regarding how the Secretary is supposed to handle the money 
appropriated for construction. Section 14 of H.R. 1065 requires the 
establishment of a trust fund, the ``Rural Water System Construction 
Fund'' into which construction monies would be deposited. This trust 
fund would be managed in accordance with the American Indian Trust Fund 
Management Reform Act of 1994. The Tribe would be able to withdraw 
these funds and spend them after submitting a plan to the Secretary. 
This is an unusual and cumbersome way to deal with construction funds. 
Reclamation, the bureau responsible for constructing the WMAT Rural 
Water System and the bureau to which the funds would typically be 
appropriated, would have to deposit construction funds into a trust 
account managed by a different bureau.
    Under section 7(g) of H.R. 1065, the Tribe has the option of 
performing the planning, design, construction, operation, maintenance, 
rehabilitation, and replacement of the WMAT Rural Water System in 
accordance with the provision of the Indian Self-Determination and 
Education Assistance Act (P.L. 93-638). Reclamation believes that 
having the tribe carry out the construction under an ISDEAA framework 
is one alternative that would accomplish the intended purposes of this 
act in a more direct and efficient manner than the trust fund model set 
forward in section 14. However, the Tribe has had financial management 
and accounting issues with other P.L. 93-638 contracts and grants. The 
Department encourages the use of the Indian Self-Determination and 
Education Assistance Act and would support its use for the projects 
called for in H.R. 1065 if additional language could be formulated and 
added to the legislation allowing the Secretary of the Interior to 
require appropriate accounting and review measures to insure that 
Federal funds are expended as intended. At the very least, the 
legislation needs to clarify whether the Secretary is being called upon 
to establish a trust fund to be controlled by the Tribe or to 
accomplish the construction through an ISDEAA contract. We look forward 
to working with the bill sponsors on this clarification. Ultimately, 
the Administration's goal in this or any other settlement is to define, 
with as much certainty as possible, the Federal costs necessary and 
appropriate to achieve implementation of the settlement.
Title to the Rural Water System
    H.R. 1065 requires that the WMAT Rural Water System be held in 
trust by the United States. This stands in sharp contrast to the manner 
in which title to domestic water supply systems is handled in other 
enacted and pending water rights settlements. Generally, title is 
transferred to tribes or other project users once construction is 
complete. The Administration believes transferring title to the 
domestic water supply system is more consistent with concepts of self 
determination and tribal sovereignty and we would prefer that the WMAT 
Rural Water System be so transferred.
Concerns about the Waivers and Releases
    The waivers and releases authorized in Section 12 of the bill are 
of serious concern to the Administration. We note that the Department 
of Justice has concerns that the waivers set forth in the bill do not 
adequately protect the United States from future liability and do not 
provide the measure of certainty and finality that the Federal 
contribution contained in the bill should afford. The U.S. Forest 
Service also has concerns about the waiver provisions. We believe that 
the issues raised are not irreconcilable if we are given the 
opportunity to work with the parties towards resolving them. Recently 
enacted settlements, such as the Duck Valley Shoshone-Paiute Tribes of 
the Duck Valley Reservation Water Rights Settlement, P.L. 111-11, 
provide an example of waiver and release provisions that were 
negotiated with the parties in a manner that addressed many of the 
Justice Department's concerns.
Additional Concerns about the Financial Structure of this Settlement
    In addition to authorizing the WMAT Rural Water System, H.R. 1065 
also authorizes appropriations for several other projects as part of 
the settlement: (a) snow-making facilities ($25 million); (b) fish 
hatcheries ($12.47 million); (c) irrigation rehabilitation ($4.95 
million); (d) a forest products feasibility study and implementation 
funds ($25 million); and (e) recreation lakes improvements ($48.67 
million), a total of approximately $116 million in addition to the 
amount authorized for the rural water system. However, under H.R. 1065 
as introduced, the waivers by the Tribe and the United States of the 
Tribe's federal reserved water rights become effective once there is 
funding to construct the rural water system. With the exception of the 
funding for the rehabilitation of the irrigation systems on the 
reservation, the other settlement activities authorized in this 
legislation are completely uncoupled from the waivers. The final 
effectiveness and enforceability of the settlement is not contingent on 
these other appropriations, but only upon the appropriations for the 
design and construction of the WMAT Rural Water System. Other 
settlements have followed a different model under which a tribe 
receives an appropriation in a fund to accomplish its own development 
priorities in using the water it receives under a settlement. We 
believe that model might be preferable, although the Administration has 
not determined what would be an appropriate amount of federal funding 
for such a fund.
    We also note that the bill as introduced would require all of the 
funding for the rural water system to be appropriated by October 31, 
2013. Given the realities of federal budgeting, it will be much more 
realistic to provide a longer period to budget for what are ultimately 
determined to the appropriate federal costs of this system. To the 
extent that one of the factors driving the settlement proponents to ask 
for this money upfront is a desire for waivers that come into effect 
earlier, we would suggest that they look at other settlements involving 
construction where waivers are able to come into effect but are subject 
to nullification if construction does not get completed within the time 
frame established in the settlement agreement and authorizing 
legislation.
Process Concerns and Conclusion
    This legislation has to be analyzed and understood within the 
context of the large numbers of Indian water rights settlements which 
are expected to be introduced during the course of the 111th Congress. 
We need to establish negotiating approaches and standards that will 
result in fair consideration and treatment of all of the settlements 
that this Congress will be asked to review. While we are aware that the 
settling parties worked closely with the Federal negotiating team in 
developing the parameters of this settlement, we have also been 
informed by the team that issues involving the cost of the settlement 
were not considered. We believe that these costs need to be discussed 
and negotiated and that the benefits of the settlement must justify the 
costs. The Administration needs to complete its analysis of the 
settlement so that we can inform the parties what level of funding we 
would be able to support, and we need to explore alternative funding 
mechanisms that will provide a realistic chance for this settlement to 
be implemented in a way that fulfills the promise that it represents to 
the Tribe and to others for a comprehensive settlement.
    In conclusion, the Administration appreciates and is encouraged by 
the willingness of the settlement parties to negotiate their 
differences in a cooperative spirit. We are committed to working with 
Congress and all parties to develop settlement legislation that the 
Administration can support.
    Thank you, Madam Chairwoman, for the opportunity to present this 
testimony. I will be pleased to answer questions you and other Members 
might have.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Connor. And I read most of 
your testimony except for what came in this morning. I 
certainly would appreciate all of it coming in so that I have a 
chance to go over it and draw some of my questions out of your 
testimony.
    I have the greatest respect for the work that the Bureau 
does and look forward again to working extensively the next few 
Congresses to be able to see what we can do to help promote 
Title XVI and other projects, but specifically Title XVI, to 
help address some of the drought, what are the tools that they 
have to address the drought in the West.
    And you talk about the Native American tribes, and I am 
just wondering how much help do they have to be able to do the 
things that are necessary to come before a subcommittee and get 
in line to be able to get assistance. Should we consider 
possibly setting aside a fund or creating a fund to deal with 
Indian water right claims? Because it is going to hopefully be 
more available to more tribes as we go forth.
    Mr. Connor. Well, I certainly don't have a position from 
the Administration on whether a new fund should be established 
for any water rights settlements.
    I do know based on existing law there are a couple of 
opportunities that exist already out there as part of the 
Navajo settlement that was enacted in the last Congress. There 
is a provision there that establishes a Reclamation Indian 
water rights trust fund to help pay for Reclamation's role in 
implementing Indian water rights settlements. And that comes 
into effect in the resources available to implement those 
settlements as of the year 2020.
    There is also as part of the Global AIDS Package the bill 
known as PEPFAR that was enacted by Congress last year. There 
is a provision there that would also establish a fund to be 
used to meet certain needs on Indian lands in three areas, law 
enforcement, healthcare and the implementation of Indian water 
rights settlements. And I know there has been discussion in the 
Legislative Branch about putting resources in there.
    So I guess I just note we don't have a position on a new 
fund, but there are some existing situations that are under 
provisions already in law that Congress I know is looking at.
    Mrs. Napolitano. OK. But that brings to mind then is there 
enough money in those funds to be able to adequately address 
the concerns that most of the tribes have, one. Two, maybe 
having a hearing with all those agencies, the different areas 
where those funds are, to sit at table and find out what is 
there so that we know and be able to refer as they come to a 
subcommittee to request assistance.
    Mr. Connor. Well, I think getting all of that information 
out on the table would be a very good first step. We are 
certainly concerned from the Bureau of Reclamation's 
perspective about the backlog that exists presently with 
respect to authorized Indian water rights settlements, which is 
in the tune of about a billion dollars. And certainly, this 
bill and other bills that are currently before Congress would 
add to that overall backlog of expectations of coming up with 
the money to implement those settlements that the parties are 
looking to implement.
    Mrs. Napolitano. We look forward to working with you on 
that, Commissioner. Mr. Chaffetz?
    Mr. Chaffetz. Thank you, Madame Chair, I appreciate it. I 
would just ask unanimous consent to insert into the record my 
statement regarding the Magna Water District Water Reuse and 
Groundwater Recharge Act of 2009.
    Mrs. Napolitano. Without objection, so ordered.
    Mr. Chaffetz. Thank you.
    [The statement submitted for the record by Mr. Chaffetz 
follows:]

Statement of The Honorable Jason Chaffetz, a Representative in Congress 
                         from the State of Utah

    Thank you Madam Chairwoman and Ranking Member McClintock for 
holding this hearing on H.R. 2265, The Magna Water District Water Reuse 
and Groundwater Recharge Act of 2009''. H.R. 2265 is the House 
companion bill to S. 745 sponsored by Sen. Orrin Hatch (R-UT).
    I want to formally welcome, Ed Hansen, the manager of the Magna 
Water District. This is his first time testifying before a 
congressional committee. He's a good man. Go easy on him.
    H.R. 2265 amends the Reclamation Wastewater and Groundwater Study 
Facilities Act, also known as Title XVI. This legislation authorizes 
$12 million in federal funding. Total cost of the project is $51 
million.
    The Magna Water District is located in Salt Lake County and 
includes the Magna Township, western areas of West Valley City, and a 
corner of south west Salt Lake City.
Project Description
    This project achieves the following:
    <bullet>  Restoration of a currently contaminated drinking water 
supply.
    <bullet>  Implementation of water reuse and groundwater recharge.
    <bullet>  Reduction in high quality drinking water usage for 
irrigation.
    A new electrodialysis facility is being built to remove perchlorate 
and arsenic from the Barton Well Field resulting in two products: high 
quality drinking water and a concentrated waste stream.
    The drinking water will be pumped directly into the District's 
potable water system. The concentrated waste stream will flow by 
gravity to the existing wastewater treatment plant where a bioreactor 
is being constructed to treat the waste stream.
    The bioreactor will produce high quality effluent that will be 
disinfected and combined with the effluent from the existing wastewater 
treatment plant to be used for irrigation, eliminating the need to use 
a high quality drinking water for outdoor irrigation uses. The project 
will result in a projected annual reduction of 580 million gallon of 
high quality, potable water used for outdoor irrigation.
    The existing wastewater treatment plant effluent is discharged into 
the Great Salt Lake where it is unrecoverable. With this new project, 
the areas being irrigated are also within the recharge zone for 
groundwater recovery wells that provide water for the District's 
expanding secondary water irrigation system.
Justification for Federal Funding
    Federal funding for this project is justified so that the Magna 
Water District may comply with federal environmental mandates. 
Moreover, this federal funding is justified since the district is 
addressing water contamination caused by the Department of Defense and 
its contractors.
    The Bureau of Reclamation has reviewed the project and has found 
the project to be feasible.
    I look forward to hearing the Administration's testimony and 
addressing their concerns.
    Thank you, again, Madam Chairwoman and Ranking Member McClintock, 
for holding this hearing. I look forward to working with you and 
members of your staff to move this needful project forward.
                                 ______
                                 
    Mr. Chaffetz. If I may, my understanding regarding the 
Magna project is that, again having not seen the testimony that 
came this morning, and my apologies for being late with other 
committee assignments, that the project is feasible, but the 
question is much more in tune with resources and other projects 
that are in line before this one.
    Can you help summarize that for me?
    Mr. Connor. I think you have characterized the issue 
correctly. We look at these projects, and I think in each of 
the written statements it weighs this out. There are two 
aspects from which Bureau of Reclamation is evaluating these 
authorizations. One is the basic feasibility, and the 
directives and standards that Reclamation has to evaluate 
project feasibility, which were really new, not new but revised 
last year and put in place, and which we have been applying to 
these new authorizations.
    As you know, the Magna project that is in your bill as of 
last week was certified as feasible, having gone through that 
process. But even in that context, then we have to look at the 
existing backlog of projects that we have. And to summarize 
there, we have basically a $600 million backlog in authorized 
Title XVI projects. And that is after the $135 million of 
Recovery Act money that we just announced on July 1 to be 
applied to those projects.
    So, given that backlog and given the available resources at 
this time, that is the basis for the position that we are not 
supporting new project authorizations.
    Mr. Chaffetz. Understood. Just one other brief comment. 
Having visited the facility in Utah recently for the first 
time, I appreciate the fine men and women who are serving 
there, that are serving our country and, by all evidence, are 
doing a great job. It is a wonderful facility. So I thank you, 
and I yield back, Madame Chair. Thank you.
    Mrs. Napolitano. Thank you for your statement. And now just 
a couple questions, Commissioner.
    Public Law 109-451 authorized Reclamation to establish 
comprehensive programmatic criteria, including prioritization 
and eligibility criteria as well as criteria to evaluate 
appraisal and feasibility studies for the rural water program. 
In your opinion, are similar criteria needed for Title XVI 
programs? And has the development of these directives and 
standards negated the need for legislative criteria?
    Mr. Connor. Well, I think the promulgation of the 
directives and standards are sufficient to evaluate project 
feasibility. And we have been applying those directives and 
standards as I mentioned. And based on that application, I 
think over the last two years, 2008 and 2009, there have been 
20 new projects that have been authorized by Congress, most, if 
not all, that have been evaluated and certified under those 
directives and standards. So that, in my mind, addresses the 
feasibility aspect of this.
    In moving forward and in tough budgetary times, in 
evaluating the priorities for funding under Title XVI, there 
may be room to look at projects and develop criteria under 
which we would allocate the limited resources and prioritize 
the projects that should be funded.
    We did some aspect of that in the Recovery Act funds, the 
$135 million, although I should note that we certainly looked 
at the projects themselves and evaluated them. But also we had 
to apply the criteria that was established as part of the 
Recovery Act, a lot of which involved shovel-readiness, when we 
could get the money obligated, when it could be used by the 
project sponsors. So those were some other criteria that were 
specific to the Recovery Act.
    Mrs. Napolitano. But when you talk about the feasibility 
study, are you referring to the feasibility study that applies 
to a Title XVI program not under the principals and guidelines, 
is this true? Is this correct?
    Mr. Connor. That is correct.
    Mrs. Napolitano. OK.
    Mr. Connor. They are specific feasibility criteria that 
have been developed for the Title XVI program itself. Although 
there are similarities and there are certain aspects that are 
pulled out of the general principal and guidelines for larger 
water projects, the feasibility directives and standards are 
customized to the Title XVI project based on the local 
sponsor's input and our role.
    Mrs. Napolitano. Thank you. And I would like to ask that a 
list of those projects that have met the feasibility be 
provided to this Subcommittee.
    Mr. Connor. Yes, Madame Chairwoman, we can do that.
    Mrs. Napolitano. Mr. McClintock.
    Mr. McClintock. Thank you, Madame Chairwoman. The first 
question I have is just over the cost-effectiveness issues. 
What criteria are used to evaluate whether these things make 
financial sense?
    Mr. Connor. Well, we do have economic considerations as one 
aspect. There are nine different categories as part of the 
directives and standards. Economic considerations and analyses 
are part of those.
    I can get back to you on the written record as far as all 
elements of those economic considerations. I do know that they 
look at project alternatives as one aspect of that, so there is 
some comparison that is done as part of that analysis. But as 
far as the whole level of details in evaluating cost-
effectiveness, that is actually one of the items in there. They 
look at cost-effectiveness.
    Mr. McClintock. I am looking at some of the numbers before 
us, and I find them absolutely stunning. Just the projects that 
are on the agenda today, even amortizing the costs over 30 
years, it comes to nearly $1,000 per acre-foot. That just 
doesn't seem to me to make any sense at all.
    Mr. Connor. Well, I haven't looked at them, at the 
projects, as far as a cost per acre-foot. I guess in looking at 
the projects, one perspective that I can give is the Title XVI 
program uses a 25 percent Federal cost share and leverages a 
lot of local community money to develop those projects. And 
those communities it seems safe to say have evaluated their 
options for providing additional water supply to their 
communities and have determined that this is one of the most 
cost-effective options for them to come up with a drought-
resistant supply.
    Mrs. Napolitano. A thousand dollars per acre-foot? I mean, 
the most expensive I have ever heard imported water to run is 
about $400 per acre-foot, and that includes moving it about 500 
miles. So $1,000 per acre-foot just sounds completely off the 
scale. I just wonder why in the world would we be interested in 
encouraging that? I mean, if a local community wants to 
squander its citizens' money in that way, that is between them 
and the local citizens. But why should the rest of the 
taxpayers of America be pulled into that silly decision?
    Mr. Connor. Well, I think I would want to go back and, 
before answering that question, go back and evaluate these 
projects and see whether in fact they are $1,000 per acre-foot 
and evaluate why those communities believe that that is the 
best investment that they can provide water supply through.
    Mr. McClintock. Have you found any of these recycling 
projects under Title XVI to be less expensive per acre-foot 
than the alternative of importing or harvesting water?
    Mr. Connor. That is a part of our analysis of the Title XVI 
projects. I can get back to you on details of what we found.
    Mr. McClintock. Have you ever determined a recycling 
project that is producing water for less than the cost of 
importing it?
    Mr. Connor. I will have to get back to you with the 
details.
    Mr. McClintock. OK. It seems to me that is a pretty basic 
question if you are evaluating cost-effectiveness and 
particularly if you are giving any kind of serious 
consideration to cost-effectiveness. Don't you agree?
    Mr. Connor. That is a fundamental question. I do agree with 
that.
    Mr. McClintock. If I can move to the question of the 
Federal nexus, why is it that a taxpayer in Alturas, 
California, for example, should be called upon to finance a 
water project in Downey, California, for example?
    Mr. Connor. Well, I think going back to the initial 
authorization of the Title XVI program, the view is that there 
was a direct Federal nexus in helping local communities in 
California I guess be less reliant on imported water supplies 
from the Colorado River and elsewhere.
    Mr. McClintock. But Alturas doesn't get any of its water 
from the Colorado or from any other sources that Downey draws 
from. They are two entirely separate water systems. Why should 
one be forced to subsidize the cost of the other?
    Mr. Connor. Well, I guess there are Federal issues in a lot 
of different river basins, et cetera. This was viewed as a 
Federal objective to help people, communities be able to 
develop local supplies and get off the Colorado River.
    In that situation, which was the basis for the original 
authorization, there is a Federal interest in California Bay 
Delta and water recycling projects there as part of an overall 
solution to help address the serious water issues that exist in 
the northern California area. In other areas of the country, I 
know Title XVI projects have been used which have helped 
forestall, address new water supplies in other water-short 
basins such as the Middle Rio Grande.
    And the development of these projects certainly has helped 
at least delay, and maybe negate, the need for additional 
surface water supplies, which has helped alleviate some of the 
environmental issues that exist in other river basins.
    Mr. McClintock. My concern is to me it sounds like the 
government's attitude is cost is no object and fairness is no 
object.
    Two more questions if I may, Madame Chairwoman.
    First, the feasibility issue. You said that these projects 
are evaluated on a much different set of criteria in terms of 
feasibility than say a dam project. What are those differences?
    Mr. Connor. Well, once again, the details of those 
differences of how the feasibility criteria for Title XVI 
projects differ from the overall P and Gs, I am going to have 
to get back to you on the written record. I am happy to do 
that.
    I think what is driving the differences, though, is 
recognizing that this is a 75 percent local cost share and the 
Federal government is a contributor of up to 25 percent of the 
cost. So we are not shouldering the burden of developing these 
projects, so the analysis is a little different. But there is 
still an analysis to ensure that the Federal investment for 
these projects is a good and legitimate one.
    Mr. McClintock. Final question going to the Uintah bill. I 
was stunned as I pulled out a pocket calculator and realized 
that the water allocation is 2.1 million gallons for every one 
of the 15,000 residents. What is the justification for that?
    Mr. Connor. That is the White Mountain Apache Tribal 
Settlement Bill?
    Mr. McClintock. Pardon me, I am sorry. I am sorry, White 
Mountain Apache.
    Mr. Connor. Well, I know that the allocation of water in 
that particular settlement was negotiated by not only the Tribe 
and the State but a lot of water users in the area, in fact all 
of the water users that perceive themselves at risk from the 
unquantified tribal water rights. So that was an agreement that 
was developed by the parties in allocating Arizona's water 
resources, and those parties thought that that was a legitimate 
allocation.
    The Federal team that participated in some of the 
negotiations has done a preliminary analysis, viewing that as a 
legitimate allocation of water, based on the tribal claims and 
other criteria that they have looked at, including the fact 
that the water is available from Arizona.
    Mr. McClintock. What is the Tribe going to use all of that 
water to do?
    Mr. Connor. I am not aware of all the tribal water needs. 
Certainly the centerpiece of the settlement is utilizing a 
portion of that water for its rural water supply project, so 
M&I needs basically. And I am sure the Tribe has agricultural 
uses and other opportunities to use water in addition to that.
    Mr. McClintock. Thanks.
    Mrs. Napolitano. Mr. Miller.
    Mr. Miller. Thank you, Madame Chair.
    Commissioner, let me just follow on here. As I look at your 
testimony, it suggests that you can't support the authorization 
of these new projects because there is a backlog of projects 
already.
    Mr. Connor. That is correct.
    Mr. Miller. Have you thought about the reverse of that on 
how you work on the backlog in terms of the budget allocations? 
I know you have come with this budget, the first one of this 
Administration. And I recognize that there was money, the $135 
million that was in the stimulus bill. But when we look forward 
to 2011, I would assume that backlog would suggest that there 
is some priority here by the Congress, by local water users, 
that this is a viable way to go.
    So how do we turn that notion around that because there is 
a backlog we can't support it--as opposed to how are we going 
to get the backlog whittled down, especially when we have some 
anticipation of the continuation of the drought in a good chunk 
of the West and certainly in California?
    Mr. Connor. To answer your initial question, I have given 
that a lot of thought. Quite frankly, that is the heart of the 
matter of how are we going to address the backlog that exists. 
I would just note part of my testimony also is we strongly view 
that we should be evaluating the feasibility of projects, and 
some of these projects have not achieved that feasibility 
determination. So that is part and parcel.
    But the heart of your question, how are we going to whittle 
away at this backlog and do we not understand that this is a 
priority for Congress and a priority because these are good 
water projects, we are looking very closely at that question.
    As I noted in my statements, Secretary Salazar has a water 
conservation initiative which did have significant resources in 
the 2010 budget. We view the Title XVI program to be part of 
that initiative. Granted, it was $9 million in the 2010 budget 
that was a couple-million-dollar increase over previous 
budgets, and we are going to be evaluating the whole water 
conservation initiative taking this data as part of that 
discussion that there is this huge backlog that produces good 
results in addressing a lot of water supply issues.
    Mr. Miller. May I assume from your answer then that we have 
moved on from what a lot of people have speculated that the 
Bureau just didn't see this as part of their mission? They just 
didn't see water recycling and reuse as part of their mission? 
That that is now incorporated as part of when you look at the 
overall mission of the Bureau and the Department of the 
Interior?
    Mr. Connor. Title XVI is an important part of the Bureau of 
Reclamation's mission.
    Mr. Miller. Well, that is very helpful to know that, 
because I think that what we see here is, I would say to my 
colleague, Mr. McClintock, it is not just a question of whether 
the price of the water, the recycled water, the reuse of the 
water versus delivered water, the reason many of these projects 
are being considered is because the delivered water isn't being 
able to be delivered.
    A lot of this is about water stability and whether or not 
people will be able to rely on those supplies for economic 
decisions that local communities have to make, either about 
creating jobs. In some cases, some manufacturing in our state, 
a fair amount of manufacturing in our state is very water-
intensive and whether or not that water will be available or 
whether it is building new communities if California continues 
to gain in population as it sort of has over the historical 
past.
    So I think that when we look at this as a component of the 
water development in the West this is significant. In terms of 
what we like to think we would build on is a system that is 
flexible to move water for competing economic needs, for 
competing environmental needs, for competing demands from 
growth and also take into accommodation that we do go through 
and we have gone through these cycles of water availability.
    And I expect that in some instances, if you compare this 
water to water that people are talking about developing behind 
new dams or reworked dams or whatever the project we are going 
to use, when you look at the actual yield and the availability 
on a consistent basis, this is probably a fair comparison.
    But that is your job. You will have to look at those 
comparisons and the feasibility, because obviously if the 
projects just are not feasible, we shouldn't be funding them. 
That is the test that I think most of the local entities have 
thought about as they decide to commit local resources. That is 
one of the initial screens that you go through--that there is 
some determination by the local individuals.
    The question of what happens to the people in Alturas, the 
same question is true whether you raise Shasta Dam or you build 
Temperance Flat or you build something else or a new canal or 
rework the pumps. Those are shared expenses of trying to keep 
California water use together and sustainable and hopefully 
somewhat predictable.
    So I think that these are a very important component of the 
traditional mission of the Department of the Interior in terms 
of water development and allocations and uses throughout the 
West. And certainly, when it comes to times of scarcity that we 
are now experiencing, I think that many of these projects 
really let us--the second use of the water or third use of the 
water becomes very valuable when you look at the water budget 
in many of these geographical areas. It is not just in 
California but throughout much of the West.
    So I would hope that we could work with you to develop a 
consistent policy, a priority of this policy, as a component of 
the traditional mission of the Department of the Interior in 
the programs of water development throughout the West.
    I think that the match, I would like other people to have 
the skin in the game. You know, in the past, we did an awful 
lot of water development in the West where other people didn't 
have much skin in the game. They are beneficiaries and they are 
interested in it and all the rest of it, but those bills still 
have not been paid.
    So I think this is a much better way to go. The Chairwoman 
has been an absolute champion of recycling and reuse. And while 
there were a lot of doubters I think in the beginning, when we 
look at the water predicament in our state, you start to see 
the urgency of trying to figure out how we can build this kind 
of flexibility, whether it is increased storage in normal or 
perhaps wet years or whether it is the ability to draw on that 
water or to recycle that water or reuse that water in whatever 
mix of components people have in their plans, become very, very 
important to try to provide some sustainability and 
predictability for the economy of our state and other regions 
of the West.
    So I would hope that with this hearing and with an 
opportunity with this Committee to work with you that we could 
incorporate this into a major component and priority of the 
Department as it considers going forward in the West.
    In my years here, when we reconfigured the Central Utah 
project and the Garrison project, we recognized that a lot of 
those uses didn't make much economic sense, given the way the 
West has developed. There were other competing economic 
interests where that water was more valuable, more viable, and 
the rest of that. And that should be a continual process within 
the Department of the Interior, within the Congress, and within 
the states as our states' populations and economies change over 
time.
    And I would hope that we would also be willing to add new 
technologies, new sources of the use of water, to help us get 
through that.
    And so I look forward to working with you. I have a great 
sense of urgency about these projects that we are seeking to 
authorize in this Committee. We look forward to your screening 
them for their feasibility.
    I think I had a couple of projects the first time that 
really went through a real feasibility study. We got through 
it, and so I welcome that process. And I think all of those who 
testify today know that they are going to have to meet that 
test.
    So thank you very much for your time. My apologies, I have 
a markup. Mr. McClintock, are you coming to my markup? No.
    Mr. McClintock. Not after the last one, Mr. Chairman.
    Mr. Miller. The last one is not over yet in the Education 
Committee. But I just want you to know I am very, very 
interested in the success of this program, and I mean success 
in all ways, for the taxpayers, for water users in the West. 
Thank you.
    Mrs. Napolitano. Thank you. Thank you, Mr. Miller, and I 
couldn't have said it any better.
    The one thing I would like to ask the Commissioner to 
clarify in response to continuing a little bit of your 
question, Mr. Miller, and to Mr. McClintock's point, it isn't 
just about the cost, it is about certainty of water delivery. 
Do you agree, sir?
    Mr. Connor. Certainly. I think one of the motivating 
factors for communities in looking at water reuse is certainly 
its drought resistance, its certainty as far as supply. And 
given other issues ongoing in the West now, I can see why that 
is a high priority that local communities place on developing 
water.
    Mrs. Napolitano. Thank you, sir. Mr. Walden.
    Mr. Walden. Thank you, Madame Chairwoman. And again, I find 
myself in agreement with the gentleman from California. The 
only question I ask is, did you want Mr. McClintock at your 
markup? I won't go there.
    Mr. Miller. That crossed through my mind.
    [Laughter.]
    Mr. Walden. I know we want him there, but I am going to 
leave all that California stuff to you all. But I thank you for 
your comments.
    Mr. Connor, thank you, and I look forward to getting some 
time with you down the road. I know this is your first time 
before this Committee, and while I am not a member of it, I was 
for a number of years. And my district, 70,000 square miles in 
eastern Oregon, has just a couple of water issues going on.
    It seems to me on this legislation and legislation like it, 
while I understand the Administration's opposition or 
acknowledge it, I guess I would look at it from this 
perspective. There are a lot of projects in the queue, and you 
don't have enough money right now to fund them all. I get that. 
But it looks to me like it is not harmful for this Committee to 
move forward and put another one in the queue, to go through 
the process to determine this is worthwhile so that when 
funding does come you are ready to go.
    I mean, we do that all the time in all kinds of other 
committees I am on. We authorize things and say no, the 
authorizing committee has reviewed the project and determined 
it makes sense. Then those higher up in Appropriations decide 
is the money there to pay for it.
    And so I would hope you would think about that. I 
understand you have already testified in OMB and all that 
stuff. But it just seems to me that the duty of this Committee 
is to say no, this is a good project and when the money is 
there, this should happen. And then people can go ahead and 
kind of begin to plan.
    There is another one coming in the Rogue Valley, southern 
Oregon, that is upwards of 30,000 acre-feet of water that would 
go back into the Rogue River that could displace--it is a very 
complex one, but anyway, they end up using the recycled water. 
It solves an irrigation issue, it puts more water in the river, 
I mean, all of that, and the water going in is more pure than 
the water in the river.
    And so I think these are the kinds of projects that make a 
lot of sense and help us get ahead of the curve on our water 
needs and our recycling needs and frankly improving the water 
quality.
    At some point, I hope to sit with you and have a discussion 
about the Administration's views on the Klamath Basin 
Restoration project. I know you will be deeply engaged in that. 
I know Secretary Salazar has made it clear that the 
Administration intends to move forward. There are obviously a 
lot of complex issues involved in the KBRA and a lot of 
controversy surrounding it.
    And so I look forward to an opportunity sometime to sit 
down and have that discussion with you, sir.
    Mr. Connor. I would welcome the opportunity.
    Mr. Walden. And I thank you for being here today. And after 
my stirring remarks, I am sure you will reconsider your 
opposition to my bill.
    Thank you, Madame Chairwoman.
    Mrs. Napolitano. You are welcome. Do we have any other 
questions for the Commissioner?
    Mr. McClintock. I just want to address the question of 
reliability. It seems to me that the reason that California is 
now suffering from unreliable water supplies is the fact that 
half of our water is being diverted to meet various 
environmental regulations and only a portion of the state water 
project was ever completed, which gets back to my concerns that 
the last generation has dropped the objective of abundance as 
the principal objective of water and power policy and has 
instead moved now to rationing shortages that are caused by the 
abandonment of abundance as a national object.
    Mr. Miller. If the gentleman would yield, I just would say 
I think you will find that half of the water is not being 
diverted for environmental reasons. In fact, when you look at 
the shortage this year, a very small percentage of the water is 
related to environmental reasons.
    But understand that those environmental reasons are also 
linked to economic reasons. In fact, a lot of this discussion 
over the fish, for a lot of small businesspeople up and down 
the north and central coast, that environmental reason is 
whether or not they will have a livelihood. For the people who 
do the dockside supplies, whether it is ship channel reefs or 
whether it is icemakers or fish salespeople or the trucking 
firms and all the rest of that, hook onto those issues.
    So this isn't just throwing away jobs in one area for jobs 
in the other areas. But I think when you examine this, you will 
find out that in fact very little of that is--we have an 
overall--we have much more demand on water than the water that 
is available in the current system. And this is one way that we 
think we can better manage that and get a greater yield out of 
that water.
    Mrs. Napolitano. Thank you. I will stop the discussion at 
this moment. We need to move over for them. I wish they were 
true because I also have my own two cents on it, and I don't 
want to get started. When you put in enough water meters, I 
will start with that. Thank you, sir.
    With that, Commissioner, thank you so much. I would love to 
have you sit around and listen, and possibly we may want to 
bring you up to answer a question or two. But thank you so very 
much. I look forward to working with you. And so with that, we 
dismiss you, and we will call up our next panel.
    Mr. Connor. Thank you.
    Mrs. Napolitano. Mr. Desi Alvarez, Deputy City Manager for 
the City of Downey, California, testifying on H.R. 1738; Mr. 
Edwin Hansen, General Manager at Magna Water District, Magna, 
Utah, H.R. 2265; Mr. Gary Darling, General Manager, Delta 
Diablo Sanitation District, Antioch, H.R. 2442; Susan Mulligan, 
General Manager of Engineering, or Manager of Engineering, 
Calleguas Municipal Water District, Thousand Oaks, California, 
on H.R. 2522; Ed Brookshier, City Manager, Hermiston, Oregon, 
H.R. 2741; Scott Ruppe, General Manager, Uintah Water 
Conservancy District, Vernal, Utah, H.R. 2950.
    Welcome. And we will begin with Mr. Alvarez from Downey.

    STATEMENT OF DESI ALVAREZ, DEPUTY CITY MANAGER, DOWNEY, 
                     CALIFORNIA [H.R. 1738]

    Mr. Alvarez. Madame Chairwoman and honorable members of the 
Committee, my name is Desi Alvarez, Deputy City Manager of the 
City of Downey. On behalf of the City of Downey, I would like 
to express our gratitude to Congresswoman Roybal-Allard for 
introducing this legislation and to Chairwoman Napolitano for 
co-sponsoring the bill.
    I would also like to publicly thank all of the cities that 
have written letters in support of this project, which is vital 
to the City of Downey and, we believe, to the region as a 
whole. I appreciate the opportunity to testify on H.R. 1738, 
the Downey Regional Water Reclamation Project, and will be 
happy to answer any questions you may have.
    The proposed legislation is associated with the 
construction of an advanced water treatment facility that will 
improve water supply and water reliability in southeast Los 
Angeles County by ensuring a local, reliable, safe, cost-
effective and energy-efficient source of drinking water for 
five cities serving approximately 450,000 people.
    The project will eliminate dependence on expensive imported 
water from the Sacramento San Joaquin Delta, and it is of 
utmost importance because of environmental and economic 
considerations. And that is why the City of Downey has proposed 
to build this project.
    The ability to treat recycled water and put it to 
beneficial use enhances the region's drinking water reliability 
and security. And in these economic times, this project will 
provide tangible benefits through the creation of approximately 
650 jobs.
    The Cities of Cerritos, Downey, Norwalk, Pico Rivera and 
South Gate are located in southeast Los Angeles County and rely 
on pumped water from the Central Basin for the majority of 
their potable water needs, which is approximately 50 million 
gallons of water per day.
    The Cities' reliance on the local groundwater supply is 
economically preferable to meet 100 percent of their water 
needs. However, that is not possible since the amount of water 
each city can pump in any given year is limited to the 
sustainable yield of the basin, which limits each city's 
extraction rights. Since annual potable water demands are 
currently greater than the Cities' extraction rights, any 
increase in water demands will further stress the already-tight 
water situation.
    Presently the difference between the allowable extractions 
from the basin and greater water demands leaves the Cities 
dependent on using imported water, the main source being from 
the northern California through this delta, a less-than-viable 
long-term solution for providing water to the region.
    Our increase in demand for water has resulted in the need 
for a project like this. Importing northern California water 
which was to be moved through the delta is an unfavorable 
option due to the high cost and its unreliability as to the 
long-term supply source, due to the impacts of pumping on the 
ecosystem of the delta, thus the alternative of providing for 
water needs for the local sustainable reliable water supply 
from highly treated recycled water.
    This project is consistent with the California Water Plan 
update, which promotes regional water supply diversification 
and increased use of recycled water. The project will provide 5 
million gallons per day of net new potable water, which may be 
delivered through pipeline connections far more efficiently, as 
we are proposing, by injection into the groundwater basin for 
extraction by participating cities using regular groundwater 
pumping wells.
    The project will be built at the City of Downey's utilities 
yard, selected because it is located near an existing recycled 
water transmission main, has space available to house the 
facility, has an existing five-million-gallon storage tank 
which will be dedicated to the project.
    A new 18-inch influent recycled water pipeline will be 
constructed to connect to an existing recycled water 
transmission line at Firestone Boulevard, and the project will 
consist of an advanced treatment plant using microfiltration, 
ultrafiltration, and reverse osmosis, as well as ultraviolet 
light with hydrogen peroxide for disinfection. The project has 
environmental water security and economic benefits on our local 
region and on a national level.
    The use of the local water supplies will also help us be 
much more independent in our future as our water demands 
continue to increase. On behalf of the Cities of Cerritos, 
Norwalk, Pico River and South Gate, the City of Downey is 
requesting support for H.R. 1738, which authorizes funds for 
the design and construction of a five-million-gallon-per-day 
advanced recycled water treatment plant.
    The project is essential to ensure the sustainability of 
the Cities' drinking water supplies. The City of Downey has 
invested significant time and funds in preparation of this 
project and is ready to proceed with project implementation.
    In light of the numerous economic, environmental and 
regulatory benefits the project affords the Central Basin in 
Los Angeles County, I ask for your continued support of this 
important legislation. I thank the Committee and you, Madame 
Chairwoman, for your time and consideration. I am available to 
answer any questions.
    [The prepared statement of Mr. Alvarez follows:]

            Statement of Desi Alvarez, Deputy City Manager, 
          City of Downey, California, in support of H.R. 1738

Introduction
    Madame Chair and Honorable Members of the Committee, my name is 
Desi Alvarez, and I am the Deputy City Manager of the City of Downey, 
California. On behalf of the City of Downey, I'd like to express our 
gratitude to Congresswoman Roybal-Allard for introducing this 
legislation and to Chairwoman Napolitano for co-sponsoring the bill. 
I'd also like to publicly thank all of the cities that have written 
letters in support of this project, which is vital to the City of 
Downey and, we believe, to the region as a whole. I appreciate the 
opportunity to testify on H.R. 1738, the Downey Regional Water 
Reclamation and Groundwater Augmentation Project and to answer any 
questions you may have.
    The proposed legislation is associated with the construction of a 
water treatment and groundwater storage facility that will dramatically 
improve water supply and water reliability in Southeast Los Angeles 
County. The Downey Regional Water Reclamation and Groundwater 
Augmentation Project will ensure a local, reliable, safe, cost-
effective and energy-efficient source of drinking water for five cities 
and nearly 450,000 people. Eliminating dependence on expensive imported 
water from the vulnerable Sacramento-San Joaquin Delta is of utmost 
importance, environmentally and economically, and that is why the City 
of Downey has proposed to build this regional project. The ability to 
treat recycled water and store it in the groundwater basin directly 
enhances the region's drinking water reliability and security. 
Furthermore, in these tough economic times, this project provides 
tangible benefits to the region before the project is completed, 
through the creation of approximately 648 jobs.
Project Need
    The Cities of Cerritos, Downey, Norwalk, Pico Rivera, and South 
Gate are located in the Central Groundwater Basin in Southeast Los 
Angeles County and rely on water pumped from the Basin to meet the 
majority of their potable water needs. The combined population of the 
five cities is approximately 450,000, with a current demand of nearly 
50 million gallons of water per day. The cities' reliance on 
groundwater supply is economically preferable and would be sustainable, 
except that the amount of water each city can pump in any given year is 
limited by the sustainable yield of the basin, which limits each city's 
extraction rights. Since annual potable water demands are currently 
greater than each city's extraction rights, any increase in water 
demand will further stress the already tight water situation.
    Presently, the difference between the allowable extractions from 
the Basin and the greater water demands leaves cities dependent on 
using imported water, the main source being from Northern California 
through the Sacramento-San Joaquin Delta (Delta), a less than viable 
long-term solution for providing water to the region. Increasing 
populations throughout the Central Groundwater Basin have led to 
increased water demand overall. Importing Northern California water, 
which must be moved through the Sacramento-San Joaquin Delta, is an 
unfavorable option due to the high cost; unreliability as a long-term 
source of water; excessive carbon footprint and energy usage resulting 
from pumping water up the 8,000 foot Tehachapi Mountains; and adverse 
impacts on the ecosystem of the Delta, of which this subcommittee is 
well aware, based on the proceedings of the CalFed Bay Delta Program.
    Thus, the alternative of providing for water needs with a local, 
sustainable, reliable water supply from highly treated recycled water 
is highly desirable. This alternative capitalizes on two local and 
underutilized resources: the dewatered space in the Central Groundwater 
Basin and the millions of gallons of unused recycled water produced 
each year by the County Sanitation Districts of Los Angeles County. 
Treating the locally-produced recycled water and storing it through the 
use of groundwater injection wells will augment the water supply 
available to pumpers in the Central Groundwater Basin. It also enhances 
the quality of the groundwater, as in many cases the extensively 
treated recycled water has fewer total dissolved solids (TDS) than the 
water naturally occurring in the Basin. Furthermore, this Project is 
consistent with the California Water Plan Update, which promotes 
regional water supply diversification and increased use of recycled 
water.
Project Description
    The Downey Regional Water Reclamation and Groundwater Augmentation 
Project would provide advanced treatment of recycled water for 
injection and storage in the Central Groundwater Basin. Product water 
capacity of the advanced recycled water treatment plant will produce 
five million gallons per day of net new potable water which would be 
injected into the groundwater basin for extraction by participating 
Cities via regular groundwater pumping wells.
    The project will be built at the City of Downey's Utilities Yard, 
selected because it is located near an existing recycled water 
transmission main, has space available to house the facility, and has 
an existing five million gallon storage tank which will be dedicated to 
the project. A new 18-inch influent recycled water pipeline will be 
constructed (see Figure 1. Project Area Map) to connect the existing 
recycled water transmission main at Firestone Boulevard and the San 
Gabriel River to the new treatment plant at the Utilities Yard. The 
influent pipeline would convey tertiary treated recycled water from the 
County Sanitation District's Los Coyotes Water Reclamation Plant to the 
proposed advanced water treatment plant. Physical components of the 
advanced treatment plant include an influent tank, an inter-process 
storage tank, pump stations, filters, and strainers and process streams 
and pipelines (see Table 1. Project Components). The recycled water 
would be further filtered with microfiltration and ultrafiltration 
membranes; treated with a reverse osmosis system; and disinfected using 
ultraviolet light with hydrogen peroxide treatment.
    The resulting high-purity reclaimed water would then be introduced 
into the Central Groundwater Basin through three aquifer storage and 
recovery wells. Following injection, the stored water would be 
available for extraction to augment the local water supply.
Project Benefits
    The Downey Regional Water Reclamation and Groundwater Augmentation 
Project has environmental, water security, and economic benefits on a 
local, regional and national level (summarized in Table 2. Project 
Benefits). The project is consistent with state and federal objectives 
that aim to reduce reliance on water imported from the Delta, to 
promote regional water supply diversification and to increase the use 
of recycled water. Augmenting the water supply so that local water is 
more available than imported water reduces reliance on the Delta and 
``drought-proofs'' the local water supply.
    The use of local water supplies will also reduce energy consumption 
and greenhouse gas production because local water, unlike imported 
water, does not need to be pumped up and over the 8,000 foot Tehachapi 
Mountains. Another environmental benefit of the project is an 
improvement in water quality in the San Gabriel River and in the 
Central Groundwater Basin because the production of ultra-high quality 
recycled water through treatment with reverse osmosis will result in 
reduced total dissolved solid contaminant levels. Finally, this project 
will benefit the local, state, and national economy through the 
creation of approximately 648 jobs resulting from increased 
construction (direct), manufacturing (indirect), and consumer spending 
(indirect) labor (based on the IMPLAN Model Input/Output Data from the 
Los Angeles County Economic Roundtable).
Conclusion
    On behalf of the Cities of Cerritos, Norwalk, Pico Rivera, and 
South Gate, the City of Downey is requesting support for H.R. 1738, 
which authorizes funds for the design and construction of a five 
million gallon-per-day advanced recycled water treatment plant with 
groundwater storage wells. The Downey Regional Water Reclamation and 
Groundwater Augmentation Project is essential to ensure the 
sustainability of the Cities' drinking water supplies. The 
participating cities and the Southeast Water Coalition actively support 
this project. The City of Downey has invested significant time and 
funds in preparation of this project, and is ready to proceed with 
project implementation, pending completion of final plans and 
specifications. It is anticipated that the environmental impact report 
could be completed by the end of September 2010, a construction 
contract could be awarded by October of 2011, and project close-out 
could be completed by September 2013.
    In light of the numerous economic, environmental, and regulatory 
benefits the Downey Regional Water Reclamation and Groundwater 
Augmentation Project affords the Central Groundwater Basin in Los 
Angeles County, I ask for your continued support of this important 
legislation.
    I thank the committee and you, Madame Chair, for your time and your 
consideration.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Alvarez.
    And now we will move on to Mr. Edwin Hansen, General 
Manager at Magna Water District, Magna, Utah.

  STATEMENT OF EDWIN J. HANSEN, GENERAL MANAGER, MAGNA WATER 
               DISTRICT, MAGNA, UTAH [H.R. 2265]

    Mr. Hansen. Madame Chairwoman and members of the Committee, 
I thank you for the opportunity to address you this morning.
    I am the General Manager of the Magna Water District. We 
serve the Magna Township, the northwest quadrant of the Salt 
Lake Valley, along with West Valley City and parts of the 
southwest section of Salt Lake City.
    I want to thank Representative Chaffetz for his support of 
this bill, Representatives Matheson and Bishop for co-
sponsoring this bill on our behalf. All three of the 
representatives' districts bound Magna's area.
    Magna serves a population of approximately 28,000 people. 
The Title XVI project now before the Committee has a unique 
opportunity to restore drinking water supply by removing 
arsenic and perchlorate from the Barton Well Field while 
implementing a water reuse groundwater recharge project.
    Over the past century, the historic uses of the nearby land 
have been for copper mining and rocket fuel production. We also 
have a DOD facility that is located just south of the district. 
Both of these facilities necessitated an aggressive response 
from our district from the contamination and from the unfunded 
mandated arsenic safe drinking water rule. The District 
invested and is investing in a new EDR, electrodialysis 
treatment facility, which will remove the contaminants from the 
drinking water and provide the population safe drinking water. 
The facility after producing the drinking water will produce a 
highly concentrated brine stream with the contamination in it.
    The District over the past decade has been looking at 
alternative treatments for handling this concentrated brine 
stream. The District along with a couple of engineers has 
developed a BIOBROx treatment system that will remove and 
destroy the contaminated in the concentrated brine stream.
    The concentrated brine stream leaves the facility and is 
entered into the wastewater collection system, which in turn is 
delivered to our wastewater treatment plant. The BIOBROx 
process allows this high-concentrated brine along with the 
contamination to pass through these bioreactors. These 
bioreactors are 12 foot in diameter, 15 feet high. There are 
six of them. When constructed, they will treat just under four 
MGD a day.
    The effluent coming off these bioreactors will be type I 
reuse irrigation water and will be ready for treatment and then 
allowed to be pumped back out into the reuse/recharge system. 
The District has master-planned over the last 20 years and 
looked at alternative costs for water and import water. They 
felt with the District's support and the community's support 
that the alternative was to treat the water and have invested 
$36 million in this project.
    The cost of import water is projected to be over $1,000 per 
acre-foot. So we feel that this concentrated brine stream, 
rather than being discharged directly out to the environment, 
our option was better to treat it and reuse the water as a 
sustainable water source for this area of Salt Lake County.
    I thank you for the opportunity. If you have any questions, 
I will be happy to answer them.
    [The prepared statement of Mr. Hansen follows:]

  Statement of Edwin Hansen, Magna Water District (Utah), on H.R. 2265

    Good Morning. My name is Ed Hansen. I am the General Manager of the 
Magna Water District, which is comprised of Magna Township, located in 
the western areas of West Valley City, and a corner of South West Salt 
Lake City in Salt Lake County, Utah
    I want to thank Representatives Chaffetz, Matheson and Bishop for 
sponsoring this bill on our behalf. All three of there Congressional 
Districts intersect at our near the area which serves the 28,000 people 
who reside in our service area.
    Through this Title XVI project now before the committee, the Magna 
Water District has a unique opportunity to restore a drinking water 
supply by removing arsenic and perchlorate from the Barton Well Field 
while implementing a water reuse and groundwater recharge project. Over 
the past century, the historic uses of the nearby land are copper 
mining and rocket fuel production, both of which has necessitated an 
aggressive response by our district.
    A new electrodialysis reversal (EDR) facility is currently being 
constructed to remove perchlorate and arsenic from the Barton Well 
Field resulting in two products: high quality drinking water and a 
concentrated waste stream.
    The drinking water will be pumped directly into the District's 
potable water system while the waste stream will flow by gravity to the 
existing wastewater treatment plant (WWTP) site where a bioreactor is 
being constructed to treat the waste stream.
    The bioreactor will produce high quality effluent that can be 
disinfected and along with the effluent from the existing WWTP and used 
for irrigation through a reuse and secondary water irrigation system, 
thus eliminating the need to use high quality drinking water for 
outdoor irrigation uses.
    The existing WWTP effluent is currently discharged into the Great 
Salt Lake where it is unrecoverable by the District. There is synergy 
in the proposed system where as the areas being irrigated are also 
within the recharge zone for groundwater recovery wells that provide 
water for the District's expanding secondary water irrigation system.
    This reclamation project will result in a projected annual 
reduction of 580 million gallons (1,780 acre-feet) of high quality, 
potable project water used for outdoor irrigation
    Magna Water District is seeking funds, on a matching basis, to 
implement this project that will generate a several benefits to its 
water users:
    1.  It will reduce the current use of treated high quality project 
water thus cutting operating costs,
    2.  It will preserve an 8 cubic feet second (cfs) water right 
located at the WWTP outfall,
    3.  It will preserve and sustain their valuable water resources, 
and to promote water conservation.
    Utah ranks as the second driest state in the nation following 
Nevada, but is number one in per capita water use (municipal and 
industrial) at about 300 gallons of water per person per day. The 
residents of Magna are willing to invest in a portion of the project 
that they know will benefit the District as well as other surrounding 
communities.
    In fact, as a part of this reclamation project, the District and 
its water users have already invested more than $20 million in 
treatment facilities to remove arsenic and perchlorate from their water 
supply.
    The high cost of water treatment has forced the District to 
evaluate water usage and to investigate possibilities for reducing 
nonpotable water use. In 2004, recognizing the demand for high quality 
drinking water for outdoor irrigation in their existing system, the 
District planned, designed and installed the first phase of a secondary 
water system.
    Phase I of this system targets all of the District's large water 
users such as schools, churches, golf courses, and parks.
    As a result of the secondary water system planning and 
implementation efforts, District reports show a dramatic drop in 
potable usage for those using the secondary system. Private residences 
that connected to the secondary water system showed similar results; in 
most cases, nearly a 98% reduction in potable water usage for outdoor 
watering was achieved.
    The District continues to master plan to address the growing needs 
of its population by maximizing the use of its potable water supply for 
domestic, in-home uses and using expansion of the secondary water 
system for outdoor purposes thereby preserving its valuable potable 
water resources.
    A key element of this Phase II is to utilize the high quality 
product (reuse) water from the bioreactor at the District's wastewater 
treatment facility to increase the supply of water available for 
outdoor use. Reuse of water from the District's bioreactor will control 
potable water capital and operating costs and enhance water 
conservation efforts.
    In addition, all new development within the District boundary is 
currently required to install secondary water piping and infrastructure 
that complies with District standards to further maximize the 
District's ability to preserve potable water resources. This policy 
allows funding for this system to primarily benefit existing users and 
requires new development to bear the cost of secondary and reuse 
systems that are to its benefit.
    The total cost of the project is estimated to be approximately $51 
million. Project funding sources include approximately $3 million in 
Federal funding and $36 million funded by the District. Passage of this 
legislation will allow the District to fund the remaining $12 million 
through the Bureau of Reclamation's Water Reclamation and Reuse (Title 
XVI). When this happens, the people of Magna and our larger service 
area will be able to rely on a sustainable water supply that continues 
to be clean, safe and dependable. Thank you for this opportunity to 
testify. I would be happy to answer any questions.
                                 ______
                                 
    Mrs. Napolitano. Thank you for your testimony.
    Now we turn to Gary Darling, General Manager of Delta 
Diablo Sanitation District, Antioch, California.

   STATEMENT OF GARY DARLING, GENERAL MANAGER, DELTA DIABLO 
      SANITATION DISTRICT, ANTIOCH, CALIFORNIA [H.R. 2442]

    Mr. Darling. Good morning, Madame Chairwoman. My name is 
Gary Darling, and I am the General Manager of Delta Diablo 
Sanitation District in the Bay Area, Antioch, California. I 
appreciate the invitation to appear today to present testimony 
on behalf of the Bay Area Recycled Water Coalition and our 
strong support of H.R. 2442.
    At the outset, I want to extend the Coalition's deepest 
appreciation to Congressman George Miller for his vision and 
leadership in introducing this much-needed water legislation, 
which will help eight Bay Area communities increase their 
municipal water supplies.
    I also want to commend the co-sponsors, Representatives 
Eshoo, Lofgren, Tauscher, Speier, Honda, Stark, McNerney and 
Woolsey.
    I last appeared before your Subcommittee in May of 2007. At 
that time, I sought support for H.R. 1526, which was signed 
into law in May 2008. This resulted in the authorization of 
seven new recycled water projects for the Bay Area, and I want 
to commend you, Madame Chairwoman, for your leadership in that 
effort. You have always taken a personal, direct interest in 
California's water supply issues, and many recognize your 
invaluable contributions.
    I am proud to report that our coalition's objective of 
working together in collaboration rather than pursuing 
individual agency interests is successfully producing recycled 
water projects.
    As you are aware, California has serious water supply 
challenges. In February, Governor Schwarzenegger warned that 
California faces its third consecutive year of drought, and it 
must prepare for the worst, a fourth, fifth or even sixth year 
of a drought.
    As our state's water needs continue to grow, so do our 
responsibilities to secure long-term sustainable water options. 
An increasing population coupled with decreasing Sierra 
snowpack make it imperative that we act very actively, seek 
conservation and water recycling programs to withstand the 
impacts of climate change and drought.
    As you correctly point out on your website, Madame 
Chairwoman, our nation's water infrastructure is aging and 
deteriorating. Huge quantities of water that could be recycled 
are instead flushed out to the sea.
    Now the Bay Area uses a little over a million acre-feet of 
water per year, which is about one fourth of the storage 
availability in Shasta Reservoir. Half of that ends up in our 
sewer system, and that water is practically drought-proof and 
it is available for recycled water projects.
    The projects undertaken to date by the Bay Area Recycled 
Water Coalition have resulted in over 22,000 acre-feet of 
recycled water being developed, and there are more 
opportunities to develop additional water supplies, but we 
cannot do it alone.
    Federal funding and support is the strongest foundation we 
have to guarantee the successful implementation of water-
efficient technologies. As Secretary of the Interior Ken 
Salazar indicated during his visit to the Delta this past 
April, it is time to modernize, it is time to make hard 
choices, and it is time for the Federal government to reengage 
in full partnership with the 21st century water system for the 
State of California.
    The six new projects in H.R. 2442 will generate over 8,000 
acre-feet of brand-new water supply for the Bay Area. That is 
enough water to meet the needs of nearly 24,000 homes. These 
projects help answer President Obama's call to ensure the 
safety of our environment and to rebuild our economic vitality 
and investments for future generations.
    Congressman McClintock asked three specific questions that 
I will try to address very briefly. What is the Federal nexus? 
The Federal nexus is all six of these projects draw water out 
of the Delta. Three of them are specific Federal water 
contractors. There are 126 Federal contractors in the State of 
California, and the Bureau is never able to meet the full 
allocation of water for those contractors. So this is a new 
water supply. It is water that was called upon under the 
previous legislation, the Central Valley Project Improvement 
Act, called on the Bureau to identify new water sources. This 
is a new water source.
    Feasibility, all of our projects are committed to going 
through the feasibility project. One of the projects that is in 
my district was the very first in the Nation to gain complete 
acceptance through the feasibility process, and we are 
committed to that.
    Cost-effectiveness, that is a very good question. Our board 
members of all the Bay Area agencies ask exactly that.
    You had asked is there a project out there that produces 
recycled water less than $1,000 an acre-foot. Our project costs 
to deliver recycled water, the operating cost is less than $300 
an acre-foot for operating and maintenance of those facilities.
    The capital costs to put that new infrastructure in needs 
to be compared to the capital costs for any new water supply. 
So building a reservoir or desalination plant, an inter-tie 
groundwater project, if you compare the cost of new 
infrastructure for those facilities versus these type of 
facilities, it is extremely competitive.
    So, with that, we are asking for your support of H.R. 2442 
to build on an already progressive and proven partnership 
between the Federal government and local communities to expand 
the successful regional water recycling program across the San 
Francisco Bay area.
    Accordingly, the Coalition urges support for H.R. 2442. 
Thank you very much.
    [The prepared statement of Mr. Darling follows:]

Statement of Gary W. Darling, General Manager, Delta Diablo Sanitation 
           District, City of Antioch, California, on H.R.2442

    Madam Chairwoman, good morning. My name is Gary Darling and I am 
the General Manager of the Delta Diablo Sanitation District in Antioch, 
California.
    I appreciate the invitation to appear today to present testimony on 
behalf of the Bay Area Regional Water Recycling Coalition (BARWC), a 
partnership of Bay Area regional water recycling agencies, in strong 
support of H.R.2442, the ``Bay Area Regional Water Recycling Program 
Expansion Act of 2009.''
    At the outset, I want to extend the Coalition's deepest 
appreciation to Congressman George Miller for his vision and leadership 
in introducing this much-needed water legislation which will help eight 
Bay Area communities increase their municipal water supplies through 
innovative water recycle projects. I also want to commend 
Representatives Eshoo, Lofgren, Tauscher, Speier, Honda, Stark, 
McNerney, and Woolsey for being original cosponsors of the bill, which 
also affects critical projects in their Districts.
    Madam Chairwoman, as a matter of background, the Coalition has 
projects authorized under Title XVI of Public Law 102-575 as amended 
through the Bay Area Regional Water Recycling Program. This Program is 
a partnership of Federal, State and local agencies focused on feasible 
use of recycled water in the San Francisco Bay Area--home to one-sixth 
of California's population. Since 1999, when our Bay Area Water 
Recycling Master Plan was completed, our agencies have invested over 
$280 million planning, designing and building water recycling projects. 
With continued State and Federal funding assistance, including the 
President's American Recovery and Reinvestment Act, we can continue to 
successfully develop recycled water projects that provide new 
sustainable dry weather supplies to the Bay-Delta area, benefitting not 
only our region, but also the State of California and the nation.
    I last appeared before this Subcommittee in May 2007. At that time, 
as spokesperson for BARWC, I sought support for H.R.1526, which was 
signed into Public Law 110-229 in May 2008. This resulted in 
authorization of seven new projects and subsequent funding for five of 
these. I want to commend you, Madam Chairwoman, for your leadership in 
that effort. You have always taken a personal, direct interest in 
California's water supply issues, and many recognize your invaluable 
contributions.
    I'm proud to report that our Coalition's objective of working 
together in collaboration rather than pursuing individual agency 
interests is successfully producing water reuse projects focused on 
creating long-term sustainability and drought-tolerant water supplies. 
Reuse projects with regional and statewide benefits have received 
priority funding and implementation support.
    To give you a brief example, one of the projects where the 
Subcommittee's support has made a difference is the Redwood City 
Recycled Water Project, which recently completed construction of 
recycled water treatment, storage, pumping and distribution facilities, 
providing recycled water for landscape irrigation, commercial, and 
industrial uses. Through this authorized BARWC project, Redwood City is 
currently saving approximately 50 million gallons of drinking water per 
year. The City is currently seeking authorization for a new project to 
meet its goal of saving 300 million gallons of drinking water by 2010. 
This is just one project in the BARWC.
    There is still much work to be done around the important issues of 
water efficiency and conservation. We have an urgent need to address 
the issues of water stress and scarcity which plague much of the 
western region of our great nation.
    According to the Natural Resources Defense Council, water will be 
one of the major environmental issues of the 21st century. It's a 
natural resource that is already in short supply across parts of the 
United States and the world--and it will become even scarcer as our 
population grows and our climate changes.
    As you are already aware, California has serious water supply 
challenges. Currently two-thirds of the San Francisco Bay Area's water 
supply is imported. In February, Governor Schwarzenegger warned that 
``California faces its third consecutive year of drought and [it] must 
prepare for the worst--a fourth, fifth or even sixth year of drought.''
    As our State's need for water continues to grow, so too does our 
responsibility to secure long-term sustainable water options. An 
increasing population coupled with decreasing precipitation and Sierra 
snowpack make it imperative that we actively seek conservation and 
water recycling programs to withstand the effects of climate change and 
drought.
    Water recycling and reuse enables us to address these challenges. 
Research indicates recycled water could meet thirty percent of the 
projected increase in 2030 regional water demands. Water sourced from 
storage reservoirs is equivalent of up to five times more than that 
which is produced by water recycling. Using virtually drought-proof 
recycled water for irrigation, landscaping and industrial purposes 
dramatically reduces dependence on freshwater.
    However, water sourcing is only one component of the challenge we 
face. As you correctly point out on your website Madam Chairwoman, 
``Our nation's water infrastructure is aging and deteriorating. Huge 
quantities of water that could be recycled are instead flushed out to 
sea.'' Lack of adequate infrastructure remains one of our biggest 
obstacles to offering more recycled water, faster and more efficiently 
across our communities. Installation of designated ``purple'' pipeline 
remains one of the largest costs associated with recycled water.
    Our Coalition is actively working to implement viable water 
recycling programs. Projects have been undertaken by Coalition members 
resulting in over 22,000 acre-feet of recycled water being supplied to 
Bay Area communities and businesses. And there are many more 
opportunities for us to be active leaders in addressing the growing 
issues of water conservation and reuse.
    But we can't do it alone. Federal funding and support is the 
strongest foundation we have to guarantee the successful adoption and 
implementation of water-efficient technologies and practices. Federal 
support enables us to stretch limited water supplies and protect 
precious ecosystems to the benefit of citizens in a far broader 
geography than simply the communities our agencies serve.
    As Secretary of the Interior Ken Salazar indicated during his visit 
to the Delta this past April, ``It is time to modernize, it is time to 
make hard choices and it is time for the Federal government to reengage 
in full partnership with the 21st century water system for the State of 
California.'' Water recycling and reuse technology must be a large 
component of this new system.
    Today I'm asking your support for H.R.2442 which builds on the 
success of last Congress by making six additional recycled water 
projects eligible for a 25% federal cost-sharing investment. This will 
enable more cities across the Bay Area to connect with the recycled 
water network by installing new pump stations, piping and storage 
tanks. This will directly result in reduced demand from six Bay Area 
communities on scarce fresh water from the Bay-Delta.
    These six new projects will generate over 8,000 acre-feet per year 
of new sustainable water supply. That's over 2.6 billion gallons per 
year or 7.2 million gallons per day. That's enough to meet the needs of 
nearly 24,000 homes. It will reduce wastewater discharges to aquatic 
environments, and reduce the demand for limited fresh water from our 
fragile Bay-Delta system.
    Water recycling is a responsible water supply option that is less 
energy-intensive than almost all other water supply options. As there 
is a steady supply of wastewater, recycled water is virtually drought-
proof. However, without Federal partnership providing vital 25% 
capital, we risk these valuable projects not being developed. H.R.2442 
will enable us to build six new projects and fully fund two more. It 
will allow for valuable financial support in these difficult economic 
times to public agencies being challenged with decreasing revenue and 
increasing expenditures. Without these cost sharing measures, many of 
our projects risk not being completed or may fail to get started at 
all.
    These six innovative water recycling projects covered under 
H.R.2442 answer President Obama's call to ensure the safety of our 
environment and to rebuild our economic vitality and investments now 
for future generations. Because when we protect our resources, we 
protect our future.
    California's water supply continues to be precious, but limited. In 
the San Francisco Bay Area, our Coalition is actively undertaking 
unprecedented collaborative water recycling projects which answer the 
challenge of ensuring we have sufficient freshwater supplies to 
maintain a good quality of life and sustain our much needed economic 
growth--not just for today or tomorrow, but in the future as well.
    I'm here today to ask the Subcommittee to join with our Coalition 
once again to lead a new direction of water recycling initiatives which 
can directly benefit millions of Californians and the Bay-Delta 
ecosystem. These projects offer the Federal government an opportunity 
to leverage Federal funds for significant benefit. These projects help 
achieve the objectives of the Central Valley Project Improvement Act 
and the Bay Delta Conservation Plan. Investing in the work being 
undertaken by our Coalition will result in advanced technologies which 
protect the health of our communities and environment, while providing 
long-term economic benefits.
    Your support for H.R.2442 will build on an already progressive and 
proven partnership between the Federal government and local communities 
to expand the successful regional water recycling program across the 
San Francisco Bay Area.
    Accordingly, the Coalition urges support for H.R.2442. Thank you.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir, for your testimony.
    And we move on to Susan Mulligan, Manager of Engineering, 
Calleguas Municipal Water District in Thousand Oaks, 
California. Ma'am.

STATEMENT OF SUSAN MULLIGAN, MANAGER OF ENGINEERING, CALLEGUAS 
MUNICIPAL WATER DISTRICT, THOUSAND OAKS, CALIFORNIA [H.R. 2522]

    Ms. Mulligan. Chairwoman Napolitano, members of the 
Subcommittee and staff, good morning. Thank you for the 
opportunity to testify today on this very important issue.
    My name is Susan Mulligan. I am the Manager of Engineering 
for Calleguas Municipal Water District, which provides water to 
about 75 percent of the population of Ventura County or 650,000 
people about 50 miles northwest of Los Angeles, California.
    I want to thank you for holding this hearing on H.R. 2522, 
which proposes to raise the ceiling on the Federal share of the 
cost of the Calleguas Municipal Water District Recycling 
project.
    I also want to thank Congressman Elton Gallegly for 
sponsoring this important bill that will provide much-needed 
additional water supplies to our region and improve the quality 
of our local natural resources.
    Calleguas Municipal Water District is a public agency 
created in 1953 to provide southeastern Ventura County with a 
reliable supply of high-quality supplemental water. Calleguas's 
service area faces serious water supply and water quality 
challenges.
    Calleguas imports about 120,000 acre-feet per year from the 
State Water Project, as you know, a system of reservoirs, 
aqueducts and pumping facilities that convey water from the 
Sacramento Bay Delta in northern California to southern 
California.
    The ability of the State Water Project to convey reliable 
supplies has been hampered by an ongoing drought and decisions 
which have mandated that significantly more water remain in the 
Bay Delta for habitat needs. Climate change is expected to 
further reduce available supplies as precipitation decreases 
and less water is stored in snowpack. Calleguas needs to 
develop additional supplies if it is to reliably sustain its 
existing residents, businesses and agriculture.
    In addition to the water supply challenge, the quality of 
the region's local water supplies is deteriorating. The 
Calleguas service area has experienced increasing salinity 
levels since its supplies were first put to use by farmers in 
the 1880s. Much of the local groundwater is now too saline for 
use as drinking water and is harmful to the county's billion-
dollar-a-year agricultural industry, particularly for sensitive 
crops like berries and avocados.
    This project resolves both of those problems. It will 
improve water supply reliability and reduce imported water 
supplies by making it possible to put the local brackish water 
supplies to beneficial use. The project is a regional pipeline 
that will collect salty water generated by groundwater 
desalting facilities in the region, allowing them to produce 
higher-quality water for municipal, industrial and agricultural 
uses instead of using imported supplies.
    The salty water from these facilities and excess recycled 
water from other sources will be conveyed for reuse elsewhere. 
Potential uses near the coast include wetlands restoration, 
irrigation of salt-tolerant crops such as sod and coastal game 
preserves. The use of this nonpotable water source will help 
reduce groundwater pumping near the coast and imported water 
use. Any surplus supplies will be safely discharged to the 
ocean where natural salt levels are much higher.
    In addition to its water supply and water quality benefits, 
the project will also benefit the environment by improving the 
quality of flows in local creeks, reducing greenhouse gas 
emissions by using less intensive local water resources instead 
of imported sources which require substantial pumping and 
reducing dependence on imported water from the sensitive Bay 
Delta ecosystem.
    The project is being built in phases. Phase 1 is largely 
complete and includes 48-inch-diameter pipe extending nine 
miles through the Cities of Oxnard and Port Hueneme and 
unincorporated areas of Ventura County. This phase also 
includes a 30-inch-diameter ocean outfall extending 4,500 feet 
into the ocean, which is currently under construction. Phase 1 
will facilitate the reclamation and reuse of about 15,000 acre-
feet per year of water.
    Phase 1 was authorized by P.L. 104-266 and will be 
completed at an estimated cost of $83.8 million. Once complete, 
the cost of Phase 1 will cause Calleguas to reach the $20 
million cap in our Federal authorization.
    H.R. 2522 will authorize the Bureau's support for Phases 2 
and 3 of the project, which will extend pipe an additional 26 
miles through the Cities of Simi Valley, Moorpark and 
Camarillo. Completion of Phases 2 and 3 will facilitate the 
reclamation and reuse of about 43,000 acre-feet per year of 
water in addition to that facilitated by Phase 1.
    Federal support for these phases through the Bureau would 
be limited to the lesser of $40 million or 25 percent of the 
construction costs. Implementation of the project will 
facilitate recycled water use, reduce the demand on import of 
water, remove salt from the watershed, facilitate restoration 
of coastal wetlands, help sustain important agricultural 
operations and provide overall benefits to Ventura County and 
the State of California.
    Thank you again, Chairwoman Napolitano, for your time and 
consideration. I am ready to answer any questions you may have.
    [The prepared statement of Ms. Mulligan follows:]

         Statement of Susan Mulligan, Manager of Engineering, 
            Calleguas Municipal Water District, on H.R. 2522

    Chair Napolitano, members of the Subcommittee, and staff, good 
morning and thank you for the opportunity to testify today on this very 
important issue.
    My name is Susan Mulligan and I am the Manager of Engineering for 
Calleguas Municipal Water District, which provides water to about 75 
percent of the population of Ventura County, or 650,000 people, about 
50 miles northwest of Los Angeles, California.
    I want to thank you for holding this hearing on H.R. 2522, which 
proposes to raise the ceiling on the Federal share of the cost of the 
Calleguas Municipal Water District Recycling Project which funds the 
construction of a 35 mile brine line.
    I also want to thank Congressman Elton Gallegly for sponsoring this 
important bill that will provide much needed additional water supplies 
to our region and improve the quality of our natural resources.
    Calleguas Municipal Water District (Calleguas) is a public agency 
created in 1953 to provide southeastern Ventura County with a reliable 
supply of high quality supplemental water. The District serves an area 
of approximately 350 square miles that includes the cities of 
Camarillo, Moorpark, Oxnard, Port Hueneme, Thousand Oaks, and Simi 
Valley, as well as surrounding unincorporated areas. Calleguas' service 
area faces serious water supply and water quality challenges.
    Calleguas' imported water supply is dwindling. Calleguas imports 
about 120,000 acre-feet per year (AFY) from the State Water Project 
(SWP), a system of reservoirs, aqueducts, and pumping facilities that 
conveys water from the Sacramento-San Joaquin Bay-Delta in northern 
California to southern California. The ability of the SWP to convey 
reliable water supplies has been hampered by an on-going drought and 
regulatory decisions which have mandated that significantly more water 
remain in the Bay-Delta for habitat needs. Climate change is expected 
to further reduce available supplies as precipitation decreases and 
less water is stored in snowpack. Calleguas needs to develop additional 
water supplies if it is to reliably sustain its existing residents, 
businesses, and agriculture. Water conservation alone cannot provide 
sufficient savings to avert potential future water supply shortages.
    The quality of the region's local water supplies is deteriorating. 
Calleguas' service area generally overlies the Calleguas Creek 
Watershed. Calleguas Creek and many of its tributaries are listed as 
``impaired'' for salinity under the Clean Water Act. The Calleguas 
service area has experienced increasing salinity levels since its water 
supplies were first put to use by farmers in the 1880s. Contributing 
factors include naturally occurring minerals, agricultural runoff, and 
lack of surplus water to flush salts from the environment. Salinity 
levels have increased with each cycle of urban use for municipal and 
industrial purposes. Groundwater over-draft along the coastline has led 
to seawater intrusion into coastal groundwater basins, impairing the 
quality of freshwater aquifers. Much of the local groundwater is too 
saline for use as drinking water and is harmful to the County's billion 
dollar a year agricultural industry, primarily for sensitive crops like 
berries and avocados. High salinity levels in soils and surface water 
can also be detrimental to sensitive habitat. Without a means of 
removing salt, the area will continue to experience long-term increases 
in salinity levels as the salts are cycled and concentrated.
    Solutions to these supply and quality problems are being 
implemented through a collaborative process. Beginning in 1996, a broad 
coalition of local property owners, water and wastewater agencies, 
environmental groups, agricultural parties, governmental entities, and 
other private interests joined together to develop the Calleguas Creek 
Watershed Management Plan, which is centered around implementation of 
the Calleguas Municipal Water District Recycling Project (Project).
    The Project will improve water supply reliability and reduce 
dependence on imported water supplies by making it possible to put 
local brackish water supplies to beneficial use. The only way to remove 
salinity from water is through a membrane treatment process, such as 
reverse osmosis, which produces a highly saline waste concentrate which 
must then be managed and disposed. If the concentrate were to be 
discharged to wastewater or creeks, it would perpetuate the cycle of 
salt build up.
    The Project is a regional pipeline that will collect salty water 
generated by groundwater desalting facilities and excess recycled water 
and convey that water for reuse elsewhere. Any surplus supplies will be 
safely discharged to the ocean, where natural salt levels are much 
higher. The Project is being built incrementally in phases, as shown on 
the attached map. Phase 1 is largely complete, with one pipeline 
section and an ocean outfall currently under construction. Once 
complete, the cost for Phase 1 will cause Calleguas to reach the $20 
million cap in their federal authorization.
    Much of the local wastewater is treated to a high level of 
bacteriological quality but is too saline for discharge to local 
creeks. The Project will either provide a means for that wastewater to 
be demineralized for use as a high quality irrigation supply or a means 
of conveying that wastewater to potential users near the coast which 
can tolerate saline water. Potential uses include wetlands restoration, 
irrigation of salt-tolerant crops (such as sod), and coastal game 
preserves.
    The use of this non-potable water source will help reduce 
groundwater pumping and imported water use. The Project will also 
export salts out of the watershed to help achieve compliance with 
regulatory requirements for salts in local groundwater and surface 
water resources. Additionally, the Project will facilitate the 
development of new, local water supplies through treatment of brackish 
groundwater.
    The Project is vital to the region's water reliability as imported 
supplies become increasingly vulnerable to drought, climate change, 
catastrophic levee failures from flood and/or seismic events, and 
regulatory shutdowns of pumping facilities for habitat protection.
    The Project will improve surface water and ground water quality by 
moving salts out of the watershed. Salt will be removed from 
groundwater and the concentrate from the treatment process sent to the 
Project. Tertiary treated wastewater which is too saline for discharge 
to local streams will be sent to the Project during wet periods when it 
is not needed for irrigation. Ventura County has abundant sources of 
groundwater, but much of the water is too high in salts for municipal 
and agricultural use. By treating groundwater to remove salts and 
moving those salts away from surface waters and groundwater, water 
agencies in Ventura County solve a water quality problem, while 
improving local water supply reliability.
    In addition to its water supply and water quality benefits, the 
Project will also benefit the environment by improving the quality of 
flows in local creeks, reducing greenhouse gas emissions by using less 
energy-intensive local water resources instead of imported sources 
which require substantial pumping, and reducing dependence on imported 
water from the sensitive Bay-Delta ecosystem in Northern California.
    Phase 1 of the project was authorized by P.L. 104-266, Section 2, 
and will be completed at an estimated cost of $83.858 million (maximum 
Federal share of $20 million). Phase 1 includes 48 inch diameter pipe 
extending nine miles through the cities of Oxnard and Port Hueneme and 
unincorporated areas of Ventura County, and also includes a 30 inch 
diameter ocean outfall extending 4,500 feet into the ocean. Phase 1 
will facilitate the reclamation and reuse of about 15,000 acre-feet per 
year of water.
    H.R. 2522 will authorize Bureau of Reclamation support for Phases 2 
and 3 of the Project, which will extend the 18-inch through 30-inch 
diameter pipe an additional twenty-six miles through the cities of Simi 
Valley, Moorpark, and Camarillo, and unincorporated areas of Ventura 
County. Completion of Phases 2 and 3 of the Project will facilitate the 
reclamation and reuse of about 43,000 acre-feet per year of water. 
Federal support for these phases of the project through the Bureau 
would be limited to the lesser of $40 million or 25 percent of the 
construction costs.
    The Project is the only truly reliable, environmentally-sensitive, 
and cost-effective solution to the water supply and water quality 
issues in the Calleguas service area. Implementation of the Project 
will facilitate recycled water use, reduce the demand on imported 
water, remove existing salts, reduce salinity loadings, facilitate 
restoration of coastal wetlands, help sustain important agricultural 
operations in Ventura County, and provide overall benefits to Ventura 
County and the State of California.
    Calleguas Municipal Water District takes its role as water supply 
manager for the County very seriously. Calleguas, local cities and 
retail water agencies, and the local community, are all looking for 
water supply and water supply reliability solutions. Local brackish 
groundwater and recycled municipal wastewater are good solutions. H.R. 
2522 can be the tool that enables us to achieve this water supply and 
we very strongly urge your support for this legislation.
    Thank you again, Madame Chair, for your time and consideration and 
I am here ready to answer any questions you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Mrs. Napolitano. Thank you, Ms. Mulligan.
    Mr. Brookshier, City Manager of Hermiston, Oregon. Sir.

  STATEMENT OF ED BROOKSHIER, CITY MANAGER, HERMISTON, OREGON 
                          [H.R. 2741]

    Mr. Brookshier. Chairwoman Napolitano and members of the 
Subcommittee, thank you for holding this hearing and allowing 
me to testify in support of H.R. 2741.
    My name is Ed Brookshier, and I am the City Manager for the 
City of Hermiston, Oregon, a rural agricultural community of 
16,000 on the state's east side.
    I wish to publicly thank Congressman Greg Walden for 
introducing this important piece of legislation that is crucial 
to the city's reclamation and reuse of its municipal 
wastewater. This reclamation effort will provide high-quality 
recycled water for reuse as a source of irrigation supply.
    The city's recyclable water production is estimated to be 
3,600 acre-feet annually, of which 1,800 acre-feet will supply 
irrigation and 1,800 acre-feet will be discharged to the 
Umatilla River for winter use.
    This new partial source of drought-proof irrigation water 
will provide an added supply to the Bureau of Reclamation-owned 
and locally operated West Extension Irrigation District.
    The benefits of developing a high-quality source of 
recycled water followed by its use as a source of irrigation 
are numerous and extend to the West Extension Irrigation 
District, the City of Hermiston, the Confederated Tribes of the 
Umatilla Indian Reservation and the region as a whole.
    The West Extension Irrigation District benefits from this 
project by obtaining an additional source of supply which is 
both high in quality and drought-proof. Since water is 
delivered to the District, energy required for pumping is also 
reduced by approximately $13,000 a year. In addition, the 1,800 
acre-feet of irrigation water provided annually will supply 
water to 600 acres, reducing the demand on the District's 
surface water supply sources.
    Finally, this added source of partial irrigation water 
improves the District's operational flexibility.
    The City of Hermiston benefits primarily through meeting 
its upcoming national pollutant discharge elimination system 
permit. This permit requires the city to develop high-quality 
recycled water and remove its discharge from the Umatilla River 
continuously from April 1 to October 31 of each year.
    The West Extension Irrigation District provides the long-
term, multifarm discharge option that allows the city to remove 
its discharge from the river during this period of each year. 
If the city is unable to discharge to the District, it will be 
in continuous violation of current temperature standards and 
periodic violation of the ammonia standard contained within the 
city's permit.
    Secondary benefits to the city include a reduction in 
energy costs from reduced pumping, estimated to be $42,000 a 
year, and the certainty that this solution, though expensive, 
will serve for decades to come.
    The Confederated Tribes of Umatilla Indian Reservation will 
also benefit from development of high-quality recycled water 
throughout the year. These benefits include a significant 
improvement in the quality of recycled water discharged to the 
Umatilla River in winter, further protection of sensitive 
salmon habitat during summer when the recycled water is used 
for irrigation in lieu of river discharge, increased 
environmental monitoring at the recycled water treatment 
facility and the long-term nature of this solution.
    The region as a whole also benefits from treatment that 
develops high-quality recycled water. This water source is 
protective of the environment in both summer and winter and 
provides an added source of irrigation supply to agriculture, 
which is the backbone of the Hermiston economy.
    The Hermiston Water Recycling Project is estimated to be 
completed and on line in two and one half years. This effort 
will have an immediate economic impact to our local economy as 
much-needed jobs will be created through an infrastructure 
project of this size.
    More importantly, the addition of the new and reliable 
water source created by this project will have a profound long-
term impact on the farming industry in our area, which faces an 
uncertain future due to dwindling water supplies.
    Madame Chairman, while I understand and appreciate the 
strict budgetary limitations that your Committee and Congress 
as a whole are faced with, I believe the Hermiston Recycled 
Water Facility is a worthwhile Federal investment. Combined 
with the serious regulatory issues the City of Hermiston is 
faced with and the need for added drought-proof sources of 
recycled water in the Hermiston area for irrigation, it is 
essential that we complete construction of this project in a 
timely manner. Federal participation in this endeavor is 
vitally important to ensure that this becomes a reality.
    This concludes my testimony. I will be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Brookshier follows:]

 Statement of Ed Brookshier, City Manager, City of Hermiston, Oregon, 
                              on H.R. 2741

    Chairwoman Napolitano and Members of the Subcommittee, thank you 
for holding this hearing and allowing me to testify in support of H.R. 
2741. My name is Ed Brookshier and I am the City Manager for the City 
of Hermiston, Oregon. I wish to publicly thank Congressman Greg Walden 
for introducing this important piece of legislation that is crucial to 
the City's reclamation and reuse of its municipal wastewater. This 
reclamation effort will provide a high quality recycled water for reuse 
as a source of irrigation supply. The City's recycled water production 
is estimated to be 3,600 acre-feet annually, of which 1,800 Acre-feet 
will supply irrigation and 1,800 acre-feet will be discharged to the 
Umatilla River in winter. This new partial source of drought proof 
irrigation water will provide an added supply to the Bureau of 
Reclamation owned and locally operated West Extension Irrigation 
District.
    Hermiston, Oregon is a progressive, growth-oriented urban center 
with a total trade area population of 320,900. Located in a relatively 
dry section of the state of Oregon, positioned between the Cascade 
Mountains to the west and the Blue Mountains to the East, Hermiston is 
placed in a unique geographical area that offers an extended growing 
season and a variety of agricultural crops and products. The immediate 
Hermiston area has been able to diversify its economy with food 
processing, cold storage and warehousing and distribution facilities.
    The benefits of developing a high quality source of recycled water 
followed by its use as a source of irrigation are numerous and extend 
to: The West Extension Irrigation District, the City of Hermiston, The 
Confederated Tribes of the Umatilla Indian Reservation and the region 
as a whole.
    The West Extension Irrigation District benefits from this project 
by obtaining an additional source of supply, which is both high in 
quality and drought proof. Since water is delivered to the District, 
energy required for pumping is also reduced by approximately $13,000 
annually. In addition, the 1,800 acre-feet of irrigation water provided 
annually will supply water to 600 acres, reducing the demand on the 
District's surface water supply sources. Finally, this added source of 
partial irrigation water improves the District's operational 
flexibility.
    The City of Hermiston benefits primarily through meeting its 
upcoming National Pollutant Discharge Elimination System Permit 
(NPDES). This permit requires the City to both develop a high-quality 
recycled water and remove its discharge from the Umatilla River 
continuously from April 1 to October 31 of each year. The West 
Extension Irrigation District provides the long term, multi-farm 
discharge option that allows the City to remove its discharge from the 
River during this period of each year. If the City is unable to 
discharge to the District it will be in continuous violation of current 
temperature standards and periodic violation of the ammonia standard 
contained within the City's NPDES Permit. Secondary benefits to the 
City include a reduction in energy cost from reduced pumping, estimated 
to be $42,000 annually, and the certainty that this solution, though 
expensive, will provide service for decades to come.
    The Confederated Tribes of the Umatilla Indian Reservation will 
also benefit from development of high-quality recycled water throughout 
the year. These benefits include a significant improvement in the 
quality of recycled water discharged to the Umatilla River in winter; 
further protection of sensitive salmonid habitat during summer when the 
recycled water is used for irrigation in lieu of River discharge; 
increased environmental monitoring at the recycled water treatment 
facility and the long-term nature of this solution.
    The region as a whole also benefits from treatment that develops 
high-quality recycled water. This water source is protective of the 
environment in both summer and winter and provides an added source of 
irrigation supply to agriculture, which is the backbone of the 
Hermiston economy. The Hermiston Water Recycling Project is estimated 
to be completed and online in 2 1/2 years. This effort will have an 
immediate economic impact to our local economy as much needed jobs will 
be created through an infrastructure project of this size. More 
importantly, the addition of the new and reliable water source created 
by this project will have a profound long-term impact to the farming 
industry in our area which faces an uncertain future due to dwindling 
water supplies.
    Madam Chairman, while I understand and appreciate the strict 
budgetary limitations that your Committee and Congress as a whole are 
faced with, I believe that the Hermiston Recycled Water facility is a 
worthwhile federal investment due to the numerous federal objectives 
that will be advanced through this project. Combined with the serious 
regulatory issues the City of Hermiston is faced with and the need for 
added drought proof sources of recycled water in the Hermiston Area for 
irrigation, it is essential that we complete construction of this 
project in a timely manner. Federal participation in this endeavor is 
vital to ensure that this becomes a reality.
    This concludes my testimony. I will be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir.
    We move on to Mr. Scott Ruppe, General Manager at Uintah 
Water Conservancy District in Vernal, Utah.

    STATEMENT OF SCOTT RUPPE, GENERAL MANAGER, UINTAH WATER 
         CONSERVANCY DISTRICT, VERNAL, UTAH [H.R. 2950]

    Mr. Ruppe. Thank you very much, Madame Chairwoman and 
members of the Subcommittee. I am grateful to be able to appear 
here today and testify in support of H.R. 2950. I want to thank 
Representative Jim Matheson for introducing this bill on behalf 
of the Uintah Water Conservancy District.
    The District was formed in 1956 for the purpose of 
conserving, developing and stabilizing supplies of water for 
domestic, irrigation, power, manufacturing, municipal and other 
beneficial uses and for the purpose of constructing drainage 
works.
    The District operates and maintains the Vernal and Jensen 
units of the Central Utah Project, which was authorized by 
Congress as part of the Colorado River Storage Project Act of 
1956. The District encompasses almost all of Uintah County, 
Utah, in eastern Utah adjacent to the Colorado border.
    At the time of its construction in 1984 to 1987, the Jensen 
unit was to provide 18,000 acre-feet of municipal and 
industrial water to the residents of Uintah County. Six 
thousand acre-feet were to be developed with the construction 
of the Red Fleet Dam, which was built, and another 12,000 acre-
feet were to be developed at a later date with the construction 
of the Burns Bench Pump station on the Green River near Jensen, 
Utah.
    Due to the economic bust in the mid- to late eighties, the 
demand for water that had been foreseen was no longer there. 
Also in 1989, an amendatory contract was signed with the Bureau 
of Reclamation reducing the amount of water subscribed to by 
water providers to 2,000 acre-feet.
    The Bureau desires to do a final cost allocation in the 
Jensen unit. If that allocation were done without developing 
the remaining 12,000 acre-feet, the cost per acre-foot would be 
approximately two and a half times as much as if the 12,000 
acre-feet were developed. At this time, not all of the 6,000 
acre-feet of water in Red Fleet Dam have been subscribed to 
even though the demand for that water has increased recently.
    A block notice was issued to the District from the Bureau 
of Reclamation for the 2,000 acre-feet, and the District 
contracted with municipalities, water improvement districts and 
a private company for all of that water.
    Since that time, the additional 4,000 acre-feet of 
municipal and industrial water has remained unsubscribed. The 
Bureau of Reclamation took 700 acre-feet to increase the 
conservation pool in the reservoir, which leaves 3,300 acre-
feet of available water. The Burns Bench Pump station will not 
be constructed until all of the municipal and industrial water 
available in Red Fleet is subscribed to.
    In the past year, due in large part to the projected 
growth, the District had received requests for all of the 
remaining municipal and industrial water available in Red 
Fleet. Five entities, Vernal City and Ashley Valley Water and 
Sewer, have requested 1,000 acre-feet each; Maeser Water has 
requested 675 acre-feet; Jensen Water has requested 175 acre-
feet; Uintah County in conjunction with Jensen Water has 
requested 150 acre-feet, and a private company has requested 
300 acre-feet.
    The price of the water was set by the amendatory contract. 
The amount per acre-foot was based on the cost of the Jensen 
unit, including an estimated cost of the pump station divided 
by the 18,000 acre-feet. The resulting cost is $5,555.21 per 
acre-foot and is payable by dividing that amount by the number 
of years remaining until 2037, with the last payment being made 
in 2037. Water purchased in 2006 would be paid for at a rate of 
$179.07 per acre-foot per year for 31 years. In 2009, it would 
be $198.40 for 28 years.
    The District approached the Bureau about the possibility of 
discounting those payments at either the 3.222 rate used by the 
Bureau to calculate the repayment or the Federal funds rate at 
the time of the discounting. According to the Bureau, the 
amendatory contract does not allow for prepayment.
    The District then determined that it would ask legislation 
similar to that used by Central Utah Water Conservancy District 
that has allowed for prepayment of the repayment contracts for 
the Bonneville unit. Prepayment of our contract with the Bureau 
will substantially reduce the cost to the District and will 
also produce substantial payment to the Federal Treasury, which 
we estimate between $4 and $5 million.
    H.R. 2950 directs the Secretary of the Interior to allow 
for prepayment of the specified contract between the United 
States and the Uintah Water Conservancy District, providing for 
prepayment, repayment of municipal and industrial water 
delivery facilities under terms and conditions similar to those 
used in the implementing provisions of the Central Utah Project 
Completion Act. It also provides that the prepayment may be 
provided in several installments to reflect a substantial 
completion of the delivery of facilities and shall be adjusted 
to conform to a final cost allocation, and it may not be 
adjusted on the basis of the type of prepayment.
    The Administration has suggested that the bill be amended 
to clarify that the District intends to pay the entire present 
value of future cash flows. That was always our intention, and 
we agree to work with the Administration to develop the 
language that will clarify that intent.
    Again, I thank you for the opportunity to testify today. I 
will be happy to respond to any questions.
    [The prepared statement of Mr. Ruppe follows:]

  Statement of Scott Ruppe, General Manager, Uintah Water Conservancy 
                   District, In Support of H.R. 2950

    Madame Chairwoman and members of the Subcommittee, I am grateful to 
be able to appear here today and testify in support of H.R. 2950. I 
want to thank Rep. Jim Matheson for introducing this bill on behalf of 
the Uintah Water Conservancy District (District). The District was 
formed in 1956 for the purpose of ``conserving, developing and 
stabilizing supplies of water for domestic, irrigation, power, 
manufacturing, municipal and other beneficial uses, and for the purpose 
of constructing drainage works.'' The District operates and maintains 
the Vernal and Jensen Units of the Central Utah Project, which was 
authorized by Congress as part of the Colorado River Storage Project 
Act of 1956. The District encompasses almost all of Uintah County, Utah 
in eastern Utah adjacent to the border of Colorado.
    At the time of its construction (1984-1987), the Jensen Unit was to 
provide 18,000 Acre Feet (AF) of M&I water to the residents of Uintah 
County. Six thousand AF were to be developed with the construction of 
Red Fleet dam (which was built) and another 12,000 AF were to be 
developed at a later date with the construction of the Burns Bench Pump 
station on the Green River in Jensen, Utah. Due to the economic bust in 
the mid to late 80's, the demand for water that had been foreseen was 
no longer there. Also, in 1989 an amendatory contract was signed with 
the Bureau of Reclamation (Bureau) reducing the amount of water 
subscribed to by water providers to 2,000 AF.
    The Bureau desires to do a final cost allocation on the Jensen 
Unit. If that allocation were done without developing the remaining 
12,000 AF, the cost per AF would be approximately 2.5 times as much as 
if the 12,000 AF were developed. At this time, not all of the 6,000 AF 
of water in Red Fleet Dam has been subscribed to even though the demand 
for that water has increased recently. A Block Notice was issued to the 
District from the Bureau of Reclamation for the 2,000 AF and the 
District contracted with the municipalities, water improvement 
districts, and a private company for all of that water. Since that time 
the additional 4,000 AF of M&I water has remained unsubscribed. The 
Bureau of Reclamation took 700 AF to increase the conservation pool in 
the reservoir which leaves 3,300 AF of available water. The Burns Bench 
pump station will not be constructed until all of the M&I water 
available in Red Fleet is subscribed to. In the past year, due in large 
part to the projected growth, the District has received requests for 
all of the remaining M&I water available in Red Fleet. Vernal City and 
Ashley Valley Water and Sewer have each requested 1,000 AF, Maeser 
Water has requested 675 AF, Jensen Water has requested 175 AF, Uintah 
County in conjunction with Jensen Water has requested 150 AF, and a 
private company has requested 300 AF.
    The price of the water was set by the amendatory contract. The 
amount per AF was based on the cost of the Jensen Unit (including an 
estimated cost of the pump station) divided by 18,000 AF. The resulting 
cost is $5,555.21 per AF and is payable by dividing that amount by the 
number of years remaining until 2037 with the last payment being made 
in 2037. Water purchased in 2006 would be paid for at a rate of $179.07 
per AF per year for 31 years. The District approached the Bureau about 
the possibility of discounting those payments at either the 3.222% rate 
used by the Bureau to calculate the repayment or the federal funds rate 
at the time of the discounting. According to the Bureau, the amendatory 
contract does not allow for prepayment. The District then determined 
that it would seek legislation similar to that used by the Central Utah 
Water Conservancy District that has allowed for prepayment of the 
repayment contracts for the Bonneville Unit. Prepayment of our contract 
with the Bureau will substantially reduce the cost of water to the 
District. H.R. 2950 will also produce a substantial payment to the 
federal treasury, which we estimate to be between $4-5 million.
    H.R. 2950 directs the Secretary of the Interior to allow for 
prepayment of the specified contract between the United States and the 
Uintah Water Conservancy District providing for repayment of municipal 
and industrial water delivery facilities under terms and conditions 
similar to those used in implementing provisions of the Central Utah 
Project Completion Act. It also provides that the prepayment: (1) may 
be provided in several installments to reflect substantial completion 
of the delivery facilities being prepaid; (2) shall be adjusted to 
conform to a final cost allocation; and (3) may not be adjusted on the 
basis of the type of prepayment financing utilized by the District.
    Again I want to thank you for the opportunity to testify today and 
will be happy to respond to any questions.
                                 ______
                                 
    Mrs. Napolitano. Thank you for your testimony. And now we 
will begin with some of the questioning.
    Before I do that, I will give two minutes to Mr. Baca for 
an opening statement.

 STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Baca. Well, thank you very much, Madame Chair, and 
thank you for your leadership. And I want to welcome my new 
Ranking Member, Tom McClintock, that I happened to work with at 
the State Legislature in California. Congratulations on your 
new appointment. I hear it is quite fast you got here. I don't 
know how you did that, Tom, but that was quite fast. So 
congratulations. I don't know if they are punishing you. I 
think you are doing it for the right reasons, especially as it 
pertains to California and the crisis that we have and as we 
deal with our nation.
    Let me begin by saying that the world's water crisis is one 
of the largest public health issues of our time, and I state 
that it is one of our time. Nearly 1.1 million people roughly 
or 20 percent of the world population lack access to safe 
drinking water.
    Ensuring clean and safe drinking water is a top priority. 
Clean drinking water is the right that all families deserve. It 
impacts not only the family, the children and all of us as we 
begin to grow, and especially as we look at many of the women 
that are having babies as we look at perchlorate, which is one 
of the areas that has affected the Illinois Park quite a lot. 
So clean water becomes very important. The bill we are 
discussing today will help shed light on various water issues 
in our nation.
    Today we will hear about of course the water issues found 
in California, Arizona, Utah, Oregon and Michigan. By 
addressing Title XVI authorization and providing directions to 
the Bureau of Reclamation and by helping settle the tribal 
water rights, we will bring us one step closer to finding a 
solution to many of our water problems. And I hope that we 
continue to work together.
    I commend Congresswoman Grace Napolitano, our Chair, for 
her leadership on water, and I look forward to working with her 
and our new Ranking Member, Tom McClintock, on an important 
issue impacting all of us. Thank you.
    Mrs. Napolitano. Thank you, Mr. Baca, for keeping within 
time for your comments.
    Mr. Costa, two minutes.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Madame Chairwoman. Again, I 
want to commend you for putting this hearing together. It is an 
important issue. I too as Congressman Baca served with 
Congressman McClintock, and welcome. We have a whole California 
gathering here it seems.
    But the issue at hand really is how we balance the needs of 
our current water needs not only in the Southwest but 
throughout the country and its long-term applications to 
conjunctive use programs that balance our groundwater usage 
with our surface water supplies and how we use all the water 
management tools in our water toolbox to get there.
    I am particularly interested, Madame Chairwoman, in terms 
of the balance of our needs of our various communities because 
larger communities, larger service agencies, have more 
resources to deal with cleanup and recycling of groundwater as 
we apply the conjunctive use efforts. Smaller communities, 
smaller service areas, don't have the resources to meet various 
standards, and how we provide cost-effective ways in terms of 
health and safety is always a concern.
    I think partnerships are very critical. We have had some 
very important partnerships in California with both urban and 
agricultural water agencies and how they share resources for 
long-term water usage.
    So I look forward to listening to the hearing, and I thank 
you again for putting this effort together.
    Mrs. Napolitano. Thank you, Mr. Costa. And I will start the 
round. It looks like we may have a vote, so we will have to cut 
it short.
    To Mr. Alvarez, Mr. Hansen, Mr. Darling, Ms. Mulligan, and 
Mr. Brookshier, has a feasibility study been completed for your 
projects--and I would like yes or no answers, and we won't go 
into detail--including compliance with all state, Federal, 
environmental requirements? Yes or no, please. If no, do you 
expect for your feasibility study to be completed and 
construction started?
    Third question, are you working with Reclamation to 
complete your projects? Yes or no. And have you experienced 
obstacles? Mr. Alvarez.
    Mr. Alvarez. Madame Chairwoman, no, we have not completed 
all of our feasibility and planning work. We have made 
significant efforts in that area.
    And I am sorry, your second question?
    Mrs. Napolitano. Do you expect your feasibility study to be 
completed and construction started?
    Mr. Alvarez. Our planning horizon is for four years to 
complete all of the environmental final design and 
construction.
    Mrs. Napolitano. And you are working with Reclamation?
    Mr. Alvarez. We are working with the Bureau of Reclamation.
    Mrs. Napolitano. Mr. Hansen?
    Mr. Hansen. Yes, we have completed all requirements, and 
the project is ready to go, it is shovel-ready, ready to 
implement.
    Mrs. Napolitano. And you are working with Reclamation?
    Mr. Hansen. Yes.
    Mrs. Napolitano. Mr. Darling.
    Mr. Darling. All six new projects have the Title XVI 
feasibility determination process--it is in process. They are 
not complete.
    Mrs. Napolitano. When do you expect completion?
    Mr. Darling. They will be complete as soon as we have 
enough staffing availability with the Bureau Staff. We 
literally only have one person for the mid-Pacific Region that 
works full-time on this, so it is a matter of staffing 
actually. That impacts the timing. But I do like to point out 
that the bill is to authorize for the planning, design and 
construction. So this is for the planning. That is why we need 
this authorization, in order to tell the Bureau to help plan 
this project.
    Mrs. Napolitano. OK.
    Ms. Mulligan. Our feasibility is complete. It was complete 
before we began construction on Phase 1. And we are working 
with Reclamation to complete the project. The feasibility is 
already complete.
    Mrs. Napolitano. OK. Was the original authorizing bill for 
Phase 1 including expansion?
    Ms. Mulligan. It was for Phase 1 and included expansion to 
Phase 2 and 3, yes.
    Mrs. Napolitano. Thank you. Mr. Brookshier.
    Mr. Brookshier. All of our feasibility is complete. We have 
one environmental review that we are still working on. That is 
with the National Marine Fisheries Service. We are in 
consultation with the Bureau.
    Mrs. Napolitano. Thank you. Mr. McClintock.
    Mr. McClintock. Thank you, Madame Chairwoman. The first 
question I would have, the first observation I would make is we 
have five districts here that want to get into a relationship 
with the Federal government. We have one here that has been in 
such a relationship and wants to get out because of all the 
regulatory burdens and costs that are associated. So you might 
all want to gather outside the hearing room here and kind of 
exchange notes because maybe there is somebody among you who is 
sadder but wiser for their relationship with the Federal 
government. That is just an observation.
    The question I would like to pose to each of you along the 
lines of cost-effectiveness is simply this. What is the 
estimated cost per acre-foot of water under the recycling 
project that you are proposing, and what is the overall cost to 
your district of water per acre-foot?
    Mr. Alvarez. Congressman McClintock, the estimated cost for 
our facility would basically be capital costs, about $7,000 an 
acre-foot.
    Mr. McClintock. How much?
    Mr. Alvarez. Seven thousand dollars an acre-foot.
    Mr. McClintock. Seven thousand dollars per acre-foot.
    Mr. Alvarez. Yes. And if the City of Downey tried to 
acquire some additional water rights earlier this year that 
became available in our Central Basin, those water rights went 
for $7,000 an acre-foot. So the capital costs of providing this 
would be equivalent to basically what the market price for 
water in our region is today.
    Mr. McClintock. And what is the market price for water in 
your region today?
    Mr. Alvarez. Seven thousand dollars an acre-foot.
    Mr. McClintock. Is the market price?
    Mr. Alvarez. That was the price of the most recent sale of 
water in the Central Basin of which the City of Downey 
participated in. It went through a bid process, and we were not 
the high bidder, although we were close to that $7,000 an acre-
foot.
    Mr. McClintock. And that is the overall cost of water to 
your agency?
    Mr. Alvarez. That is the cost of acquiring the water 
rights. In addition to that----
    Mr. McClintock. No, no, what is the overall cost per acre-
foot to your agency of your water supply? I am just trying to 
get a sense of whether rates are going to be going up.
    Mr. Alvarez. To answer your question, am I looking at what 
am I going to need to pay for water to meet my water demands, 
and that would be $7,000 an acre-foot plus the cost of 
production, treatment and distribution.
    Mr. McClintock. What is the cost, overall cost, of water 
for your district per acre-foot?
    Mr. Alvarez. Today?
    Mr. McClintock. Today.
    Mr. Alvarez. If we discount the cost of the water we 
already have access to----
    Mr. McClintock. No, no, no, I am talking about the water 
you currently have access to. What are you paying for it? What 
is the average cost of water to your district per acre-foot?
    Mr. Alvarez. Our overall treatment production cost is about 
$350 an acre-foot.
    Mr. McClintock. Three hundred fifty dollars per acre-foot, 
OK. Magna Water District?
    Mr. Hansen. Our cost per acre-foot for our water is just 
under $400 an acre-foot. That is the treated cost for drinking 
water.
    Mr. McClintock. What is the purchase cost? What do you buy 
it for?
    Mr. Hansen. That is. We have purchased all of our water 
rights. We have our own water rights. We have some surface 
water.
    Mr. McClintock. And what is the cost of water for this 
particular recycling project?
    Mr. Hansen. Our estimated cost to recycle this water 
through the new technology we have is a little over $100 an 
acre-foot.
    Mr. McClintock. So it is going to be $100 per acre-foot for 
the recycling water as opposed to $400 for your overall costs?
    Mr. Hansen. For drinking water, yes.
    Mr. McClintock. OK. Now is that $100 added to the cost or 
$100 for the recycled water?
    Mr. Hansen. They are two separate systems. They are both a 
metered, three-tiered water system with rates. And secondary 
reuse water is a little over $100 an acre-foot.
    Mr. McClintock. OK. How about Diablo?
    Mr. Darling. Wet water, wet-year water supplies in the Bay 
Area range anywhere from $200 to say $600 an acre-foot with 
infrastructure that was built in the 1920s and 1930s. Our 
recycled water projects range anywhere from $300, as I 
mentioned earlier, up to over $1,000 an acre-foot.
    But I think an important distinction is wet-year versus 
dry-year water supply, if dry-year was even available, during 
this drought period, one of the water districts in the Bay Area 
imposed surcharges on its customers for $14,000 an acre-foot. 
So the cost of a dry-year water supply is astronomical. This 
recycled water is an on-demand water supply available 365 days 
a year at a very competitive price.
    Mr. McClintock. Right. When something is scarce, it becomes 
expensive. When it is plentiful, it is cheap. That is true of 
anything, and that gets back to that central issue of 
abundance. The more abundant the water supply, the cheaper it 
will be. And it has gotten a lot more expensive since we 
dropped abundance as the principal object of our public policy. 
Calleguas.
    Ms. Mulligan. Our imported water supply is purchased from 
Metropolitan Water District of Southern California. Their price 
right now is just over $900 an acre-foot to us. And we are 
currently in allocations from them so that if a 15 percent 
reduction isn't achieved, they have penalties that go as much 
as two times to four times that for water again to scarcity.
    Mr. McClintock. And what is the overall cost of water right 
now to Calleguas?
    Ms. Mulligan. Calleguas, $900 per acre-foot, just over 
$900. And then under these allocations, there are severe 
penalties, two to four times that amount for the water.
    Mr. McClintock. And under this project?
    Ms. Mulligan. Under this project, which is largely capital, 
is the costs are very little O&M costs because it is a 
pipeline, is if you amortize the capital over 30 years at about 
5 percent, you get $1,500 an acre-foot for the water. But with 
the rising price of imported water, we think that it will catch 
up within the next decade so that it equals the cost of 
Metropolitan Water.
    Mr. McClintock. And then finally Hermiston.
    Mr. Brookshier. Our costs, our current operating costs 
would work out to about $7,000 per acre-foot. If I am 
calculating this correctly, it would appear that the project 
costs that we are looking for here would be in the neighborhood 
of $4,000 per acre foot.
    Mr. McClintock. See, now again $7,000, I think that amount 
seems astronomical.
    Mr. Brookshier. We are a municipal system, and that is what 
it costs to operate.
    Mr. McClintock. That is the overall cost of----
    Mr. Brookshier. Overall cost to operate based on our 
current use.
    Mr. McClintock. OK, thank you. Just a moment.
    Yes, let me just ask one other question. One of the 
principal propositions that has been put forward in support of 
these projects is that it reduces--this would be what I have to 
tell rate peers in Alturas. You don't get any benefit from 
these projects, but you are going to be called to pay for them 
through your taxes. But the argument that is being made is, 
well, this does reduce the draw from many Federal water 
systems, including the Delta system, for example.
    Would you accept a proviso in this legislation that 
requires the District to reduce its draw on the Federal system 
for every gallon that is generated by these Federally financed 
recycling projects?
    Ms. Mulligan. Yes, we would.
    Mr. McClintock. You would actually agree to reduce your 
draw on the system on a gallon-per-gallon basis?
    Ms. Mulligan. Yes. Growth would need to be calculated into 
that to the extent there were growth. But since all of our 
water comes from the imported supply, it would be easy to 
document that this acre-foot-for-acre-foot reduces the amount 
we would take from northern California.
    Mr. McClintock. OK. Other districts?
    Mr. Darling. As I mentioned earlier, all of our projects 
directly draw out of the Delta, and the Delta is in a process, 
as you are aware, between Judge Wagner's decisions and the 
Endangered Species Act of basically shutting down. So these 
projects are in lieu of--this already is taking place that the 
amount of water available from the Delta is decreasing by 
itself. So these are replacement supplies. These are insurance 
policies.
    So, if there were a certainty that the water was there to 
begin with, that might be something that would be acceptable. 
But there is no certainty in terms of Delta water supplies.
    Mrs. Napolitano. Thank you. Very quickly, we need to move 
on.
    Mr. Alvarez. We would and I would like to qualify that to 
the extent that right now there are agencies that would be 
participating in this that are importing water, that would be 
easy to document. There are other agencies that would not be 
looking for an alternative water supply, which would then put a 
stress on the imported water system. And that would be a more 
difficult one to document because it would be an indirect 
transfer.
    Mrs. Napolitano. Anybody else?
    Mr. Hansen. I think Magna is unique where we have a 
pristine water supply. We are in the second driest state in the 
Union, and we have developed a technology that I believe may be 
utilized throughout the country. So I do think it is a wise 
investment.
    Mrs. Napolitano. Thank you, sir. Mr. Baca.
    Mr. Baca. Thank you, Madame Chair.
    Mr. Darling, H.R. 2442, regarding your response to the 
Federal nexus, would you go a step further and explain how it 
is not only a Federal issue but a global issue?
    Mr. Darling. Well, thank you, I absolutely will. I think 
long-term sustainability is extremely important in water and 
power issues and water particularly in the State of California 
and globally. The ocean has risen seven inches in the past 100 
years at the Golden Gate Bridge. All models show that it is not 
going to decrease in terms of the amount that the ocean's level 
is increasing. It is actually accelerating.
    And so the climate change issues for the Bay Area, the 
declining snowpack, all water resource options need to be on 
the table. All need to be developed. The writing is very clear 
on the wall that this investment is necessary on all fronts.
    Mr. Baca. Thank you. And then saving water or the 7.2 
million gallons per day, will it go a long way? Is that 
correct?
    Mr. Darling. I am sorry?
    Mr. Baca. Saving water or 7.2 million gallons per day, will 
that go a long way? Is that correct? Just a yes or no answer.
    Mr. Darling. Yes, that will go a long ways toward helping 
the Bay Area water supply portfolio.
    Mr. Baca. Thank you. Mr. Hansen, you responded to the costs 
associated with the project, but do you have a choice?
    Mr. Hansen. No.
    Mr. Baca. Perchlorate is not going away, is that correct?
    Mr. Hansen. That is correct.
    Mr. Baca. So we need to invest and clean that because we 
need to have good quality of water for every individual 
impacted, especially when we look at women that are really 
affected by that water itself if it is not clean because of the 
thyroids and children and others that drink that water. Is that 
correct?
    Mr. Hansen. That is correct.
    Mr. Baca. Thank you. Mr. Hernandez, what will happen in the 
long run if H.R. 1739 does not pass? That is Question No. 1. 
And what if the project is not funded? How will your community 
prepare for a shortage in water supply and water reliability?
    Mr. Alvarez. If H.R. 1738 does not move forward, the City 
of Downey and participating cities will be faced with the issue 
of how we do meet our existing and long-term water demand 
needs. That need is not going to go away. It is an existing 
need today, and we are living with a very limited available 
water supply.
    If we do not get funding here, we will probably continue to 
develop this project and look for alternative funding sources. 
But without additional funding, it makes the viability of this 
project much more difficult.
    Mr. Baca. Right. And definitely, will it have a greater 
impact if we don't, based on California's deficit of 26-point-
some million dollars that we have right now and based on the 
agreement that they have come up with and not the additional 
dollars that would be available, so it would have a great 
impact in terms of the lack of ability of the state to provide 
any kind of funding if the Federal does not provide so.
    Mr. Alvarez. Absolutely. And if you look at the California 
budget, in at least at our understanding today, our ability to 
meet our existing obligations are going to be much more 
difficult at the municipal level because of the requirements to 
balance the state budget.
    Mr. Baca. Right. And especially as I looked at it as a 
reduction even on the educational perspective of it where a lot 
of our students are impacted by the quality of water that they 
have too as well in each one of our educational institutions. 
Isn't that correct?
    Mr. Alvarez. Yes.
    Mr. Baca. Thank you. I yield back the balance of my time.
    Mrs. Napolitano. Thank you. Mr. Walden.
    Mr. Walden. Madame Chair, I have no questions at this time. 
I appreciate your courtesy.
    Mrs. Napolitano. Mr. Chaffetz?
    Mr. Chaffetz. Thank you, Madame Chairwoman, I appreciate 
it.
    I appreciate the bipartisan support for the Magna project 
for Mr. Matheson and Mr. Bishop. Just two brief questions in 
the essence of time.
    There is a Federal nexus, a Federal component to this that 
I think this makes worthy of Federal investment of taxpayer 
dollars. Can you spend just a moment talking about why this 
Federal component is needed and justified given that that is 
partly what created the problem?
    Mr. Hansen. I believe the Safe Drinking Water Act which 
required us to remove the arsenic out of the water was an 
unfunded mandate. I also believe that the rocket industry and 
the Department of Defense and the issue of contaminating our 
water supply, our sole water supply, I believe that along with 
the technology that has been developed by the District warrants 
the support of the Federal government.
    Mr. Chaffetz. And just review again for us the investment 
that has already been made by the local state community there.
    Mr. Hansen. The local rate-payers have already invested $36 
million in this project and this technology.
    Mr. Chaffetz. I just wanted to note for the record--and 
thank you, Mr. Hansen, for being here and for that--I just want 
to note for the record the significant investment that has been 
done at the local level, and with that, I yield back the 
balance of my time.
    Mrs. Napolitano. Thank you so very much.
    Mr. Alvarez, we have had a discussion on this in my office 
in regard to the program that water replenishment district and 
the sanitation district and that whole basin are working on. 
You indicated to me there are two basins.
    In working with the cities that are part of your bill, are 
you looking at working with the other entities? I understand 
there is going to be litigation or is litigation that might 
delay or put in question moving forward on something. So would 
you clarify that, please?
    Mr. Alvarez. We have worked with a number of agencies, and 
we will be working with the water replenishment district to 
work on both projects.
    Just for further clarification, the water replenishment 
district is a district that is there to replenish the 
groundwater basin, which is the difference between the 
sustainable yield of the basin and the overpumping that has 
been allowed by a court-adjudicated judgment that has been 
issued in the basin.
    Their project basically will create net new water to make 
up for that replenishment. That is net new water above and 
beyond what the basin already yields; that is just basically to 
make up the difference between the sustainable yield of the 
basin and the adjudicated pumping rights in the basin.
    Our project will be net new water that will go beyond the 
yield of the basin. So they are complementary projects. I think 
that we can work something out. I think that the litigation 
that has been raised has been an issue with respect to the 
adjudications. There are parties, including the water 
replenishment district, in court to amend those judgments.
    Mrs. Napolitano. Thank you.
    Mr. Rupee, does repaying the debt the Conservancy District 
owed the Federal government imply that you would not need to 
comply with the environmental laws and regulations that you 
must comply with while in repayment?
    Mr. Ruppe. No, no, Madame Chairman, we would still need to 
comply with all of those regulations.
    Mrs. Napolitano. Great.
    Ms. Mulligan, how many more phases of the project? You 
answered that there is a second phase. How many more phases do 
you expect before you complete or do you think you need before 
you complete? And what would the Federal government need to 
provide to fund those additional phases?
    Ms. Mulligan. The only phases which we envision are what we 
call Phases 2 and 3. We have built about eight miles, soon to 
be about 10 miles, of the 35-mile pipe, and it was the most 
expensive. It is the largest diameter which is near the ocean 
which also includes the ocean outfall.
    These Phases 2 and 3 extend the pipe the full 35 miles into 
the watershed. The estimated cost of that is an additional $120 
million, which is why the requested authorization is the $40 
million, which would be 25 percent of that amount.
    Mrs. Napolitano. And that is just for the brine.
    Ms. Mulligan. That is just for the pipeline. The desalters 
are being funded locally.
    Mrs. Napolitano. OK. Do you have any other questions? Mr. 
Walden, do you have any questions? No?
    Well, I believe that wraps up most of the questions that we 
had. We thank all of the witnesses for your insightful 
testimony and for being open to this Committee, the 
Subcommittee, in regard to the issues that are before us. And 
we look forward to continuing working with you. Thank you very 
much. You are dismissed.
    Ms. Mulligan. Thank you.
    Mrs. Napolitano. I would like to call up the last panel, 
Honorable Ronnie Lupe, Chairman of the White Mountain Apache 
Tribe from White River, Arizona, and Mr. John Sullivan, 
Associate General Manager of the Salt River Project from 
Phoenix, Arizona. If you would take your seats, we will begin 
the next panel.
    Commissioner Connor, would you like to join us at the 
table? Where are you, Commissioner? OK.
    Chairman Lupe, you may start your testimony, sir. If you 
will put your mic on, and we will move right along. Thank you 
very much for being so patient.
    And thank you, Commissioner, for staying with us.

          STATEMENT OF RONNIE LUPE, TRIBAL CHAIRMAN, 
        WHITE MOUNTAIN APACHE TRIBE, WHITERIVER, ARIZONA

    Mr. Lupe. Thank you for the opportunity to testify before 
your honorable Subcommittee. We are here to ask the 
Subcommittee to support the quantification agreement that we 
have signed with the Phoenix Valley Cities, Salt River Project, 
State of Arizona, Central Arizona Water Conservation District 
and other downstream parties representing millions of people.
    We are at the headwaters of the Salt River system and that 
we and everyone else depends upon to live. Years ago we 
traveled to Washington, D.C. and asked for funding to build a 
safe and reliable drinking water system for our people. 
Although we have hundreds of miles of streams on our land, we 
do not have enough drinking water for our people. The reason is 
Mother Nature.
    We are 100 percent dependent upon a well field that was 
built in 1999. Over 14,000 people on our reservation depend 
upon it, almost our entire population. The well field is 
failing. Production is half of what it was in 1999. We have 
shortages. There is no recharge. There is natural arsenic in 
the water. We have to blend it to meet EPA standards. Water 
must be hauled by hand in one community and piped to another 
one 30 miles from the well field.
    Drilling more wells will only place more straws in a 
failing system. It does not receive water from nature anywhere 
near the amount we are removing. Everyone agrees that our needs 
can only be met by storage of surface water from our streams 
and rivers.
    When we came to D.C. to seek funding to build a drinking 
water reservoir project, we were politely told that it was 
impossible unless we agreed to quantify and settle our water 
rights. We took heed of this advice and asked the Secretary of 
the Interior to appoint a Federal negotiation team to help us 
quantify and settle our reserve water rights. We prepared a 
water budget based on our historic, present and future water 
use needs.
    Intense and hard negotiation followed with the Valley 
Cities, the Salt River Project and other state parties. This 
year all of the parties signed a quantification agreement that 
would settle our reserve water rights claims and fund 
facilities needed to put part of our water use in accord with 
all national environmental laws and regulations. We would 
receive funding for our drinking water storage dam, treatment 
plant and pipeline to serve our communities. The drinking water 
system would be held in trust by the United States.
    An OM&R Trust Fund in the amount of $50 million is included 
in the H.R. 1065 to fund OM&R costs after the drinking water 
system is in full operation, estimated to be about $2.1 million 
annually. H.R. 1065 authorizes funding for other wet water 
economic development for parts of our water budget that will 
not only benefit our tribe but our entire White Mountain 
region. Specifically I am referring to the funding 
authorization in 16[c]-[f] of H.R. 1065.
    Finally we have agreed to lease our entire 25,000 acre-feet 
cap water allocation received from the Secretary of the 
Interior to nine Valley Cities in the Phoenix metropolitan area 
and CAWCD for the next 100 years to make them whole for the 
water we use upstream.
    We respectfully ask this Subcommittee's help to make our 
drinking water reservoir a reality for our people and to 
protect the water rights we have agreed upon in the 
quantification agreement. Thank you.
    [The prepared statement of Mr. Lupe follows:]

       Statement of The Honorable Ronnie Lupe, Tribal Chairman, 
  White Mountain Apache Tribe, Fort Apache Indian Reservation, Arizona

    To: The Honorable Grace F. Napolitano, Chairwoman, and The 
Honorable Tom McClintock, Ranking Member, and members of the 
Subcommittee:
    Thank you for the opportunity to testify in support of the White 
Mountain Apache Tribe Water Rights Quantification Act of 2009, H.R. 
1065, (``Quantification Act''). My name is Ronnie Lupe and I am the 
Tribal Chairman of the White Mountain Apache Tribe. We number about 
15,000 people. We live on the Fort Apache Indian Reservation 
(``Reservation''), established November 9, 1871, on 1.66 million acres 
of aboriginal lands which we have occupied since time immemorial. Our 
Reservation is located about 200 miles Northeast of Phoenix in the 
White Mountain Region of East Central Arizona. (See attached map).
Origin of Tribe's Vested Property Rights to Water
    The White Mountain Apache Tribe has retained actual, exclusive, use 
and occupancy of its aboriginal lands within Reservation boundaries 
designated by the Executive Orders dated November 9, 1871 and December 
14, 1872, without exception, reservation, or limitation since time 
immemorial. The Tribe's vested property rights, which include its 
aboriginal and other federal reserved rights to the use of water, often 
referred to as Winters Doctrine Water Rights, that underlies, borders 
and traverses its lands, have never been extinguished by the United 
States and are prior and paramount to all other rights to the use of 
water in the Gila River drainage, of which the Salt River is a major 
source.
Headwaters of Salt River System on Tribal Land
    Except for a small portion of the Reservation that drains to the 
Little Colorado River Basin, virtually the entire Reservation drains to 
the Salt River. See attached location map referenced above. The 
headwaters and tributaries of the Salt River arise on our Reservation 
and are the principal sources of water for the Tribe, the downstream 
Cities of Avondale, Chandler, Gilbert, Glendale, Mesa, Peoria, Phoenix, 
Scottsdale and Tempe; the Salt River Reclamation Project and the 
Roosevelt Water Conservation District, among other parties to the Gila 
River and Little Colorado Adjudication Proceedings.
United States in Capacity as Tribe's Trustee Files Reserved Water 
        Rights Claim
    In 1985, the United States, acting in its capacity as the trustee 
of the Tribe's water rights, filed a substantial reserved water rights 
claim in the name of the White Mountain Apache Tribe to the Salt River 
System as part of the Gila River Adjudication Proceedings still pending 
before the Maricopa County Superior Court, State of Arizona. It also 
filed claims for the Tribe in the Little Colorado River Adjudication 
Proceedings, also still pending before the Apache County Superior 
Court, State of Arizona.
Tribe's Reserved Water Rights Claim Inclusive of Base Flow
    At the urging of, and in collaboration with the Tribe, the United 
States amended its water rights filings for the Tribe in the Little 
Colorado River and the Gila River General Stream Adjudications in 
September 2000, to assert the Tribe's prior and paramount, aboriginal 
and federal reserved rights to the transbasin aquifer sources that 
sustain the base flow of the Tribe's Reservation springs and streams. 
The amended claim filed by the United States in its capacity as trustee 
for the Tribe, specifically recognizes the Tribe's unbroken chain of 
aboriginal title and time immemorial priority rights to the base flow 
of the springs and streams, and the contribution to those surface 
waters by rainfall and snowmelt runoff on the Tribe's Reservation.
Historical Conflict
    For decades, the White Mountain Apache Tribe has asserted its right 
to preserve, protect, use and develop its aboriginal and federally 
reserved water rights. As late as the 1950s, a physical confrontation 
became imminent between the Tribe and downstream water claimants when 
the Tribe began to develop outdoor recreation lakes on its Reservation 
by impounding water from streams within the Reservation's exterior 
boundaries. This activity was considered a threat to water supplies in 
the Salt River System by downstream water users in the Phoenix 
Metropolitan area and was vigorously opposed. A litany of water right 
controversies involving the White Mountain Apache Tribe, the United 
States in its role as the Tribe's conflicted trustee, and the Salt 
River Valley Reclamation Project, characterized the relationship the 
Tribe had with the Salt River Reclamation Project and downstream water 
users throughout the 20th century.
    The Tribe's sizable and senior water rights claims in the pending 
Gila River and Little Colorado River Adjudication Proceedings generated 
considerable uncertainty regarding the availability of Salt River water 
supplies used by the downstream Salt River Project, which serves the 
greater Phoenix Metropolitan area. As many as 3.5 million people 
downstream depend in large part upon the water sources that arise on 
the Fort Apache Indian Reservation to which the White Mountain Apache 
Tribe claims sufficient water to meet its present and future needs.
Tribe's Aboriginal and Reserved Water Rights Quantified by 2009 
        Agreement
    This year, the White Mountain Apache Tribe Water Rights 
Quantification Agreement, (``Quantification Agreement'') was formally 
approved and signed by the White Mountain Apache Tribe and by the 
downstream parties' respective governing bodies, including the Governor 
of the State of Arizona, Salt River Project Agricultural Improvement 
and Power District, Salt River Valley Water Users Association, 
Roosevelt Water Conservation District, Arizona Water Company, the 
Cities of Avondale, Chandler, Glendale, Peoria, Mesa, Phoenix, Show 
Low, Scottsdale, Tempe, Gilbert, Buckeye Irrigation Company, Buckeye 
Water Conservation and Drainage District, and the Central Arizona Water 
Conservation District (CAWCD). The Quantification Agreement is an 
honorable, dignified and equitable quantification and settlement of our 
Tribe's reserved water rights.
    The Quantification Agreement that was approved and signed by all 
the parties except the United States, (the United States does not sign 
the Quantification Agreement until H.R. 1065 is enacted by Congress), 
provides that the Tribe is permitted to divert for beneficial use, 
approximately 99,000 + acre-feet annually, so long as the depletion 
from any diversion does not exceed 52,000 acre-feet annually.
    This water use right was negotiated by the Tribe and state parties 
and reflects a water budget that will provide sufficient water to 
satisfy the Homeland purpose of our Reservation. The water budget 
includes present and future water needed for domestic and commercial 
purposes through the year 2100, irrigation, stock ponds, recreation 
lakes, storage reservoirs, federal fish hatcheries on our land, 
livestock, our sawmill, outdoor recreational resort housing 
development, and mineral development.
H.R. 1065
    H.R. 1065 will authorize, confirm, and implement the Quantification 
Agreement and will thereby resolve uncertainties among all of the 
parties and claimants in both the Gila River and Little Colorado River 
Basins. The Act will quantify, preserve, recognize, and settle the 
reserved water rights of the White Mountain Apache Tribe in perpetuity, 
provide Tribal waivers and releases of claims regarding all State law 
water users in the Gila River and Little Colorado River basins, 
including the United States (except for the United States acting as 
trustee on behalf of other Indian Tribes).
Tribal Claims Waived by Quantification Agreement Outlined in Liability 
        Paper
    H.R. 1065 will also resolve potential claims by the White Mountain 
Apache Tribe against the United States for water related breach of 
trust damage claims that could potentially result in liability far in 
excess of the funding authorized by H.R.1065. Specifically, beginning 
with the completion of Roosevelt Dam for the Salt River Reclamation 
Project in 1911, the trustee United States, acting by and through its 
principal agent, the Secretary of the Interior, has as a matter of 
policy, suppressed, neglected, ignored, and opposed the reserved water 
use rights of the White Mountain Apache Tribe. These policies, fostered 
by an inherent conflict of interest on the part of the Secretary, 
favored development of the non-Indian Salt River Project at the expense 
of the welfare of the White Mountain Apache Tribe.
    For example, as set forth in greater detail in the Tribe's 
Liability Paper, that has been submitted to the Department of Interior 
and to appropriate House congressional staff, the Secretary of the 
Interior in the 1950s and early 60's intentionally destroyed thousands 
of Cottonwood trees and other riparian vegetation along the Tribe's 
streams to increase water runoff to the Salt River Valley and Roosevelt 
Reservoir. The Secretary also cleared thousands of acres of Juniper 
trees under the auspices of rangeland restoration for the purpose of 
increasing runoff, not for the benefit of the White Mountain Apache 
Tribe, but for the benefit of the downstream water users in the Phoenix 
Metropolitan area. The ecosystem damage from this action continues and 
is ongoing. The cost of riparian restoration is in the hundreds of 
millions of dollars.
    Another example of a water related, breach of trust damage claim 
that will be waived by the Tribe in H.R. 1065, are damages to water 
rights resulting from the doubling of the annual allowable cut of the 
Tribe's commercial forests by the Secretary for the purpose of 
increasing water runoff from the Tribe's Reservation to Roosevelt 
Reservoir for the benefit of the Salt River Reclamation Project.
    Other potential water related, breach of trust damage claims, inter 
alia, which are discussed in the Liability Paper and that will be 
waived by H.R. 1065, will be claims arising from:
    <bullet>  an historic failure to maintain approximately 90 miles of 
irrigation ditches on the Reservation (waived after federal funding 
received to repair),
    <bullet>  failure to support future OM&R expenses for the Miner 
Flat Dam Project Rural Water System (waived after OM&R Trust Fund 
established),
    <bullet>  an historic failure to meet the trust obligation to 
provide a safe drinking water supply for the Tribe,
    <bullet>  suppression of irrigation development,
    <bullet>  expense of litigating the Tribe's reserved water rights 
claims,
    <bullet>  failure of the Secretary to reserve Tribe's water from 
contracts issued downstream for storage after Roosevelt Dam was 
originally built in 1911,
    <bullet>  failure of the Secretary to set aside New Conservation 
Storage (NCS), for the White Mountain Apache Tribe in the 1995-96 
enlargement of Roosevelt Reservoir (result is that Tribe was compelled 
to obtain 25,000 acre-feet of CAP instead of retaining Salt River Water 
valued by SRP at $6,000 per ac ft),
    <bullet>  failure of the United States to assert the reserved water 
rights of the White Mountain Apache Tribe in the EIS for the 
reallocation of CAP water, and
    <bullet>  holding the trustee United States harmless by 
relinquishing 26,000 acre-feet diversion annually (valued by SRP at 
$6,000 per acre-foot), that had been earmarked for economic development 
on the Reservation's Bonito Prairie area.
Value of Tribal Waivers
    The value of tribal waivers of potential water related breach of 
trust claims against the United States, as outlined in the Tribe's 
Liability Paper, far exceeds the authorization in H.R. 1065 for a dam, 
reservoir and drinking water system ($127 million) (``Miner Flat 
Reservoir Project''), the OM&R Trust Fund ($50 million) for the Miner 
Flat Reservoir Project, and the $116 million authorized for ``wet water 
economic development, supported by all parties (except the United 
States), for: (1) existing lakes infrastructure enhancement 
($23,675,000); (2) fish hatchery repair, rehabilitation and expansion 
($7.5 million); (3) a fisheries center ($5 million); (4) repair of 
existing, but neglected BIA irrigation systems ($4.95 million); (5) 
forest management study and Sawmill retooling to accommodate smaller 
diameter trees and reduce forest fire risk ($25 million); (6) 
snowmaking infrastructure ($25 million); and (7) future recreational 
lake development ($25 million).
Drinking Water Crisis
    The Tribe and Reservation residents are in urgent need of a long-
term solution for their drinking water needs. Currently the Tribe is 
served by the Miner Flat Well Field. Well production has fallen sharply 
and is in irreversible decline. Over the last 8 years, well production 
has fallen by 50%, and temporary replacement wells draw from the same 
source aquifer that is being exhausted. The Tribe experiences chronic 
summer drinking water shortages. There is no prospect for groundwater 
recovery. The quality of the existing water sources threatens the 
health of our membership and other Reservation residents, including the 
IHS Regional Hospital and State and BIA schools. The only viable 
solution is replacement of failing groundwater with surface water from 
the North Fork of the White River. A small water diversion system along 
the White River (North Fork Diversion Project) will help the Tribe's 
short term drinking water needs, but this is only a temporary measure 
to replace the quickly failing well field.
Reservoir Storage a Necessity
    Without reservoir storage behind Miner Flat Dam, a feature 
authorized by H.R. 1065, the stream flows of the North Fork of the 
White River, supplemented by short-term capacity of the Miner Flat Well 
Field, are together inadequate to meet community demands of the White 
Mountain Apache Tribe for the Greater Whiteriver Area, Cedar Creek, 
Carrizo and Cibecue and to maintain a minimum flow in the North Fork of 
the White River. The demands of the Tribe for its Rural Water System as 
proposed in H.R. 1065 will dry up the North Fork of the White River by 
2020 or earlier, even in combination with a supplemental, diminished 
water source from the Miner Flat Well Field. Therefore, Miner Flat Dam 
is necessary to store 6,000 acre-feet of water during runoff periods 
for release and enhancement of the North Fork of the White River to 
meet demands of the Reservation rural water system and maintain a 
minimum flow for aquatic in riparian habitat preservation and 
enhancement. The Miner Flat Project will meet the increasing drinking 
water needs of the Reservation for a future population of nearly 40,000 
persons in the decades to come. See attached Miner Flat Reservoir and 
Pipeline Location Map.
Environmental Impact
    The dam and reservoir will be environmentally beneficial. The flow 
at the site of the proposed miner flat dam and reservoir averages 
60,500 acre-feet annually. The dam will not alter the average annual 
flow of the North Fork of the White River at the dam or along the first 
15 miles of river below the dam. It will only regulate the flow, 
storing water during periods of runoff and releasing like amounts of 
water during periods of seasonal low flow. The project can store and 
release a maximum of 6,000 acre-feet (the active conservation storage) 
on a seasonal, annual or multi-year basis. These releases are 
beneficial between the dam and the Alchesay National Fish Hatchery 
because they enhance the quantity of flow during low flow periods, such 
as May and June, and enhance the quality by lowering temperature, which 
has been historically problematic for the hatchery. The temperature is 
lowered by releasing cold water at depth in the reservoir. Miner Flat 
Dam will not stop the annual flow of the North Fork of the White River, 
but will only regulate the River's annual flow. The operating plan for 
the releases will meet environmental requirements.
Funding Consideration for Quantification Agreement
    Funding for the WMAT Rural Drinking Water System, including the 
Miner Flat Dam Storage Facility, water treatment plant, and pipeline to 
deliver drinking water to Reservation communities is an indispensable 
component of the Quantification Act and Quantification Agreement.
    The language approved by all of the signing parties declares that 
the entire Drinking Water System, including the Miner Flat Dam, 
reservoir, treatment plant and pipeline, pumping stations and other 
infrastructure, shall be held in trust by the United States for the use 
and benefit of the White Mountain Apache Tribe. This is consistent with 
other authorized Bureau of Reclamation Indian rural water projects such 
as: Garrison Diversion Unit, Mni Wiconi, Fort Peck, North Central/Rocky 
Boy's, Santee Sioux, and Cheyenne River.
    The Quantification Agreement and H.R. 1065 also provide that the 
Tribe waives any future OM&R cost claims against its trustee, the 
United States, upon establishment of a OM&R Trust Fund, the interest of 
which will be used to pay for the annual estimated OM&R cost of $2.1 
million for the Miner Flat Project. This is the deal the Tribe made 
with the signing parties in consideration for quantifying its 
substantial reserved water rights claim in the Salt River and Little 
Colorado River systems, waiving substantial damage claims, and 
relinquishing a considerable reserved water right in exchange for, and 
in reliance upon, funding for a safe drinking water system and for 
``wet water'' economic development.
Conclusion
    The White Mountain Apache Tribe is thankful for the opportunity to 
present testimony before this important Subcommittee and expresses its 
appreciation to Congresswoman Ann Kirkpatrick for introducing H.R. 
1065, the companion bill to S.313, which was co-sponsored by our United 
States Senators Jon Kyl and John McCain. The Tribe also thanks the 
signing parties to the White Mountain Apache Water Rights 
Quantification Agreement for their continuous support of H.R. 1065.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Sullivan.

STATEMENT OF JOHN F. SULLIVAN, ASSOCIATE GENERAL MANAGER, SALT 
                      RIVER VALLEY PROJECT

    Mr. Sullivan. Chairwoman Napolitano, Ranking Member 
McClintock, members of the Subcommittee, thank you for the 
opportunity to testify in support of H.R. 1065, the White 
Mountain Apache Tribe Water Quantification Act of 2009. My name 
is John Sullivan. I am the Associate General Manager of the 
Water Group at the Salt River Project or SRP.
    Over the past four decades, SRP has worked with numerous 
tribes and stakeholders to resolve Indian water rights disputes 
in a manner that benefits both Indian communities and their 
non-Indian neighbors. In fact, last year I testified before 
this Subcommittee regarding Indian water rights settlements, 
and I identified some of the challenges and benefits associated 
with settling water rights disputes rather than litigating.
    Thanks to the dedication of Chairman Lupe, the White 
Mountain Apache Tribal Council and all of the settling parties 
over the past several years, we have worked through many of the 
same challenges that I described last year to negotiate this 
quantification agreement. I am confident that, in turn, passage 
of H.R. 1065 and implementation of this agreement will allow 
the fundamental and direct benefits I also referenced in my 
testimony, in particular a reliable and certain water supply 
for all the parties to the settlement.
    The agreement provides this long-term reliable supply for 
the Tribe by building infrastructure to deliver desperately 
needed drinking water to communities on the White Mountain 
Apache's Fort Apache Reservation. That is why the centerpiece 
of this legislation and quantification agreement is the Miner 
Flat Dam and Pipeline Project. This project will allow the 
Tribe to put their quantified water right to beneficial use in 
the communities and provide a healthy living environment and 
economic opportunity.
    The need for a sustainable and permanent water supply on 
the reservation is undeniable, and the analysis done by SRP 
came to the same conclusion as the studies done by the White 
Mountain Apache experts that the Miner Flat Dam & Pipeline is 
the best and most cost-effective solution to meet the municipal 
needs for the next 100 years for the Tribe.
    The agreement's permanent quantification of water rights 
and conclusive settlement of outstanding claims on water 
originating on the Fort Apache Reservation gives SRP and the 
state parties water supply certainty. Four of the seven 
reservoirs operated by SRP are located on the Salt River 
downstream of the Fort Apache Reservation. They are at the 
headwaters of the Salt River.
    Approximately 42 percent of the water delivered by SRP to 
Phoenix metropolitan area stakeholders originates there. Absent 
approval of this negotiated settlement, resolution of the 
pending claims could take many years, entail great expense and 
prolong water supply uncertainty. The effective implementation 
of the quantification agreement would allow SRP and the other 
settling parties to make better long-term decisions regarding 
their water supply, water usage and potential need for future 
water supplies.
    Madame Chairwoman and members of the Subcommittee, this 
bill provides a win-win solution to a longstanding dispute and 
has widespread support in Arizona. It has now been approved by 
the appropriate boards and counsels of all of the state 
settling parties and many of the cities and water districts 
have sent this Subcommittee letters of support.
    I would also like to thank Representative Kirkpatrick for 
introducing this bill and for all of her work on this issue. As 
we move forward, I look forward to working with this 
Subcommittee and the Department of the Interior to address any 
outstanding issues. Thank you, and I am happy to answer 
questions.
    [The prepared statement of Mr. Sullivan follows:]

Statement of John F. Sullivan, Associate General Manager, Water Group, 
   Salt River Valley Water Users Association and Salt River Project 
       Agricultural Improvement and Power District, on H.R. 1065

    Chairwoman Napolitano, Ranking Member McClintock, and members of 
the Subcommittee,
    Thank you for the opportunity to testify in support of H.R. 1065, 
the White Mountain Apache Tribe Water Rights Quantification Act of 
2009. I also thank Representative Ann Kirkpatrick for her introduction 
and continued support of this important legislation. My name is John F. 
Sullivan. I am the Associate General Manager, Water Group, of the Salt 
River Project (``SRP''), a large multi-purpose federal reclamation 
project embracing the Phoenix, Arizona metropolitan area. SRP has a 
history of negotiating and settling Indian water rights disputes in 
Arizona. Over the past four decades, SRP has worked with numerous 
tribes and stakeholders to resolve Indian water rights disputes in a 
manner that benefits both Indian communities and their non-Indian 
neighbors. Most important among the benefits is water supply certainty, 
which is a fundamental outcome of any water rights settlement.
    SRP is composed of the Salt River Valley Water Users' Association 
(``Association'') and the Salt River Project Agricultural Improvement 
and Power District (``District''). Under contract with the federal 
government, the Association, a private corporation authorized under the 
laws of the Territory of Arizona, and the District, a political 
subdivision of the State of Arizona, provide water from the Salt and 
Verde Rivers to approximately 250,000 acres of land in the greater 
Phoenix area. Over the past century, most of these lands have been 
converted from agricultural to urban uses and now comprise the core of 
metropolitan Phoenix.
    The Association was organized in 1903 by landowners in the Salt 
River Valley to contract with the federal government for the building 
of Theodore Roosevelt Dam on the Salt River, located some 80 miles 
northeast of Phoenix, and other components of the Salt River Federal 
Reclamation Project. SRP was one of the first multipurpose projects 
approved under the Reclamation Act of 1902. In exchange for pledging 
their land as collateral for the federal loans to construct Roosevelt 
Dam, which loans have long since been fully repaid, landowners in the 
Salt River Valley received the right to water stored behind the dam.
    In 1905, in connection with the formation of the Association, a 
lawsuit entitled Hurley v. Abbott, et al., was filed in the District 
Court of the Territory of Arizona. The purpose of this lawsuit was to 
determine the priority and ownership of water rights in the Salt River 
Valley to the natural flow of the Salt and Verde rivers and to provide 
for their orderly administration. The decree entered by Judge Edward 
Kent in 1910 adjudicated those water rights, provided water supply 
certainty to existing water users and, in addition, paved the way for 
the construction of additional water storage reservoirs by SRP on the 
Salt and Verde Rivers in Central Arizona.
    Today, SRP operates six dams and reservoirs on the Salt and Verde 
Rivers in the Gila River Basin, one dam and reservoir on East Clear 
Creek in the Little Colorado River Basin, and 1,300 miles of canals, 
laterals, ditches and pipelines, groundwater wells, as well as numerous 
electrical generating, transmission and distribution facilities. The 
seven SRP reservoirs impound runoff from multiple watersheds, which is 
delivered via SRP canals, laterals and pipelines to municipal, 
industrial and agricultural water users in the Phoenix metropolitan 
area. SRP also operates approximately 250 deep well pumps to supplement 
surface water supplies available to the Phoenix area during times of 
drought. In addition, SRP provides power to nearly 900,000 consumers in 
the Phoenix area, as well as other rural areas of the State.
    SRP holds the rights to water stored in these reservoirs, and for 
the downstream uses they supply, pursuant to the state law doctrine of 
prior appropriation, as well as federal law. Much of the water used in 
the Phoenix metropolitan area is supplied by these reservoirs.
    The White Mountain Apache Tribe is located on the Fort Apache 
Reservation in eastern Arizona, established by Executive Order in 1871. 
The headwaters of the Salt River originate on the Fort Apache 
Reservation. Four of the seven reservoirs operated by SRP are located 
on the Salt River downstream of the Fort Apache Reservation, and 
approximately 42% of the water delivered by SRP to Phoenix metropolitan 
area customers originates on the Reservation. The United States, acting 
on behalf of the Tribe, has asserted claims in the pending Gila River 
Adjudication to the depletion of 179,000 acre-feet of water from these 
headwaters. These claims are based on the federal reservation of rights 
doctrine and largely encompass potential future uses of water by the 
Tribe on its Reservation.
    Because resolution of the pending claims could take many years, 
entail great expense, and prolong water supply uncertainty, a group of 
Arizona water users began settlement negotiations with the White 
Mountain Apache Tribe about three years ago. In addition to the Tribe, 
the settlement parties include the United States, State of Arizona, 
Central Arizona Water Conservation District (``CAWCD''), Salt River 
Project Agricultural Improvement and Power District, Salt River Valley 
Water Users' Association, Roosevelt Water Conservation District, 
Buckeye Irrigation Company, Buckeye Water Conservation and Drainage 
District, Arizona Water Company, and the Arizona cities and towns of 
Phoenix, Mesa, Tempe, Chandler, Glendale, Scottsdale, Avondale, Peoria, 
Show Low, and Gilbert.
    The negotiations culminated in a comprehensive settlement 
(``Settlement'') that resolves the longstanding water disputes and is 
embodied in the White Mountain Apache Tribe Water Rights Quantification 
Agreement and H.R. 1065, the White Mountain Apache Tribe Water Rights 
Quantification Act of 2009 currently before this Subcommittee. At this 
time, all of the state parties have formally approved and signed the 
Settlement through their boards and councils. The Settlement 
legislation confirms and approves the Tribe's settlement, specifies 
water reallocations to implement the Settlement, and authorizes a CAP 
water delivery contract with the Tribe. It provides parameters for 
Tribal CAP water leases and authorizes the Secretary to execute those 
leases. Furthermore, H.R. 1065 authorizes the Miner Flat Dam Project 
and funding for its construction, operation and maintenance, and 
repayment of the loan for planning and engineering that was authorized 
last year in P.L. 110-390.
    Under the Settlement, the Tribe's water rights are quantified at a 
total diversion right of 99,000 acre-feet per year through a 
combination of surface water and Central Arizona Project (``CAP'') 
water sources. The Tribe's surface water rights, the first component of 
the Tribe's quantified water rights, include the ability to divert 
67,000 acre-feet per year from the Salt River system <SUP>1</SUP> and 
another 7,000 acre-feet per year from either the Salt River or Little 
Colorado River system. Maximum depletion amounts of 23,000 acre-feet 
per year from the Salt River system <SUP>2</SUP> and 4,000 acre-feet 
per year from either the Salt River or Little Colorado River system are 
also quantified by the Agreement. The second component of the Tribe's 
quantified water rights is a right to CAP water. The Tribe may deplete 
and put to its own use up to 25,000 acre-feet per year of CAP water or 
choose to lease some or all of this water to others. The Tribe has 
negotiated CAP water leases with the CAWCD and the valley cities of 
Avondale, Chandler, Gilbert, Glendale, Mesa, Peoria, Phoenix, and 
Tempe.
---------------------------------------------------------------------------
    \1\ Included within this total diversion right is 3,000 acre-feet 
per year which may be diverted beginning in the year 2100.
    \2\ Included within this total depletion right is 1,200 acre-feet 
per year which may be depleted beginning in the year 2100.
---------------------------------------------------------------------------
    For their part, the Tribe has committed to providing waivers and 
releases of claims benefiting all State law water users in the Gila 
River and Little Colorado River basins and the United States (except on 
behalf of other Indian Tribes), as part of the Settlement and in return 
for the quantified water rights described above.
    Establishment of an adequate water storage and distribution system 
to meet the domestic and industrial water requirements of the Tribe and 
its members is a critical component of the parties' efforts to settle 
all existing disputes regarding the White Mountain Apache Tribe's water 
rights. The Tribe's existing system is supported by a wellfield, but 
the aquifer's supply is limited and insufficient to serve the 
reservation's municipal water needs. As an interim measure, the Tribe 
plans to construct a small temporary water diversion system along the 
White River. However, this is only a short-term solution. The Tribe and 
the settling parties have determined that construction and operation of 
the Miner Flat Dam Project would best address the Tribe's growing 
municipal, rural and industrial water diversion, storage and delivery 
demands. The Project, which is estimated to cost approximately $128 
million, would include a dam and pipeline for water distribution within 
the Reservation's boundaries including the growing communities of White 
River, Cedar Creek, Carrizo, and Cibecue. As part of the Project, 
pipelines would be constructed to connect water treatment plants to 
existing Whiteriver, Carrizo, and Cibecue area water distribution 
systems. Associated water system connections, access roads, buildings, 
and electrical transmission and distribution facilities would also be 
included within the Project's scope.
    As part of the Settlement and in recognition of the Tribe's 
sustained efforts to provide a reliable drinking water source to its 
people, the non-federal settlement parties have agreed to support the 
Tribe in developing a long-term solution to this challenge. As an 
initial step, the White Mountain Apache Tribe Rural Water System Loan 
Authorization Act was introduced by Representative Pastor in the House 
and Senator Kyl in the Senate last year. This legislation (H.R. 6754 
and S. 3128) was approved by Congress and signed into law by President 
Bush as P.L. 110-390. It authorized $9.8 million in the form of a loan 
to the Tribe to be repaid beginning in 2013. The Act established the 
groundwork to begin Project construction once the Settlement is 
approved, allowing inflationary costs to be minimized, potentially 
saving millions of dollars and providing much needed water to the 
communities on the Fort Apache Reservation years earlier. We greatly 
appreciate this Committee's work and leadership in passing this 
legislation to allow work to begin on this important project.
    H.R. 1065 will continue the progress made last year toward 
providing a sustainable water supply for the White Mountain Apache 
Tribe and certainty for water users in Arizona, and has the strong 
support of the settlement parties and numerous water users in the 
Little Colorado River Basin. We look forward to working with the 
Subcommittee on this bill. Chairwoman Napolitano and Ranking Member 
McClintock, thank you again for the opportunity to testify and for 
considering our views. I am happy to answer any questions.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Sullivan. I appreciate your 
testimony.
    There are several questions that come up in regard to the 
project itself and, Chairman Lupe, the 99,000 diversion right, 
what is used by the Tribe and you release what amount down to 
other needs and what do you sell the water for, cost?
    Mr. Sullivan. If I might, Madame Chairwoman, the water 
budget that was developed for the White Mountain Apache Tribe, 
we started with the claim that was filed by the United States 
quite some time ago, which was almost 180,000 acre-feet. That 
was based on various current and potential uses by the Tribe.
    We then looked at studies done by the Tribe on uses and 
concluded that their total diversions would be more appropriate 
at I believe the number is around 99,000 acre-feet. In fact, 
they will only deplete something in excess of 50,000 acre-feet 
from the watershed.
    The water that comes from the headwaters of the Salt River 
flows in those rivers naturally, so really the Tribe is not 
charging for the water. It is a matter of quantifying the 
rights between the downstream users and the White Mountain 
Apache Tribe. So there is no charge currently for water that 
flows into the dams that the Salt River Project operates if 
that is answering your question.
    Mrs. Napolitano. Is there an expected future charge though?
    Mr. Sullivan. Pardon me?
    Mrs. Napolitano. Is there an expected future charge?
    Mr. Sullivan. There is no expected future charge. It is a 
matter of defining among the parties how much water will be 
used by the White Mountain Apache Tribe for basically forever.
    Mrs. Napolitano. OK. In testimony, Chairman Lupe, you state 
the Secretary of the Interior's 1950 and early '60s 
intentionally destroyed thousands of cottonwood and juniper 
trees as well as other riparian vegetation for the benefit of 
the downstream users in the Phoenix metropolitan area. What 
impact have these actions caused on the White Mountain Apache 
Tribe?
    Mr. Lupe. I did not understand your question, ma'am. I am 
sorry.
    Mrs. Napolitano. Well, apparently according to what we were 
reading is the thousands of cottonwood and junipers and other 
riparian vegetation was intentionally destroyed for the benefit 
of downstream users in the Phoenix metropolitan area. What 
impact did these actions back in the '50s and '60s have on your 
tribe?
    Mr. Lupe. The impact up to this time has been tremendous in 
terms of the area of my reservation on the west end. We had 
tremendous economic loss from one of the biggest forest fires 
that we ever had on the reservation and in the State of 
Arizona.
    Mrs. Napolitano. I am sorry. We can barely hear you, sir. 
Would you pull the mic up please? I am having a hearing 
problem.
    Mr. Lupe. I am referring to the forest fire that was one of 
the biggest in the State of Arizona. It took more than half of 
our economy, which is forestland itself. And that really 
devastated the economy on our reservation. And also, it 
affected all of our water development and other development.
    So at the present time, we are struggling now to get to the 
power that we had before. And this is part of the water 
settlement that we are initiating, so that we can get back some 
of the plentiful living that we had on the reservation is now 
not there.
    Maybe the trial attorney who is here with me can answer 
some of that, also, Bob Browkley.
    Mr. Browkley. Thank you. My name is Robert Browkley, Madame 
Chairwoman.
    During the 1950s and sixties, there was a deliberate policy 
of the United States, which is well documented in our liability 
paper we just touched on the many thousands of our tribal 
documents, documented that there was a policy to increase water 
runoff to Phoenix Valley by defoliating the reservation.
    So what the Bureau of Indian Affairs did, together with a 
committee from Phoenix, acting with the Department of the 
Interior, was to kill thousands of cottonwoods, because one 
cottonwood will take 300 gallons of water a day. So they killed 
thousands of cottonwoods by girdling them with chainsaws, 
poisoning them. And they did this on all of the major 
tributaries that feed into the Salt River.
    This went over the--they put stream gauges in there to 
measure the success of the runoff. And in conjunction with this 
program, there also was the beginning of a proscribed burning 
program, which was to reduce or to replicate wildfires to 
reduce the threat of forest fires. But another purpose that 
emerged from the proscribed burning was to increase water 
runoff by burning off the duff, and having the water not 
saturate, but run off.
    A third thing they did was they doubled the annual 
allowable cut of the forest from about 55 million board feet to 
110 million board feet. The primary purpose was to increase 
water runoff to Phoenix.
    Now, the devastation to the Tribe is well documented in 
terms of the erosion, the cost of riparian restoration, some 
estimated, we have done some already through a permanent fund 
when the Tribe filed a claim for damages up to 1946. They set 
aside 20 percent of the money in a permanent fund to kind of 
restore these riparian areas.
    It is in the hundreds of millions of dollars to restore the 
riparian areas from the erosion, the channeling of the rivers 
by bulldozers to increase water runoff, to restore the thermal 
barriers to fish habitat caused by the defoliation, the 
invasion of salt cedar and other species caused by the 
eradication of the juniper and the cottonwood trees.
    Our experts have estimated that the cost of restoration 
could be a million dollars for half a mile of stream. So, the 
long-term damage continues--and runoff.
    Now, the interesting thing about this experiment, which 
lasted for about a decade, is that the runoff and the erosion 
and the washing away of millions of tons of topsoil canceled 
out any immediate benefit from the runoff, so it was abandoned. 
But the environmental damage due to the fact the sedimentation 
that washed down to Roseville Dam in part contributed to having 
to raise Roseville Dam by 36 feet in order to accommodate the 
sedimentation that washed out on the reservation.
    So that is just one claim that the Tribe would be waiving 
in its water right settlement, in addition to relinquishing 
85,000 acre-feet a year which the United States had put in as a 
claim in 1985.
    So Salt River project estimates that the value of that 
water is about $6,000 an acre-foot. So take $6,000 times 85,000 
acre-feet annually, and there is a stupendous benefit. Not only 
did the United States did not have to defend that claim, but 
the benefit to the Salt River Valley is immeasurable.
    And in exchange, the Tribes, we have waived certain claims 
in exchange for and in consideration for the water right we 
retained, the vested property rights that we retained to the 
use of water. We would like to have money to develop those 
water rights, since we are giving up so much. And since 1912, 
it has been the official policy of the United States to 
suppress any development of the reservation. So that was just, 
route water development is for the retooled sawmill----
    Mrs. Napolitano. We have to move forward.
    Mr. Browkley. OK.
    Mrs. Napolitano. You have answered the question.
    Mr. Browkley. OK, thank you.
    Mrs. Napolitano. Thank you. And I guess to Mr. Sullivan, 
the settlement provides a water supply certainty for how many 
people?
    Mr. Sullivan. The service area that we supply route water 
to probably has a population of around 4 million people.
    Mrs. Napolitano. Thank you.
    Mr. McClintock. Thank you, Madame Chairwoman.
    I want to focus in on the 99,000 acre-feet of water. Who 
currently owns that water?
    Mr. Sullivan. Well, I will take a shot at answering that 
question.
    Currently in the State of Arizona, we are undergoing 
litigation over who actually has rights to waters in the Gila 
River Watershed. And the Salt River is a tributary of the Gila 
River.
    So, for the last 35-plus years, we have been in litigation 
over the water rights in the Salt River Valley.
    The United States filed a claim as a part of that 
adjudication for, I believe it was just shy of 180,000 acre-
feet, on behalf of the White Mountain Apache Tribe. In looking 
at----
    Mr. McClintock. Those are claims. Who currently owns it?
    Mr. Sullivan. Ownership in the State of Arizona of surface 
water rights, it is currently owned by the people of Arizona.
    Mr. McClintock. OK. So the people of Arizona----
    Mr. Sullivan. The water rights, however, are claimed by the 
Salt River Valley water users.
    Mr. McClintock. Claims are different. Claims have to be 
adjudicated, I understand that.
    Mr. Sullivan. Right.
    Mr. McClintock. But right now that water is owned by the 
people of Arizona.
    Mr. Sullivan. And is currently being used by----
    Mr. McClintock. Now, you are transferring, in this 
settlement you are transferring 99,000 acre-feet per year to 
the residents of the White Mountain Apache Tribe, correct?
    Mr. Sullivan. Under this settlement, where the diversions 
of the Tribe will be 99,000, they actually will only deplete 
about 52,000. The remainder will come back to the river.
    Mr. McClintock. Well, but they will be selling that, will 
they not?
    Mr. Sullivan. No. Net use by the Tribe will be 52,000 acre-
feet.
    Mr. McClintock. But the entitlement is 99,000.
    Mr. Sullivan. Pardon me?
    Mr. McClintock. The entitlement is 99,000.
    Mr. Sullivan. The entitlement to divert out of the river.
    Mr. McClintock. Right. So again, you are transferring water 
rights to 99,000 acre-feet from the people of Arizona to the 
residents of the White Mountain Apache Tribe.
    Mr. Sullivan. Correct.
    Mr. McClintock. Now, again, pull out a pocket calculator. 
That comes to a mind-numbing figure of 2.1 million gallons per 
resident per year.
    Mr. Sullivan. Correct. That includes uses beyond just 
domestic use. That includes agricultural use by the Tribe. They 
do have agricultural use currently, and have development plans 
for additional agricultural use. It includes use for their 
recreational projects. It includes a reservation for some 
industrial use. They operate a timber system, two sawmills on 
the reservation.
    So there are a number of other uses beyond the----
    Mr. McClintock. Well, I am going to have to go back and 
read the Winters decision. But it seems to me that goes far 
beyond anything contemplated in the Winters decision. 
Particularly when, by your own testimony, you are telling me 
the Tribe can't even use that 99,000 acre-feet currently.
    Mr. Sullivan. Well, we believe that they will, over time, 
be able to----
    Mr. McClintock. Well, given enough time, I am sure they can 
figure out other ways of using it; but it is a stunning figure.
    The other question I would raise is the $116 million in 
economic development projects that the taxpayers are being 
asked to fund. Isn't that what investors normally do?
    For example, I see one of the uses of this $116 million is 
the planning, design, and construction of snow-making 
infrastructure repairs and expansion at Sunrise Ski Park.
    Now, it seems to me that what would normally be done is you 
would go out and seek private investors, and say we have this 
great ski park here that we want to design and build; will you 
invest in it.
    Instead you are asking the taxpayers to do so. Do I have 
that correctly? Am I understanding that correctly?
    Mr. Browkley. Madame Chairwoman, may I be heard on this?
    Mrs. Napolitano. Certainly, if you have an ability to 
answer. Yes.
    Mr. Browkley. With respect to what Mr. Sullivan said, the 
water on the reservation that borders, underlies, and traverses 
the reservation, is not state water.
    The Tribe has an aboriginal right to the use of water, so 
it is not the state giving anything to the Tribe. Under the 
Winters doctrine, the Tribe has vested property rights to the 
use of water.
    And to answer the Ranking Member's question, no one owns 
water. What you have is a right to use water. And the big 
question under the Winters doctrine is, when reservations were 
established, the Tribes conferred and held back for themselves 
sufficient water for a permanent homeland purpose. And that is 
what the U.S. Supreme Court has interpreted and stated as such, 
and the Arizona Supreme Court followed those line of decisions 
and said the big question is how much do they get.
    We put a team of experts together and now the 185,000 
diversion claim, which was actually filed by the United States, 
arrived at a figure of 99,000 acre-feet diversion, 52,000 acre-
feet maximum depletion.
    So the State of Arizona is giving nothing to the Tribe. In 
fact, the Tribe has a priority bid that goes back thousands of 
years, way before the State of Arizona even dreamed of being 
existing.
    So the question is, we came up with a use of the water, and 
it is very clear. We went out 100 years, the same as the State 
of Arizona, and for the 35,000 acre-feet diversion for 
agriculture, that is old, historic use, current use, and future 
use; 8,000 for evaporation. You are charged for evaporation 
from your lakes. They have 2,000 stock ponds--a 17,000 acre-
feet diversion for the Federal hatcheries. And that is not 
depletion. It just passes through--24,000 acre-feet a year for 
drinking water, up to 100 years. That is a hundred-thousand-
person population that we estimate.
    Four-hundred-and-twenty-three acre-feet for livestock. 
There are 20,000 livestock--8,790 for resort and industrial 
development, and 5,800 acre-feet a year for mineral 
development. There is some coal there, and there is an iron 
mine that might be commercially feasible.
    So altogether, that is 99,000 acre-feet diversion. And the 
Tribe is not using that much now. But when you have a reserved 
water right, you don't just look at the historic use or the 
current use; they have a reserved right to how much water they 
need as a permanent homeland. That is why you go out about 100 
years. Beyond 100 years it is speculative.
    So this is how we arrived at--we hired experts. We spent $1 
million on a 2500-page water budget, the Salt River project. 
They vetted it, and they had their experts. That is why the 
Tribe agreed, after looking at what was economically feasible, 
we agreed that 99,000 annual diversion, 52,000 acre-feet total 
depletion. It can never exceed that.
    Mr. McClintock. All right. May I just ask, what does the 
Administration think about these claims? What is the 
Administration's position?
    Mr. Connor. Well, the Administration filed the claim on 
behalf of the Tribe as part of its trust responsibility. So 
recognize that the 180,000 acre-foot figure was a legitimate 
claim filed as part of the adjudication process there.
    As I think I said earlier, with respect to the settlement 
for 99,000 acre-feet, we are still doing an in-depth analysis 
of that. But the preliminary analysis by the Federal 
negotiating team was that it was a legitimate figure in 
recognition of the claim that had been filed, and in 
recognition of the negotiated aspects of the agreement and the 
different sources of water for the various uses.
    So, it does appear to be a very legitimate number by which 
to settle this claim.
    Mr. McClintock. Does that include the $116 million in 
economic development projects for Sunrise Ski Park, among other 
things?
    Mr. Connor. The Administration has not endorsed the $116 
million for economic development projects as part of the 
settlement. I would, that is something that we are still 
looking at.
    Historically, there has been some level of, as part of a 
tribal trust fund--historically, settlements that establish 
some level of precedent that there has been a tribal trust fund 
to help facilitate some payment of OMB as the Tribe gets its 
water project up and going, as well as some economic 
development activities. So we are still looking at that number, 
and have not endorsed that figure or those projects as part of 
this settlement.
    Mr. McClintock. Final question. Would the Tribe agree to a 
proviso in the bill that would forbid it from reselling the 
water?
    My concern is that there is such a huge amount of water 
coming in. There is some intention of simply taking that water 
from the people of Arizona, and then selling it back to them.
    Mr. Browkley. I can answer that question, Congressman. The 
Tribe is, under this Act, the Tribe is forbidden, and in all 
Arizona Indian water settlements, a tribe cannot sell this 
water. It cannot sell their land. All the water is held in 
trust by the United States. Legal title is held in the United 
States, fair legal title, beneficial title to the waters for 
the benefit of the White Mountain Apache Tribe.
    So they can't sell it. They are prohibited by law. They 
couldn't sell their trust land, either.
    Now, the only thing that happens is that the Tribe gave it 
up. They have an 1871 priority date for a 74,000 acre-feet 
diversion. That is about 27,000 acre-feet depletion, because 
every time you divert water, you don't deplete equal amounts. A 
lot of it is returned back to the stream.
    After that, after they exhaust that, the only way they can 
get water is through an exchange. And they have an allocation 
of 25,000 acre-feet of CAP water, with a 1968 priority date. 
And they have to share in shortages, just like everybody else, 
when there is a shortage in the Colorado River.
    So, if they want to divert more than 75,000 acre-feet--in 
other words, another thousand feet above the 74,000--they have 
to do it through an exchange. They have to give 1,000 acre-feet 
of water down to Phoenix through CAP, so they can take another 
thousand acre-feet out of their streams.
    And now currently, because eventually there will be 
depletion, 100 years from now, or 50 or 60 years from now, when 
the Tribe has fully developed its water rights, there may be 
depletion of up to 99,000 acre-feet.
    Well, 25,000 acre-feet, that will be CAP water. So, 
currently Valley City said, ``We want to lease that from you. 
We can't buy it from you; you can't buy it, but we can lease it 
from you temporarily.'' So, we can bank that water underground, 
or use it right away, because it is cheaper to do that and use 
it for their development. They can't develop unless they have a 
100-year water supply.
    And so we give them a 100-year water supply through the CAP 
lease.
    Mrs. Napolitano. Thank you so very much. I would like to 
ask a question. You brought up an interesting point about 
aquifers.
    Has one been identified so that you can store water for dry 
years? Are you working with USGS? Mr. Commissioner, is there 
anything that you know that might help begin to look at that in 
the future, so that there is storage, underground storage? 
Anybody.
    Mr. Connor. At this point in time, I am happy to check our 
sources and supplement the record for you with respect to that.
    I am not aware, off the top of my head, of opportunities 
for aquifer recharge and storage that exist now on the 
reservation, and don't know that that is a part of the 
settlement.
    Mr. Browkley. Is this a question about drought and climate 
change?
    Mr. Sullivan. It is really about the ability to store water 
for drought underground.
    In our evaluation of the reservation and its ability to 
pump groundwater, that ability is very limited. We did not do 
any evaluation that I know of, unless the Tribe has done some, 
of the ability to store groundwater, or store surface water for 
future use in droughts.
    Based on what I know, it would be very difficult. But it is 
certainly something that we should explore with the Bureau of 
Reclamation in terms of long-term supply. But they have very 
limited, they are at the edge of the bowl. If you think of an 
aquifer as a bowl, the reservation is actually at the edge of 
the bowl. And so it is very difficult for them to find 
groundwater that they can use.
    Mr. Browkley. I think I understand the question now, Madame 
Chair.
    When I was talking about storage, the cities in the Valley 
Cities, 200 miles to the southwest of us will be storing the 
CAP water, or using it. Because the CAP water will not be piped 
out to the reservation, of course. It comes into Phoenix from 
Lake Havasu, from the western border, the Colorado River.
    But in terms of the Tribes storing water, that is really 
not possible for the Tribes to store any groundwater, because 
all the groundwater leaches out into the springs and streams. 
That is why they don't have any.
    Mrs. Napolitano. OK.
    Mr. Browkley. North of the reservation, the Coconino 
Aquifer, which is the base flow of the Little Colorado and 
other streams, that has a huge basin. But unfortunately, on the 
reservation itself, all the Coconino that is the base flow 
supplemented by snowfall and precipitation, all of that just 
discharges into the rivers. So you have no groundwater.
    We found one lens, and we have 15 wells there. And as the 
Chairman testified, those wells are now at 50 percent capacity, 
and they are failing fast. There is no recharge. So all the 
water that you see on the reservation--all the groundwater--has 
already discharged to the streams.
    Now, the City of Phoenix and all that, they are storing up 
to a million acre-feet of CAP water, because they know there 
will be shortages some day. And so they lease water from all of 
the other tribes. And the only way a tribe can get CAP water is 
if you settle your water rights. That is the incentive that the 
Secretary of the Interior came up with many years ago to 
encourage Indian tribes to settle. And also to compensate the 
valley people of non-Indian population for water that they 
won't get any more, because the Indians are asserting their 
reserve water rights.
    Mrs. Napolitano. Understood. And I guess my point is that 
because we have climate change, you have longer heat periods, 
that you are going to have more dry-year cycle, and you are 
going to have more evaporation of your canals and your rivers 
and your dams.
    So, storage underground in aquifers is going to be 
something that we need to start entertaining and look at to see 
how they are, and how we can add to them to prepare. It is not 
something that we like to think is going to be a necessity.
    But if we are going to try to prevent drought in some 
areas, or as you are saying, the Phoenix metropolitan area is 
gearing for a future drought, I think more communities need to 
start looking at that as a possible assist in, one more tool, 
one more idea to be able to utilize in case of continued 
drought.
    Mr. Sullivan. I couldn't agree more, Madame Chairwoman. The 
Phoenix metropolitan area, all of the water municipalities and 
water districts in the three-county area served by the Central 
Arizona Project, have been very aggressive in underground 
storage projects.
    There are a number of them within the service area of the 
Central Arizona project. And I also agree with Bob, there 
probably are, if any, very limited opportunities on the 
reservation itself.
    The good news for the White Mountain Apache Tribe is they 
sit at the headwaters. And so the diversions and depletions 
that the Tribe will make out of the Salt River are a very small 
percentage of the total flow of the river system, of the Salt 
River system. And because of that, they will have a very 
reliable supply over time.
    And their consultants looked at percentage cuts due to 
severe drought or climate change, whatever you want to call it. 
They did factor that into their evaluation.
    Mrs. Napolitano. And one more maybe comment, is that I am 
looking more and more, or asking whether the communities are 
looking at utilization of photovoltaic solar panels to run 
pumps to be able to save on electricity, and thereby saving 
some of that water.
    Mr. Commissioner, do you have any comment on what has been 
transpiring?
    Mr. Connor. No. I thank you for the opportunity with 
respect to your last comments about integrating renewals and 
water supply systems. I think it is a great idea, one that we 
need to look into very closely. I think there are opportunities 
there.
    I think, in my experience, from water utilities themselves 
are already looking at this because of some flexibility in 
pumping times, et cetera. So I look forward to working with you 
and your Subcommittee.
    Mrs. Napolitano. I really appreciate it. And because the 
Subcommittee has jurisdiction over the grid energy also, that 
we, I consider this one of the other areas of conserving that 
energy by utilization of solar power, leaving more water in the 
dams and the rivers so that you can generate the electricity.
    So if we recycle, we have that ability to expand that water 
usage of recycling.
    So I thank all the panel and Commissioner for staying with 
us, and for helping us out.
    This concludes the Subcommittee's legislative hearing on 
H.R. 1738, H.R. 2265, H.R. 2442, H.R. 2522, H.R. 2741, H.R. 
2950, and H.R. 1065. Our thanks to all of our witnesses for 
appearing before the Subcommittee. Your testimony and expertise 
have been very enlightening and helpful.
    Under Committee Rule 4[h], additional material for the 
record should be submitted within 10 business days after the 
hearing. And the cooperation of all the witnesses in replying 
promptly to any questions submitted to you in writing would be 
greatly appreciated.
    And so this Subcommittee is now adjourned.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Gallegly follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
                      from the State of California

    I would first like to thank Chairwoman Napolitano and Ranking 
Member McClintock for calling this legislative hearing today on my 
legislation H.R. 2252. My legislation would raise the ceiling on the 
federal share of the cost of completing the Calleguas Municipal Water 
District Recycling Project.
    I believe we all know about the water shortage problems plaguing 
the state of California. In my district, adequate water supplies have 
become difficult to develop and maintain. Especially as traditional 
imported water sources have become increasingly unreliable. Thus, the 
necessity for my district to develop new sources of water through H.R. 
2252.
    H.R. 2252 would authorize $40 million in additional funding for the 
Bureau of Reclamation to support the completion of the Calleguas 
Municipal Water District Recycling Project.
    To date, the federal government has expended approximately $18 
million for this project, bringing it close to the current $20 million 
cap. The additional authorization provided in this bill will allow for 
the Bureau of Reclamation to continue funding its share of this 
project.
    The main focus of this project is the construction of the salinity 
management pipeline, also known as a brine line. This pipeline would 
collect and convey brackish groundwater and recycled water for direct 
use, stretching local water supplies. This project would transport 
brine and high quality saline wastewater and brine to either an ocean 
discharge facility or salt tolerant water users such as sod farms, game 
preserves or coastal wetlands.
    The use of this new water source will reduce the demand for 
imported water, improve local water resources, and provide a dependable 
source of water for much of my district.
    More specifically, this legislation would allow Calleguas to expand 
the water delivery capabilities for roughly 600,000 of my constituents. 
And in the era of droughts and water shortages throughout California, 
as a resident of Southern California, I believe we need to do all we 
can to reduce our dependence on imported water.
    I look forward to the testimony of Susan Mulligan, the Manager of 
Engineering for Calleguas and a true expert on this project who can 
explain in great detail, the specific benefits of what this additional 
funding from my legislation will accomplish.
    Again, thank you Madame Chair for your time and allowing for the 
consideration of H.R. 2252.

                                 <all>

</pre></body></html>
